<html>
<title> - CLIMATE CHANGE RESEARCH AND SCIENTIFIC INTEGRITY</title>
<body><pre>[Senate Hearing 110-1060]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 110-1060

                        CLIMATE CHANGE RESEARCH 
                        AND SCIENTIFIC INTEGRITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
35-039 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
             Lisa J. Sutherland, Republican Staff Director
          Christine D. Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 7, 2007.................................     1
Statement of Senator Inouye......................................     1
    Letter, dated July 5, 2006, from Steven F. Hayward, Ph.D. and 
      Kenneth Green, Ph.D., Scholars, American Enterprise 
      Institute for Public Policy Research to Prof. Steve 
      Schroeder, Department of Atmospheric Sciences, Texas A&M 
      University.................................................    53
Statement of Senator Kerry.......................................     5
Statement of Senator Klobuchar...................................     8
Statement of Senator Lautenberg..................................     7
Statement of Senator McCain......................................     3
    Prepared statement...........................................     4
Statement of Senator Nelson......................................    60
Statement of Senator Stevens.....................................     2

                               Witnesses

Anthes, Richard A., Ph.D., President, University Corporation for 
  Atmospheric Research (UCAR); Co-Chair, Committee on Earth 
  Science and Applications from Space, National Research Council, 
  The National Academies.........................................    14
    Prepared statement...........................................    16
Brennan, Dr. William, Acting Director, U.S. Climate Change 
  Science Program, Deputy Assistant Secretary for International 
  Affairs, National Oceanic and Atmospheric Administration, DOC..     9
    Prepared statement...........................................    11
Knutson, Thomas R., Research Meteorologist, Geophysical Fluid 
  Dynamics Laboratory, National Oceanic and Atmospheric 
  Administration, DOC............................................    23
    Prepared statement...........................................    24
Mahoney, James R., Ph.D., Environmental Consultant...............    26
    Prepared statement...........................................    28
Piltz, Rick, Director, Climate Science Watch, Government 
  Accountability Project.........................................    32
    Prepared statement...........................................    34
Rowland, Dr. F. Sherwood, Professor, Chemistry and Earth System 
  Science, School of Physical Sciences, University of California, 
  Irvine.........................................................    49
    Prepared statement...........................................    51

                                Appendix

Gleick, Peter H., Ph.D., President, Pacific Institute; MacArthur 
  Fellow; Member, U.S. National Academy of Science, prepared 
  statement......................................................    73
Pryor, Hon. Mark, U.S. Senator from Arkansas, prepared statement.    73
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Richard A. Anthes, Ph.D......................................    78
    Rick Piltz...................................................    80
    Dr. F. Sherwood Rowland......................................    86
Response to written questions submitted by Hon. Mark Pryor to Dr. 
  William Brennan................................................    78
Response to written question submitted by Hon. Ted Stevens to:
    Richard A. Anthes, Ph.D......................................    79
    Thomas R. Knutson............................................    88

 
            CLIMATE CHANGE RESEARCH AND SCIENTIFIC INTEGRITY

                              ----------                              


                      WEDNESDAY, FEBRUARY 7, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room SR-253, Russell Senate Office Building. Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I apologize for my delay, believe it or not, 
I was stuck in the elevator.
    Over the course of this Congress, the Commerce Committee 
will pursue legislation to strengthen the Federal climate 
research program. We owe it to our constituents and future 
generations to support the fundamental science needed to fully 
understand the impact of climate change.
    However, before we can even begin to debate climate change, 
we must investigate the numerous allegations that our Federal 
scientists are being constrained from conveying their research 
findings and conclusions. Such allegations are very serious.
    We, in Congress, as well as decisionmakers within the 
regulatory agencies must examine and weigh the scientific 
evidence to guide changes in policies, laws and regulations.
    To make the best decisions, we need free access to unbiased 
scientific findings and conclusions, because the quality of our 
decisions is highly dependent upon the science we use to make 
those decisions.
    To deny Federal scientists the right to speak, or to change 
the findings of their work, or to deny the release of their 
work, basically creating an atmosphere of intimidation and 
fear, is a great disservice to the public.
    On January 30, 2007, the Union of Concerned Scientists 
issued a report called, ``Atmosphere of Pressure: Political 
Interference in Federal Climate Science.'' The report found and 
documented an alarming number of instances in which Federal 
scientists and employees were pressured to downplay the 
significance of their climate science work, or were prevented 
from sharing the results and conclusions with the public.
    Today's hearing will examine these claims, which suggests 
that we have not always had unfettered access to climate change 
research data. Let me be clear to those who criticize this 
report, claiming that the survey size is too small; one 
incidence of political tampering with science is too many.
    Dr. Rowland, who appears today, shared the 1995 Nobel Prize 
in Chemistry for his work on the environmental effects of 
chlorofluorocarbons or CFCs. His work eventually led to the 
Montreal Protocol, an international treaty, which stopped the 
widespread use of CFCs and helped reverse the damage to the 
ozone layer.
    Dr. Rowland serves as an example of the role that accurate, 
undistorted science can play in achieving sound policy.
    With our witnesses, we'll discuss the extent to which 
government scientists are able to communicate their results and 
conclusions to Congress and the public and will make 
recommendations on how to increase scientific openness in all 
of the Federal agencies.
    Of course, the communication of scientific information is 
just half of the story of science integrity. We also must fund 
appropriate research to ensure that climate science advances. 
So, we have another witness who will discuss the funding of 
climate research, including important satellite measurements.
    We have much work ahead of us if we are to seriously 
address the issue of climate change.
    We begin with the issue of scientific integrity as the 
foundation of that effort. So, I thank all of our witnesses for 
joining us today, and we're looking forward to a lively 
discussion. And may I now call upon the Vice Chairman of the 
Committee.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, global climate change is a 
very serious problem for us, becoming more so every day. As far 
as the United States is concerned, the evidence of global 
climate change is more apparent in my home State of Alaska than 
anywhere else.
    During my most recent trip to the West Coast of Alaska, I 
witnessed an incident where the fuel storage tank for the whole 
village of Kivalina nearly fell into the ocean due to severe 
winter storms and coastal erosion. The potential catastrophe 
was averted through emergency action taken by the U.S. Army 
Corps of Engineers, but over the past years we've seen many 
other changes in the Arctic besides severe coastal erosion.
    The Arctic sea ice is receding, the trees are going further 
north, the permafrost is thawing, the impact of climate change 
is real, and we need to prepare for its effects, and to do 
this, we do need sound science.
    I am concerned about the human impacts on our climate, and 
that's why I have introduced Senate Bill 183, the Improved 
Passenger Automobile Fuel Economy Act of 2007. Some think 
that's a strange thing, coming from me, but I believe it's 
essential that we raise the questions about how much of this 
effect is being caused by man, and how much of it is really a 
natural phenomenon?
    This bill will require a fuel economy standard of 40 miles 
per gallon for passenger automobiles manufactured in the model 
year 2017. I believe we do have the technology-base to do that.
    The transportation sector generates more than one-third of 
the Nation's greenhouse gas emissions, I believe we must demand 
improved fuel economy from our vehicles, and this bill requires 
a voluntary national registry for the greenhouse gas trading 
credits. I am extremely alarmed by the information I'm getting 
about methane, and its release from areas like our permafrost 
in Alaska and in Russia.
    We need to look at other possible causes of climate change. 
Over the past 100 years, the sun has radiated additional 
energy, which is responsible in part for the increase of global 
temperature changes. Researchers such as Dr. Syun Akasofu at 
our International Arctic Research Center in Alaska, found that 
the Atlantic and Pacific oscillations have been dumping warm 
ocean water in the Arctic Ocean. This has greatly contributed 
to the degradation of the Arctic sea ice.
    In order to obtain a better understanding of these, and 
other factors, we need a robust climate science budget, and I 
support you in the concept that it should be totally non-
partisan, and it should be a concept of validating what each 
researcher is asserting.
    We have so many different assertions now as to what is 
causing climate change. Really, good scientist's conclusions 
are based on their own research, and their computer runs remind 
me of my first introduction to computers, and that is, you've 
got to be sure what goes in if you want to understand what 
comes out. Thank you.
    The Chairman. Thank you very much.
    Senator McCain?

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman, and I thank you 
for holding this hearing. I would just like to briefly say 
that, for years we have been frustrated by the lack of 
recognition, much less cooperation, on the part of the 
Administration in addressing this issue. Required reports that 
I would ask be made part of the record have never been--that 
were required by law--have never been submitted by the 
Administration, and fortunately, hopefully, we have now turned 
a corner and that there is finally recognition that the debate 
is over.
    Now, the question is, how do we accommodate, as a world, 
conditions that--to some degree--are irreversible, and how do 
we as a Congress and a Nation, take the required measures to 
reduce the emissions of greenhouse gases?
    So, I thank you for holding this hearing, Mr. Chairman. I'd 
just like to--an example of the kind of--it was back in Fiscal 
Year 2002, Admiral Lautenbacher said, ``The greenhouse gases 
are rising today, there's not anything you can do, short of 
everyone going to bed for the next 30 years, to stop them from 
rising. So, the object is to stop the growth of greenhouse 
gases.''
    This is the kind of attitude that, unfortunately we had 
from the Administration for many, many years, including the 
years that I had the honor of chairing this committee. I hope 
today, and in the future, we will turn the corner and get 
serious about addressing them.
    And I thank you for holding this hearing, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Thank you Mr. Chairman for calling today's hearing. I applaud your 
efforts to continue with these committee hearings concerning one of the 
most challenging issues of our time, climate change.
    As indicated by the Intergovernmental Panel on Climate Change's 
Fourth Assessment Report Summary for Policymakers which was issued last 
Friday, there is overwhelming scientific evidence that mankind is 
altering the world's climate system. The Report's assessment is yet 
another call for us to take this problem seriously and to immediately 
take actions to make significant reductions in our greenhouse gas 
emissions.
    I am pleased that the Administration is represented here today to 
discuss this serious problem. I hope that we can have an open 
discussion on whether or not this Administration have sought to alter 
the work of or denied public access to many of our top scientists.
    As I have traveled around the world, I have heard from many 
scientists of their concerns on this issue. As a result of some 
scientists coming forth publicly with their claims, the Administration 
has started the process of revising their policies to provide for 
greater openness of scientific research results. This problem must be 
corrected immediately. Otherwise, we risk losing the confidence of the 
American public and the broader research community regarding the 
quality and credibility of government-sponsored scientific research 
results.
    Mr. Chairman, I also note the fact the other Senate Committees are 
also having hearings on climate change. I think this a good thing and 
will only serve to further educate the Members on this complex issue.
    A couple of weeks ago, a coalition of major U.S.-based businesses, 
with a combined market capitalization of over $750 billion, joined with 
environmental organizations to call upon our Federal Government to 
quickly enact strong national legislation to achieve significant 
reductions of greenhouse gas emissions. The members of the U.S. Climate 
Action Partnership recognize that setting the ground rules now for 
managing greenhouse gasses will unleash American ingenuity in an all 
out effort to meet this complicated challenge.
    In their letter to President Bush, the coalition said that, 
``properly constructed policy can be economically sustainable, 
environmentally responsible, and politically achievable. Swift 
legislative action on our proposal would encourage innovation and 
provide needed U.S. leadership on this global challenge.'' They further 
stated that ``. . . climate change will create more economic 
opportunities than risks for the U.S. economy.'' I agree.
    Senator Lieberman and I recently introduced our bill S. 280, the 
Climate Stewardship and Innovation Act of 2007. This legislation is 
based upon five guiding principles.
    First, it must have rational, mandatory emission reduction targets 
and timetables. It must be goal oriented, and have both environmental 
and economic integrity. Let us realize that the climate system reacts 
not to emission intensity but to atmospheric concentration levels. We 
need policy that will produce necessary reductions, not merely check 
political boxes. The reductions must be feasible and based on sound 
science, and this is what we have tried to do in our bill. We realized 
that this problem is an environmental problem with significant economic 
implications and not an economic problem with significant environmental 
implications.
    Second, it must utilize a market-based, economy-wide ``cap and 
trade'' system. It must limit greenhouse gas emissions and allow the 
trading of emission credits across the economy to drive enterprise, 
innovation and efficiency. This is the central component of our 
legislation. Voluntary efforts will not change the status quo, taxes 
are counterproductive, and markets are more dependable than regulators 
in effecting sustainable change.
    Third, it must include mechanisms to minimize costs and work 
effectively with other markets. The ``trade'' part of ``cap and trade'' 
is such a mechanism, but it's clear it must be bolstered by other 
assurances that costs will be minimized. I am as concerned as anyone 
about the economic impacts associated with any climate change 
legislation. I know that many economists are developing increasingly 
sophisticated ways to project future costs of compliance. Lately, we 
have seen the increased interest in this area of research. As we learn 
more from these models about additional action items to further reduce 
costs, we intend to incorporate them. Already, based upon earlier 
economic analysis, we have added offset provisions in this bill in an 
effort to minimize costs and to provide for the creation of new 
markets. And, I assure my colleagues, we will continue to seek new and 
innovative ways to further minimize costs. Let me again mention what 
the coalition of CEO's of major U.S.-based companies and environmental 
groups said last week, ``In our view, the climate change challenge will 
create more economic opportunities than risks for the U.S. economy.''
    Fourth, it must spur the development and deployment of advanced 
technology. Nuclear, solar, and other alternative energy must be part 
of the equation and we need a dedicated national commitment to develop 
and bring to market the technologies of the future as a matter of good 
environmental and economic policy. There will be a growing global 
market for these technologies and the U.S. will benefit greatly from 
being competitive and capturing its share of these markets. Our 
legislation includes a comprehensive technology title that would go a 
long way toward meeting this goal. Unlike the Energy bill, it would be 
funded using the proceeds from the auctioning of allowable emission 
credits, rather than from the use of taxpayers' funds or appropriations 
that will never materialize.
    And fifth, it must facilitate international efforts to solve the 
problem. Global warming is an international problem requiring an 
international effort. The United States has an obligation to lead. If 
we don't lead proactively, we will find ourselves following. There is 
no in between. However, our leadership cannot replace the need for 
action by countries such as India and China. We must spur and 
facilitate it. We have added provisions that would allow U.S. companies 
to enter into partnerships in developing countries for the purpose of 
conducting projects to achieve certified emission reductions, which may 
be traded on the international market.
    These five components represent a serious challenge that will 
require a great deal of effort, the concentration of substantial 
intellectual power, and the continued efforts of our colleagues and 
those in the environmental, industrial, economic, and national security 
communities.
    Again, I thank you for calling this hearing. I welcome our 
witnesses here today and look forward to their testimony.

    The Chairman. Thank you very much, and I can assure you, 
we'll do our very best, sir.
    Senator Kerry?

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you very much. Thank you 
for holding this hearing. I thank Senator McCain, also, because 
he held some important hearings for a period of time as 
Chairman.
    This is a very important beginning, Mr. Chairman. There are 
two great issues in our Congress right now, one is obviously a 
war that we're engaged in, in Iraq, and this. This is the other 
great issue.
    It's hard sometimes, because of the draconian scenarios 
that the end-game draw for us all with respect to global 
climate change. It's hard for some people to wrap their hands 
around it and say, ``Wow, this is really serious,'' or ``We 
could do something about it.''
    The bottom line is, as you know, Mr. Chairman, we have no 
choice. We have to. I've been involved in this, since I got on 
the Commerce Committee. Senator Gore and I, and a few others 
held the first hearings on this back in 1987. We then became 
participants in the first inter-parliamentary conference, 
sometime around 1989-1990, I remember. Then we went down to 
Rio, and took part in the Earth Summit, and came up with an 
agreed-upon framework for voluntary reductions. But even then, 
in 1990, the science was there and people were accepting that 
we had to do something. In 1992, President George Herbert 
Walker Bush signed that Framework Agreement, and we ratified 
it.
    Since then, the science has been growing. You've had the UN 
IPCC Report of 2001, which could not have been more clear. In 
fact, we've had 928 peer-reviewed studies, all of which confirm 
the human input to global climate change, to the warming, to 
the greenhouse gas effect, and all of us understand the basic 
science. That, without the greenhouse effect, life wouldn't 
exist on Earth. We all understand that it's containing gases--
and I'm not going to go through it all now, except to say that 
the science has been building on this.
    As John Holdren at Wood's Hole in Harvard says, you know, 
the other side has a responsibility to show something to the 
contrary. There isn't one peer-reviewed study, not one, that 
suggests an alternative that scientists accept as to why the 
warming is taking place, and not one peer-reviewed study that 
tells us why there might be this warming outside of human-
induced greenhouse gases.
    So, what are we doing here? Now, scientists tell us there 
is a confirmed consensus that we have a 10-year window. Now, 
what happens if we're all wrong? Those of us who believe the 
science of 928 peer-reviewed reports, and of over 1,000-1,500 
scientists, and over 600 who just gathered in Paris--what 
happens if we're wrong? And we embrace doing things about clean 
fuels and efficiency; and clean coal technology? The ``Big 
Three'' of what we have available to us. If we're wrong, we've 
got cleaner air, a healthier Nation, more jobs, better 
technology, and we've protected the environment.
    What happens if they're wrong? Catastrophe. That's the 
ledger, here. Mr. Chairman, you know this is important because 
this Administration has been beyond irresponsible on this. 
Beyond irresponsible. In the face of all of this science, in 
the face of all of these reports, they're playing games, 
political games for money.
    What they do is they take the science, and they tailor it 
to reflect their political goals. The interference is 
stunning--from deleting key words, deleting words, this is 
George Orwell at its best--deleting ``warming climate,'' 
deleting ``global climate change,'' deleting ``climate change'' 
from press releases, changing agency mission statements, de-
emphasizing climate research, denying media access to prominent 
climate scientists. It's absolutely stunning, what's been going 
on. And it has to stop.
    This is the right place to begin, Mr. Chairman, looking at 
what has been going on in terms of blocking America's access to 
the truth. And we have to build on this, but Senator McCain is 
right--we all have to recognize, this Congress has got to take 
the steps to deal with this. The signs are everywhere.
    I've just finished, actually, writing a book on this. You 
can look at what's happening in Alaska alone. I think, Senator, 
if I'm wrong--didn't they spend several hundred million dollars 
to move a village?
    Senator Stevens. About to.
    Senator Kerry. They are going to have to do it. And, the 
fisherman can't go out and fish to the extent they were, 
because the slush is such, they can't ride snowmobiles, reduced 
to boats, the winter storms prevent them from doing it--life is 
changing.
    Senator Stevens. I'd add to that, they can't afford the 
gas.
    Senator Kerry. And they can't afford it.
    In Alaska they can't afford it? God, I thought they gave it 
to them for free there.
    [Laughter.]
    Senator Kerry. When you sit with Jim Hansen, and Dr. Hansen 
tells you months ago that within the next 30 years, the Arctic 
ice is going to disappear, it's not a question of if, and, or 
but. Barring some God-intervention that we can't predict, it's 
gone. And that means more water exposed to the sun, which heats 
up, which means the Greenland Ice Sheet is more at risk, and 
we're just playing with the potential for catastrophe. So, I 
thank you, Mr. Chairman. I think there is nothing more 
important for us to focus on, and I intend to certainly pour my 
energies into this, because I think it's a great challenge of 
our time.
    The Chairman. I thank you very much. I was ready to pack my 
bags.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, for holding this 
hearing, and finally coming to grips with something that has 
been obvious in our view for some time now.
    And I do want to welcome this distinguished panel, 
particularly Mr. Tom Knutson, who is a scientist from the NOAA 
lab in Princeton, New Jersey.
    The first question that arises is whether or not there's 
actually global warming taking place? And finally, when it 
smacks us in the face, we say, ``You know what? It feels warmer 
here.'' The warmest month, the warmest year, all of the 
statistics that tell you what the condition is.
    I sit on another committee, the Environment and Public 
Works Committee, and it was there that it was suggested that 
global warming was one of the worst--was the worst hoax 
perpetrated on man. And this is not years ago, this is weeks 
ago that this proposition was put out in front of us.
    The next one was whether or not human action has any 
influence on it. We had a scientist there who was brought in 
from France, from the Pasteur Institute, who said that there 
was really a global warming going on, that we'd see more 
incidents of malaria. And we don't see the mosquito population 
growing, that was very comforting, I must tell you.
    So, this total state of denial is ridiculous, and finally, 
now, the truth is going to come out. If anyone had any doubt on 
global warming's effect on the Earth, or the human effect on 
global warming, the recent IPCC report just erased all of the 
doubt. The work of 2,500 scientists, 113 countries, researchers 
who were free to let science speak for itself, down to my 
colleagues, who have said the theory that the warming of the 
climate system is unequivocal, and human activity is to blame.
    The importance of what the report says is the fact that 
this report relies on uncensored, unedited, unmodified science 
to say so. In contrast to the honesty of the IPCC Report, the 
Bush Administration has permitted the removal, the censored 
redaction of data, that was developed, destroying the meaning 
of the scientists in order to advance a political agenda.
    The Administration has obstructed, blocked, and delayed 
release of government reports on global warming, they deleted 
key words, ``global warming,'' ``warming climate'' from public 
documents. It's hard to imagine that something so crude would 
purvey the Administration's view, and the handling of science.
    Well, we're going to make a change, this Committee's 
hearing indicates that, as was said in a movie, ``we're sick 
and tired of it, we're not going to take it anymore.''
    Thank you very much.
    The Chairman. Thank you very much, and now may I call upon 
Senator Klobuchar?

             STATEMENT OF THE HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman, and I'm very 
pleased that the Commerce Committee is looking at the issue of 
global warming.
    I'm on the Agriculture Committee and the Environment and 
Public Works Committee, in addition to this committee, so it 
puts me in a unique position to continue to work on this issue. 
The bad news is Secretary Johanns is testifying in the 
Agriculture Committee, so I'm going to be brief.
    I was just at home, in Minnesota over the weekend, where 
you know, we had 70-below-zero wind chills. So, global warming, 
I didn't think, would be the topic people would want to talk 
about. But, it was amazing to me, whether it was hunters who 
are seeing the effects firsthand throughout our state, or 
people who ice fish who took months to put their fish houses 
out. People are very concerned about this. It has gone beyond 
the science, to regular people seeing the effects of global 
warming in our state, and wanting to do something about it.
    Like most Americans, I'm an optimist. I come from the state 
that gave you the pacemaker and the Post-It note, and I believe 
in the power of science, in the power of innovation, in the 
power of technology. I believe in the intelligence and the 
ingenuity of the American people when we're confronted with a 
challenge. That's why I'm so troubled when I hear about efforts 
to elevate politics over science; when I learn that our best 
and our brightest thinkers and researchers are not getting the 
breathing space that they need to do their work.
    I believe we can do better. I come from the background of a 
prosecutor, and the cardinal rule in our job is that evidence, 
and not politics, determines our decisions in charging and 
prosecuting criminals. That's a simple but all-important 
concept. And that's where I come from when I look at this issue 
before us today.
    That's why I think our government's approach to climate 
change has to rest on three principles. Our policy decisions on 
climate change and global warming must be guided by the best 
science available, not by the worst partisan politics. Second, 
our government has a duty to give our scientists and 
researchers all of the support they need to help us confront 
and overcome this enormous challenge. And third, the American 
public has a right to hear, consider and debate the conclusions 
of our scientists. And our scientists have a right to express 
their views without government interference or suppression.
    If we do not adhere to these principles, we're going to be 
falling farther, and farther behind in our efforts to tackle 
global warming. I appreciate the leadership of people in this 
room, like Senator McCain, and Senator Kerry on this issue. I 
believe we are close to getting things done on this issue, that 
there is a movement across this country, a bipartisan movement. 
But, to do that, we have to get the science right, and we can't 
suppress the work of our scientists.
    So, I thank you, thank you very much.
    The Chairman. Thank you very much, Senator. And now we come 
to the panel.
    Our first witness, the Deputy Assistant Secretary for 
International Affairs at the National Oceanic and Atmospheric 
Administration, and Acting Director of the Climate Change 
Science Program, Dr. Bill Brennan.
    Dr. Brennan?

STATEMENT OF DR. WILLIAM BRENNAN, ACTING DIRECTOR, U.S. CLIMATE 
                CHANGE SCIENCE PROGRAM, DEPUTY 
        ASSISTANT SECRETARY FOR INTERNATIONAL AFFAIRS, 
      NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, DOC

    Dr. Brennan. Thank you, Mr. Chairman, I'll see if I can 
encroach on Dr. Anthes' space just a little bit here.
    Chairman Inouye, and Vice Chairman Stevens, I appreciate 
the opportunity to testify before you today about climate 
change research and scientific integrity.
    My name is Bill Brennan, and since June 2006, I have been 
the Acting Director of the U.S. Climate Change Science Program, 
in addition to my position as the Deputy Assistant Secretary 
for International Affairs with the Department of Commerce's 
National Oceanic and Atmospheric Administration.
    In 2001, President Bush commissioned the National Academy 
of Sciences to do a special report on the state of the science 
on climate change. The Academy responded that the surface 
temperature of the Earth is warming, and that human activities 
are largely responsible. The President followed up on this 
report by creating a special cabinet-level committee, headed by 
the Departments of Commerce and Energy, as well as creating the 
Climate Change Science Program, and the Climate Change 
Technology Program, to lead the Administration's efforts to 
confront this serious environmental problem.
    CCSP integrates Federal research on global change, and 
oversees the nearly $2 billion spent by 13 Federal agencies. 
This program is charged with investigating natural and human-
induced changes to Earth's environmental systems, and to 
monitoring and understanding and predicting global change. The 
goal is to provide a sound, scientific basis for Federal, 
State, and local decisionmakers, resource managers, the science 
community, the media, and the general public.
    With the February 2, 2007 release of the latest report by 
the Intergovernmental Panel on Climate Change, there is even 
more certainty about the observed warming as a result of the 
increase in greenhouse gases for which humans have been 
responsible. Not only does the Bush Administration accept the 
report, U.S. science and government played a large role in its 
development. Many U.S. scientists were instrumental in putting 
this report together.
    U.S. observation networks, computer modeling labs and 
research programs all provided crucial data and analyses. 
Without the efforts of the United States, much of this report 
would not have been possible.
    Over the next 2 years, CCSP will be completing a series of 
21 Synthesis and Assessment Reports. The first report released 
in May 2006, helped correct errors identified in satellite 
data, and contributed significantly to the IPCC's findings. 
Soon, we will have a report on the North American carbon cycle, 
which will focus on key issues for carbon management and 
policy. Later this year, the CCSP will address the sensitivity 
and adaptability of ecosystems to climate change.
    These reports are being developed with an intensive 
commitment to scientific peer-review, transparency and public 
involvement. CCSP continues to engage the National Research 
Council, to provide a review of the conduct and performance of 
the program, and their analysis is available to the public.
    I want to thank Dr. James Mahoney for all of his efforts in 
creating this process, and leading the CCSP for the last 4 
years.
    Regarding concerns about scientific communications, I think 
it is important to point out that to the best of my knowledge, 
no one has suggested the science or the research findings have 
been interfered with. But concerns have been raised about the 
intersection of science policy and science, and how that is 
communicated to the public. The Bush Administration strongly 
believes scientific findings should be communicated clearly, 
accurately and completely. The White House has asked 
Departments and agencies to review their respective policies to 
ensure scientific openness, and ensure that employees and 
management understand their rights and obligations under these 
policies.
    Some NOAA scientists have expressed concerns about their 
ability to talk to the media. Admiral Lautenbacher, NOAA's 
Administrator, and a scientist himself, sent communications to 
every NOAA employee, clearly stating his commitment to 
scientific integrity and open discussion of scientific results. 
He has conducted several town hall meetings around the country 
with NOAA employees, and expressly stated that anyone who feels 
that NOAA or the Department of Commerce are not supporting the 
free flow of scientific research, they should contact him 
personally.
    The Department has revised three outdated and contradictory 
communications policies. Under the new policy, scientists and 
researchers are free to communicate their research findings, 
and are encouraged to work with the public affairs office when 
it comes to communicating the research. However, this is not a 
requirement.
    This new policy also contains a strong appeals process to 
quickly address any issues that may arise, and NOAA scientists 
and employees provided the Department with valuable feedback, 
and have helped make this policy a much better product.
    Since 2001, the Bush Administration has been clear that 
climate change is a serious problem. The Earth is warming, and 
humans are the leading cause. The Administration has spent 
nearly $29 billion on climate change, including $9 billion on 
climate change science, more than all other nations combined. 
U.S. researchers and funding are responsible for much of the 
world's understanding of climate change, and the recent IPCC 
report would not have been possible without the United States.
    Regarding scientific communications and openness, the 
Administration takes the concerns of its scientists very 
seriously, and I am particularly proud of the CCSP Program, 
which has a process that is open and transparent, including 
public reviews of its reports, and independent reviews of its 
performance.
    Thank you, Mr. Chairman, for allowing me to testify before 
you today.
    [The prepared statement of Dr. Brennan follows:]

   Prepared Statement of Dr. William Brennan, Acting Director, U.S. 
    Climate Change Science Program, Deputy Assistant Secretary for 
International Affairs, National Oceanic and Atmospheric Administration, 
                                  DOC
    Chairman Inouye and Vice Chairman Stevens, I appreciate the 
opportunity to testify to you today about climate change research and 
scientific integrity. My name is Bill Brennan, and since June 2006, I 
have been the Acting Director of the U.S. Climate Change Science 
Program, as well as the Deputy Assistant Secretary for International 
Affairs with the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA).
    I will first talk about the Climate Change Science Program and the 
current state of climate research and then I will discuss the issue of 
scientific communications, emphasizing issues at NOAA.
What Is CCSP?
    The U.S. Climate Change Science Program (CCSP) was established by 
President Bush in 2002 and integrates Federal research on global 
climate change, as sponsored by 13 Federal agencies. \1\ CCSP is a 
multi-agency program charged with: investigating natural and human-
induced changes in the Earth's global environmental system; monitoring, 
understanding, and predicting global change; and providing a sound 
scientific basis for national and international decisionmaking. The 
CCSP combines the near-term focus of the Administration's Climate 
Change Research Initiative, initiated in 2001--including a focus on 
advancing the understanding of aerosols, carbon sources and sinks, and 
improvements in climate modeling--with the breadth of the long-term 
research elements of the U.S. Global Change Research Program.
---------------------------------------------------------------------------
    \1\ The CCSP participating agencies include the Departments of 
Agriculture, Commerce, Defense, Energy, Health and Human Services, the 
Interior, State, and Transportation, the National Science Foundation, 
the Environmental Protection Agency (EPA), the National Aeronautics and 
Space Administration (NASA), U.S. Agency for International Development, 
and the Smithsonian Institution. Additional CCSP liaisons reside in the 
Office of Science and Technology Policy, the Council on Environmental 
Quality, the National Economic Council, and the Office of Management 
and Budget.
---------------------------------------------------------------------------
    Since CCSP was created in 2002, the program has successfully 
integrated a wide range of research, climate science priorities and 
budgets of the 13 CCSP agencies. CCSP integrates research and 
observational approaches across disciplinary boundaries and is also 
working to create more seamless approaches between theory, modeling, 
observations, and applications required to address the multiple 
scientific challenges posed by changes in climate. CCSP is taking on 
the most challenging questions in climate science and is developing 
products to convey the most advanced state of knowledge to be used by 
Federal, state and local decisionmakers, resource managers, the science 
community, the media, and the general public. Since 2002, the 
Administration has spent approximately $9 billion on climate change 
science.
Agreement on Climate Change
    In 2001, the President asked the National Academy of Sciences to do 
a special report on the state of the science on climate change. The 
report, entitled Climate Change Science: An Analysis of Some Key 
Questions stated: ``Greenhouse gases are accumulating in Earth's 
atmosphere as a result of human activities, causing surface 
temperatures and subsurface ocean temperatures to rise. Temperatures 
are, in fact, rising. The changes observed over the last several 
decades are likely mostly due to human activities, but we cannot rule 
out that some significant part of these changes is also a reflection of 
natural variability.'' In reaction to the report, the President created 
a cabinet-level committee, and in particular CCSP and the Climate 
Change Technology Program to lead the Administration's efforts to 
confront this serious environmental problem. Since 2001, the 
Administration has devoted nearly $29 billion to climate-related 
science, technology, international assistance, and incentive programs.
    The latest report by the Intergovernmental Panel on Climate Change 
(IPCC), released on February 2, 2007, expressed even more certainty 
that the changes observed over the last several decades are mostly due 
to human activities, primarily through the release of greenhouse gases.
    The Bush Administration accepts the published report, and notes 
that the U.S. Government played a large role in its development. Many 
U.S. scientists were instrumental in putting together this report, 
especially Dr. Susan Solomon, a senior scientist at NOAA's Earth System 
Research Laboratory in Boulder, Colorado, who was Co-Chair of the 
Working Group I (WG1). U.S. observations networks, computer modeling 
efforts, and research programs all provided crucial data and analysis. 
Without the efforts of the Administration and the CCSP program, much of 
this report would not have been possible.
    The U.S. Climate Change Science Program managed the U.S. author 
nomination process for IPCC WG1, including soliciting complete 
applications, interfacing with relevant Technical Support Units and the 
Secretariat in Geneva, convening disciplinary expert panels, hosting 
series' of meetings, and consolidating all materials of selected 
finalists. CCSP also managed the Expert and Government Reviews for WG1 
by providing technical advice and networking infrastructure. CCSP 
agencies assisted with issuing a public call for comments, collecting 
comments, assembling expert panels to review inputs for technical 
merit, accepting/rejecting/modifying said input, and preparing the 
final package.
    The work conducted by the Federal agencies as part of CCSP was 
critical to gaining a greater understanding of climate change 
processes, including relating observations and models, for the IPCC 
report. CCSP Synthesis and Assessment Report 1.1 reconciled lingering 
and long-standing difficulties that have impeded understanding of 
changes in atmospheric temperatures and the basic causes of these 
changes. It brought models and observations more closely in line, and 
provided increased confidence in our ability to model and predict 
future changes.
    Over the next 2 years CCSP will be completing a series of 21 
Synthesis and Assessment Reports, with the report on emissions 
scenarios to be released shortly. These reports describe the state of 
the science on a range of key issues, thereby providing further 
important contributions to the Nation's and world's discussion on 
climate change. The first report, released in May 2006, helped correct 
errors identified in satellite data and other temperature observations 
in the troposphere and stratosphere, and contributed significantly to 
the IPCC's increased confidence in the influence of anthropogenic 
greenhouse gases on temperature increase since the mid-20th century. 
Due out in the next couple of months will be a report on the North 
American Carbon Cycle, which will focus on key issues for carbon 
management and policy. In addition, later this year the CCSP will 
release several products that address the sensitivity and adaptability 
of ecosystems to climate change.
How Are CCSP Reports Produced?
    I want to describe the process by which the Climate Change Science 
Program is producing its 21 reports--which is with an intensive 
commitment to scientific peer review, transparency and public 
involvement. The specific details of each step of the process are 
available on the CCSP website (http://www.climatescience.gov). All of 
the products are being drafted by expert groups in compliance with the 
provisions of the Federal Advisory Committee Act and each product will 
receive intensive scientific peer review, as well as at least two 
general public reviews (one for the prospectus and one for the full 
report). CCSP has also engaged the National Research Council (NRC) to 
provide continuing analysis and advice on the conduct of the CCSP 
program including the preparation of the CCSP scientific products. The 
NRC advisory reports will all be public documents, and will provide the 
Congress and all interested stakeholders with independent reviews of 
CCSP performance. I want to publicly acknowledge and thank Dr. James 
Mahoney, who is on the panel today, for all his work and efforts in 
creating this process and leading the CCSP program for 4 years.
Administration View on Scientific Communications
    The Bush Administration values science as a basis for effective 
policy action in its service to the public, and regards the timely, 
complete and accurate communication of scientific information as an 
important part of that service. The White House, through the Office of 
Science and Technology Policy, asked departments and agencies to review 
their respective policies to ensure scientific openness and that 
employees and management understand their rights and obligations under 
these policies.
NOAA Scientific Communication
    The media have covered a handful of instances where NOAA scientists 
have expressed concerns about their ability to talk to the media about 
their research. Admiral Lautenbacher, NOAA's Administrator and a 
scientist himself, continues to take this issue very seriously. He has 
sent communications to every NOAA employee about the importance of open 
communications, as science is the foundation for everything that NOAA 
does as an agency. He has conducted several town hall meetings around 
the country with NOAA employees and expressly stated that anyone who 
feels that NOAA or the Department of Commerce processes are not 
supporting the free flow of scientific research should contact him 
personally. I would like to point out that NOAA scientists publish 
between 800 and 1,000 scientific papers a year. In coordination with 
NOAA's public affairs office, frequent interviews are conducted on our 
research and several hundred press releases are sent out each year.
DOC Communication's Policy
    The issue of scientific integrity is important not only to NOAA but 
also the Department of Commerce, which has several bureaus, in addition 
to NOAA where scientists and researchers provide crucial information to 
the media and the public on a regular basis. Secretary Gutierrez and 
Deputy Secretary Sampson have made this issue a top priority for the 
Department and have reiterated their strong support for open 
communication of peer-reviewed science. When the Department reviewed 
its current communications policies, it found they dated back decades 
and are based on those set up by President Jimmy Carter. There are 
actually three different department-wide orders that at times are 
contradictory and certainly are woefully outdated. The Department has 
accordingly decided to consolidate and simplify the three dated 
policies into one policy relevant to current times.
    It is my understanding that the drafting process is almost complete 
and that the Department is in the process of fulfilling its labor 
relations obligations regarding union consultation. In this drafting 
process, the Department sought the input of many scientists and 
employees. As I understand it, this was an unprecedented process, 
involving three separate rounds of input and feedback. The Department 
has been very pleased with the constructive feedback and officials feel 
the draft policy has been greatly improved due to this feedback. The 
policy will reaffirm the Department's goal of fostering transparency 
and media and public access, including a specific statement that 
clarifies the independence of fundamental research communications. And, 
the new policy has a strong appeals process so that if someone feels 
aggrieved, they can seek a quick appeal. It has been and continues to 
be the Secretary's policy and that of his leadership team to encourage 
and support open communication of scientific research and findings.
Conclusion
    Since 2001, the Bush Administration has spent $29 billion on 
climate-related science, technology, international assistance, and 
incentive programs. Federal researchers and grant money from the U.S. 
Government contribute substantially to the world's understanding of 
climate change. The recent IPCC report would not have been possible 
without the United States. The Administration has been clear that 
climate change is a serious problem, the Earth is warming and humans 
are the leading cause.
    The report of Working Group I of the IPCC demonstrates that the 
level of scientific certainty has increased regarding the human impact 
on climate change. However, more research must be done to answer the 
many questions and uncertainties that remain in this field, such as the 
role aerosols and deep ocean currents play in regulating the climate, 
as well as further work on the relationship between climate frequency, 
distribution, and severity of extreme weather events, such as tropical 
cyclones and drought.
    Regarding scientific communications and openness, the 
Administration takes the concerns of its scientists very seriously, and 
each Department and Agency is reviewing (and modifying if necessary) 
its policies to ensure government scientists do not face censorship on 
any scientific matter, including climate change issues. The CCSP 
program has an open and transparent process, which includes several 
public reviews before any reports are finalized. The Department of 
Commerce is also in the final stages of revising and updating its 
policies to ensure open communication of scientific research and 
findings.
    Thank you again, Mr. Chairman for allowing me the opportunity to 
testify on these important issues.

    The Chairman. I thank you very much, Dr. Brennan. And now, 
may I call on Dr. Richard A. Anthes, President of the 
University Corporation for Atmospheric Research.
    Dr. Anthes?

       STATEMENT OF RICHARD A. ANTHES, Ph.D., PRESIDENT, 
  UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH (UCAR); CO-
             CHAIR, COMMITTEE ON EARTH SCIENCE AND 
          APPLICATIONS FROM SPACE, NATIONAL RESEARCH 
                COUNCIL, THE NATIONAL ACADEMIES

    Dr. Anthes. Is that OK?
    Mr. Chairman, Vice Chairman, and members of the Committee, 
thank you for inviting me to testify here today.
    My name is Richard Anthes, and I am President of UCAR, the 
University Corporation for Atmospheric Research. We manage the 
National Center for Atmospheric Research, or NCAR, under 
sponsorship of the National Science Foundation. I'm also 
current President of the American Meteorological Society.
    But, I am here today largely in my capacity as Co-Chair of 
the National Research Council's Committee on Earth Science, and 
Applications from Space. I've been asked to discuss some of the 
recommendations from the recently completed report: Earth 
Science and Applications from Space: National Imperatives for 
the Next Decade and Beyond. This report, which was requested by 
NASA, NOAA, and the USGS was a result of more than 2 years of 
work by over 100 leaders in the broad Earth science community.
    As explained in more detail in my written testimony, the 
Committee's recently completed report provides a prioritized 
roadmap of Earth observations to advance Earth science and 
applications from space, from short-term needs for information, 
such as weather forecasts and warnings and protection of life 
and property, to longer-term scientific understanding that is 
essential for understanding our planet, and how our planet 
supports and sustains life.
    The Committee's vision is encapsulated in the following 
declaration, first stated in our Committee's interim report, 
published in 2005. ``Understanding the complex changing planet 
on which we live, how it supports life, and how human 
activities affect its ability to do so in the future, is one of 
the greatest intellectual challenges facing humanity. It is 
also one of the most important challenges for society, as it 
seeks to achieve prosperity, health and sustainability.''
    As detailed in our final report, and as we were reminded by 
reading the front page of nearly every newspaper this past 
week, describing the powerful findings of the latest Report 
from the IPCC, our society is faced with a number of profound 
scientific and societal challenges, including climate change, 
and their impacts on our key parts of our economy, human 
health, sea level, eco-systems, patterns of precipitation, and 
water availability.
    In addition to the ever-increasing need for better weather 
forecasts and warnings, we also need to know more about air 
quality and extreme natural events, including severe storms, 
heat waves, Earthquakes and volcanic eruptions.
    Yet, at a time when the need has never been greater, we are 
faced with an Earth observation program that will dramatically 
diminish in capability over the next 10 to 15 years.
    The 2005 interim report warned of a national system of 
environmental satellites that was ``at risk of collapse.'' That 
judgment, which may have seemed somewhat extreme at the time, 
was based on the observed, precipitous decline in funding for 
Earth-observation missions and the consequent cancellation, de-
scoping and delay of a number of critical missions and 
instruments, which you see here, illustrated in this first 
slide.
    This slide shows the decrease in the number of missions and 
the number of instruments of U.S. Earth observations from 
space. We have reached the golden age of Earth observations 
from space, if this trend is not reversed, with a maximum of 
instruments and observations in space in 2006. You see a 
decrease, by 2010 of something like 35 percent, in the number 
of instruments in space.
    Since the publication of our interim report, NASA has 
delayed or canceled several missions, significant cuts have 
been made to NASA's research and analysis accounts, NOAA's 
NPOESS preparatory project mission was delayed for a year and a 
half, the key sensor plan for the next generation of NOAA geo-
stationary satellites was canceled, and the NPOESS program 
breached the Nunn-McCurdy budget cap, with the latter having 
particular consequences for the measurement of forcing and 
feedbacks needed to observe and understand global and regional 
climate change. It is against this backdrop that I discuss the 
present report.
    Mr. Chairman, it is often said that when you're in a hole, 
you should stop digging. Our report recommends a path forward, 
that restores U.S. leadership in Earth science and applications 
and averts the potential collapse of our system of 
environmental satellites. As documented in our report, this can 
be done in a fiscally responsible manner.
    As you will observe in slide two, you will see that our 
recommendation can be implemented in a cost-effective manner by 
simply restoring NASA's Earth science budget to 2002 levels. 
These numbers are in constant Fiscal Year 2006 dollars.
    We make a number of specific recommendations which I will 
summarize briefly here. Even in a constrained fiscal 
environment, we believe it's imperative that NOAA restore key 
climate, environmental and weather capabilities to the NPOESS 
mission. These include restoring capabilities to measure total 
solar radiation, and Earth radiation, ocean surface vector 
winds, and sea surface temperature and ozone profiles.
    We also recommend that NASA undertake 15 new missions in 
the period 2008 to 2020. In addition to restoring some of the 
capabilities lost on NPOESS, these missions will provide an 
integrated, robust program to advance Earth system science, and 
derive numerous benefits of critical importance to society, 
including of particular relevance to this hearing, improved 
weather and climate prediction.
    Implementing these missions will not only greatly reduce 
the risk to the people of our country, and the world, of 
natural hazards of all kinds, it will support more efficient 
management of natural resources, including water, energy, 
fisheries, eco-systems, and support the economy and industries, 
so that the cost of this program is repaid many times over.
    Our report also discusses the need for improved 
coordination between NASA and NOAA in making these 
measurements. Mismatches in the missions between NOAA and NASA 
can lead to difficulty in transitioning NASA research 
measurements into NOAA operational measurements, therefore our 
committee recommends that the Office of Science and Technology 
Policy develop and implement a comprehensive plan for achieving 
and sustaining global Earth observations.
    Mr. Chairman, the observing system we envision will help 
establish a firm and sustainable foundation for Earth science, 
and associated societal benefits through the year 2020 and 
beyond, will be achieved through effective management of 
technology advances and international partnerships, and broad 
use of satellite science data by the research and 
decisionmaking community.
    Thank you for the opportunity to appear before you today. 
I'd be happy to answer any questions you have.
    [The prepared statement of Dr. Anthes follows:]

 Prepared Statement of Richard A. Anthes, Ph.D., President, University 
  Corporation for Atmospheric Research (UCAR); Co-Chair, Committee on 
 Earth Science and Applications from Space, National Research Council, 
                         The National Academies
    Mr. Chairman, Vice Chairman, and Members of the Committee: thank 
you for inviting me here to testify today. My name is Richard Anthes, 
and I am the President of the University Corporation for Atmospheric 
Research, a consortium of 70 research universities that manages the 
National Center for Atmospheric Research, on behalf of the National 
Science Foundation, and additional scientific education, training and 
support programs. I am also the current President of the American 
Meteorological Society. I appear today in my capacity as Co-Chair of 
the National Research Council (NRC)'s Committee on Earth Science and 
Applications from Space: A Community Assessment and Strategy for the 
Future.
    The National Research Council is the unit of the National Academies 
that is responsible for organizing independent advisory studies for the 
Federal Government on science and technology. In response to requests 
from NASA, NOAA, and the USGS, the NRC has recently completed a 
``decadal survey'' of Earth science and applications from space. 
(``Decadal surveys'' are the 10-year prioritized roadmaps that the NRC 
has done for 40 years for the astronomers; this is the first time it is 
being done for Earth science and applications from space.) Among the 
key tasks in the charge to the decadal survey committee were to:

  <bullet> Develop a consensus of the top-level scientific questions 
        that should provide the focus for Earth and environmental 
        observations in the period 2005-2020; and

  <bullet> Develop a prioritized list of recommended space programs, 
        missions, and supporting activities to address these questions.

    The NRC survey committee has prepared an extensive report in 
response to this charge, which I am pleased to be able to summarize 
here today. Over 100 leaders in the Earth science community 
participated on the survey steering committee or its seven study 
panels. It is noteworthy that this was the first Earth science decadal 
survey, and the Committee and panel members did an excellent job in 
fulfilling the charge and establishing a consensus--a task many 
previously considered impossible. A copy of the full report has also 
been provided for your use.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ A copy of this report is maintained in the Committee's files.
---------------------------------------------------------------------------
    The Committee's vision is encapsulated in the following 
declaration, first stated in the Committee's interim report, published 
in 2005:

        ``Understanding the complex, changing planet on which we live, 
        how it supports life, and how human activities affect its 
        ability to do so in the future is one of the greatest 
        intellectual challenges facing humanity. It is also one of the 
        most important challenges for society as it seeks to achieve 
        prosperity, health, and sustainability.''

    As detailed in the Committee's final report, and as we were 
profoundly reminded by reading the front page of nearly every newspaper 
this past week describing the powerful findings of the latest report 
from the International Panel on Climate Change (IPCC), the world faces 
significant and profound environmental challenges: shortages of clean 
and accessible freshwater, degradation of terrestrial and aquatic 
ecosystems, increases in soil erosion, changes in the chemistry of the 
atmosphere, declines in fisheries, and above all the rapid pace of 
substantial changes in climate. These changes are not isolated; they 
interact with each other and with natural variability in complex ways 
that cascade through the environment across local, regional, and global 
scales. Addressing these societal challenges requires that we confront 
key scientific questions related to ice sheets and sea level change, 
large-scale and persistent shifts in precipitation and water 
availability, transcontinental air pollution, shifts in ecosystem 
structure and function in response to climate change, impacts of 
climate change on human health, and occurrence of extreme events, such 
as hurricanes, floods and droughts, heat waves, Earthquakes, and 
volcanic eruptions.
    Yet at a time when the need has never been greater, we are faced 
with an Earth observation program that will dramatically diminish in 
capability over the next 10-15 years.
    Last April, my Co-Chair, Dr. Berrien Moore, came before Congress to 
testify in response to release of the Committee's 2005 interim report. 
His testimony highlighted the key roles played by NASA and NOAA over 
the past 30 years in advancing our understanding of the Earth system 
and in providing a variety of societal benefits through their 
international leadership in Earth observing systems from space. He 
noted that while NOAA had plans to modernize and refresh its weather 
satellites, NASA had no plans to replace its Earth Observing System 
platforms after their nominal 6 year lifetimes end. He also noted that 
NASA had canceled, scaled back, or delayed at least six planned 
missions, including a Landsat continuity mission. This led to the main 
finding in the interim report, which stated ``this system of 
environmental satellites is at risk of collapse.''
    Since the publication of the interim report, the Hydros and Deep 
Space Climate Observatory missions were canceled; the flagship Global 
Precipitation Mission was delayed for another two and a half years; 
significant cuts were made to NASA's Research and Analysis program: the 
NPOESS Preparatory Project mission was delayed for a year and a half; a 
key atmospheric profiling sensor planned for the next generation of 
NOAA geostationary satellites was canceled; and the NPOESS program 
breached the Nunn-McCurdy budget cap. As you have all heard, the 
certified NPOESS program delays the first launch by 3 years, eliminates 
2 of the planned 6 spacecraft, and de-manifests or de-scopes a number 
of instruments, with particular consequences for measurement of the 
forcing and feedbacks that need to be measured to understand the 
magnitude, pace, and consequences of global and regional climate 
change. It is against this backdrop that I discuss the present report.
    As you will see in the report, between 2006 and the end of the 
decade, the number of operating missions will decrease dramatically and 
the number of operating sensors and instruments on NASA spacecraft, 
most of which are well past their nominal lifetimes, will decrease by 
some 35 percent, with a 50 percent reduction by 2015 (see Figure 1 
below). Substantial loss of capability is likely over the next several 
years due to a combination of decreased budgets and aging satellites 
already well past their design lifetimes.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In its report, the Committee sets forth a series of near-term and 
longer-term recommendations in order to address these troubling trends. 
It is important to note that this report does not ``shoot for the 
moon,'' and indeed the Committee exercised considerable constraint in 
its recommendations, which were carefully considered within the context 
of challenging budget situations. Yet, while societal applications have 
grown ever-more dependent upon our Earth observing fleet, the NASA 
Earth science budget has declined some 30 percent in constant-year 
dollars since 2000 (see Figure 2 below). This disparity between growing 
societal needs and diminished resources must be corrected. This leads 
to the report's overarching recommendation:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        ``The U.S. Government, working in concert with the private 
        sector, academe, the public, and its international partners, 
        should renew its investment in Earth observing systems and 
        restore its leadership in Earth science and applications.''

    The report outlines near-term actions meant to stem the tide of 
capability deterioration and continue critical data records, as well as 
forward-looking recommendations to establish a balanced Earth 
observation program designed to directly address the most urgent 
societal challenges facing our Nation and the world (see Figure 3 below 
for an example of how nine of our recommended missions support in a 
synergistic way one of the societal benefit areas--extreme event 
warnings). It is important to recognize that these two sets of 
recommendations are not an ``either/or'' set of priorities. Both near-
term actions and longer-term commitments are required to stem the tide 
of capability deterioration, continue critical climate data records, 
and establish a balanced Earth observation program designed to directly 
address the most urgent societal challenges facing our Nation and the 
world. It is important to ``right the ship'' for Earth science, and we 
simply cannot let the current challenges we face with NPOESS and other 
troubled programs stop progress on all other fronts. Implementation of 
the ``stop-gap'' recommendations concerning NPOESS, NPP, and GOES-R are 
important--and the recommendations for establishing a healthy program 
going forward are equally as important. Satisfying near-term 
recommendations without placing due emphasis on the forward-looking 
program is to ignore the largest fraction of work that has gone into 
this report. Moreover, such a strategy would result in a further loss 
of U.S. scientific and technical capacity, which could decrease the 
competitiveness of the United States internationally for years to come.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Key elements of the recommended program include:

        1. Restoration of certain measurement capabilities to the NPP, 
        NPOESS, and GOES-R spacecraft in order to ensure continuity of 
        critical data sets.

        2. Completion of the existing planned program that was used as 
        a baseline assumption for this survey. This includes (but is 
        not limited to) launch of GPM in or before 2012, securing a 
        replacement to Landsat 7 data before 2012.

        3. A prioritized set of 17 missions to be carried out by NOAA 
        and NASA over the next decade (see Tables 1 and 2 below). This 
        set of missions provides a sound foundation for Earth science 
        and its associated societal benefits well beyond 2020. The 
        committee believes strongly that these missions form a minimal, 
        yet robust, observational component of an Earth information 
        system that is capable of addressing a broad range of societal 
        needs.

        4. A technology development program at NASA with funding 
        comparable to and in addition to its basic technology program 
        to make sure the necessary technologies are ready when needed 
        to support mission starts over the coming decade.

        5. A new ``Venture'' class of low-cost research and application 
        missions that can establish entirely new research avenues or 
        demonstrate key application-oriented measurements, helping with 
        the development of innovative ideas and technologies. Priority 
        would be given to cost-effective, innovative missions rather 
        than ones with excessive scientific and technological 
        requirements.

        6. A robust NASA Research and Analysis program, which is 
        necessary to maximize scientific return on NASA investments in 
        Earth science. Because the R&A programs are carried out largely 
        through the Nation's research universities, such programs are 
        also of great importance in supporting and training next-
        generation Earth science researchers.

        7. Suborbital and land-based measurements and socio-demographic 
        studies in order to supplement and complement satellite data.

        8. A comprehensive information system to meet the challenge of 
        production, distribution, and stewardship of observational data 
        and climate records. To ensure the recommended observations 
        will benefit society, the mission program must be accompanied 
        by efforts to translate raw observational data into useful 
        information through modeling, data assimilation, and research 
        and analysis.


      Table 1. Launch, orbit, and instrument specifications for the
  recommended NOAA missions. Detailed descriptions of the missions are
     given in Part II of the final report, and Part III provides the
                        foundation for selection.
------------------------------------------------------------------------
                                                                 Rough
   Decadal                                                        Cost
    Survey      Mission Description     Orbit    Instruments    Estimate
   Mission                                                        (in
                                                               millions)
------------------------------------------------------------------------
   Timeframe: 2010-2013--Missions listed by cost Small Missions (<$300
                                million)
------------------------------------------------------------------------
CLARREO        Solar and Earth        LEO, SSO  Broadband             65
 (Instrument    radiation                        radiometers
 Re-flight      characteristics for
 Components)    understanding
                climate forcing
------------------------------------------------------------------------
GPSRO          High accuracy, all-    LEO       GPS receiver         150
                weather temperature,
                water vapor, and
                electron density
                profiles for
                weather, climate and
                space weather
------------------------------------------------------------------------
Timeframe: 2013-2016--Missions listed by cost Medium Missions ($300-$600
                                million)
------------------------------------------------------------------------
XOVWM          Sea surface wind       LEO, SSO  Backscatter          350
                vectors for weather              radar
                and ocean ecosystems
------------------------------------------------------------------------


      Table 2. Launch, orbit, and instrument specifications for the
  recommended NASA missions. Detailed descriptions of the missions are
     given in Part II of the final report, and Part III provides the
                        foundation for selection.
------------------------------------------------------------------------
                                                                 Rough
   Decadal                                                        Cost
    Survey      Mission Description     Orbit    Instruments    Estimate
   Mission                                                        (in
                                                               millions)
------------------------------------------------------------------------
   Timeframe: 2010-2013--Missions listed by cost Small Missions (<$300
                                million)
------------------------------------------------------------------------
CLARREO (NASA  Solar and Earth        LEO,      Absolute,            200
 portion)       radiation,             Precess   spectrally-
                spectrally resolved    ing       resolved
                forcing and response             interferomet
                of the climate                   er
                system
------------------------------------------------------------------------
                   Medium Missions ($300-$600 million)
------------------------------------------------------------------------
SMAP           Soil moisture and      LEO, SSO  L-band radar,        300
                freeze/thaw for                  L-band
                weather and water                radiometer
                cycle processes
------------------------------------------------------------------------
ICESat-II      Ice sheet height       LEO, Non- Laser                300
                changes for climate    SSO       altimeter
                change diagnosis
------------------------------------------------------------------------
                   Large Missions ($300-$900 million)
------------------------------------------------------------------------
DESDynI        Surface and ice sheet  LEO, SSO  L-band InSAR,        700
                deformation for                  Laser
                understanding                    altimeter
                natural hazards and
                climate; vegetation
                structure for
                ecosystem health
------------------------------------------------------------------------
Timeframe: 2013-2016--Missions listed by cost Medium Missions ($300-$600
                                million)
------------------------------------------------------------------------
HyspIRI        Land surface           LEO, SSO  Hyperspectral        300
                composition for                  spectrometer
                agriculture and
                mineral
                characterization;
                vegetation types for
                ecosystem health
------------------------------------------------------------------------
ASCENDS        Day/night, all-        LEO, SSO  Multifrequenc        400
                latitude, all-season             y laser
                CO<INF>2</INF> column integrals
                for climate
                emissions
------------------------------------------------------------------------
SWOT           Ocean, lake, and       LEO, SSO  Ka-band wide         450
                river water levels               swath radar,
                for ocean and inland             C-band radar
                water dynamics
------------------------------------------------------------------------
GEO-CAPE       Atmospheric gas        GEO       High and low         550
                columns for air                  spatial
                quality forecasts;               resolution
                ocean color for                  hyperspectra
                coastal ecosystem                l imagers
                health and climate
                emissions
------------------------------------------------------------------------
                   Large Missions ($600-$900 million)
------------------------------------------------------------------------
ACE            Aerosol and cloud      LEO, SSO  Backscatter          800
                profiles for climate             lidar,
                and water cycle;                 Multiangle
                ocean color for open             polarimeter,
                ocean                            Doppler
                biogeochemistry                  radar
------------------------------------------------------------------------
Timeframe: 2016-2020--Missions listed by cost Medium Missions ($300-$600
                                million)
------------------------------------------------------------------------
LIST           Land surface           LEO, SSO  Laser                300
                topography for                   altimeter
                landslide hazards
                and water runoff
------------------------------------------------------------------------
PATH           High frequency, all-   GEO       MW array             450
                weather temperature              spectrometer
                and humidity
                soundings for
                weather forecasting
                and SST *
------------------------------------------------------------------------
GRACE-II       High temporal          LEO, SSO  Microwave or         450
                resolution gravity               laser
                fields for tracking              ranging
                large-scale water                system
                movement
------------------------------------------------------------------------
SCLP           Snow accumulation for  LEO, SSO  Ku and X-band        500
                fresh water                      radars, K
                availability                     and Ka-band
                                                 radiometers
------------------------------------------------------------------------
                   Large Missions ($300-$900 million)
------------------------------------------------------------------------
GACM           Ozone and related      LEO, SSO  UV                   600
                gases for                        spectrometer
                intercontinental air             , IR
                quality and                      spectrometer
                stratospheric ozone              , Microwave
                layer prediction                 limb sounder
------------------------------------------------------------------------
3D-Winds       Tropospheric winds     LEO, SSO  Doppler lidar        650
 (Demo)         for weather
                forecasting and
                pollution transport
------------------------------------------------------------------------
* Cloud-independent, high temporal resolution, lower accuracy SST to
  complement, not replace, global operational high accuracy SST
  measurement.

    Further, the Committee is particularly concerned with the lack of 
clear agency responsibility for sustained research programs and the 
transitioning of proof-of-concept measurements into sustained 
measurement systems. To address societal and research needs, both the 
quality and the continuity of the measurement record must be assured 
through the transition of short-term, exploratory capabilities, into 
sustained observing systems. The elimination of the requirements for 
climate research-related measurements on NPOESS is only the most recent 
example of the Nation's failure to sustain critical measurements. 
Therefore, our committee recommends that the Office of Science and 
Technology Policy, in collaboration with the relevant agencies, and in 
consultation with the scientific community, should develop and 
implement a plan for achieving and sustaining global Earth 
observations. This plan should recognize the complexity of differing 
agency roles, responsibilities, and capabilities as well as the lessons 
from implementation of the Landsat, EOS, and NPOESS programs.
    Mr. Chairman, the observing system we envision will help establish 
a firm and sustainable foundation for Earth science and associated 
societal benefits through the year 2020 and beyond. It can be achieved 
through effective management of technology advances and international 
partnerships, and broad use of satellite science data by the research 
and decisionmaking communities. Our report recommends a path forward 
that restores U.S. leadership in Earth science and applications and 
averts the potential collapse of the system of environmental 
satellites. As documented in our report, this can be accomplished in a 
fiscally responsible manner, and I urge the Committee to see that it is 
accomplished.
    Thank you for the opportunity to appear before you today. I am 
prepared to answer any questions that you may have.

    The Chairman. Without objection, the report that you've 
mentioned will be made part of the record, do you have any 
objections to that?
    Dr. Anthes. No, I have no objections. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    The Chairman. Then I thank you very much.
    May I now call on the research meteorologist, Mr. Thomas 
Knutson.

                STATEMENT OF THOMAS R. KNUTSON,

           RESEARCH METEOROLOGIST, GEOPHYSICAL FLUID

     DYNAMICS LABORATORY, NATIONAL OCEANIC AND ATMOSPHERIC 
                      ADMINISTRATION, DOC

    Mr. Knutson. Thank you, Mr. Chairman.
    My name is Tom Knutson, I'm a climate scientist at NOAA's 
Geophysical Fluid Dynamics Laboratory in Princeton, New Jersey, 
one of the world's leading climate modeling centers.
    I thank the Committee for inviting me to testify today 
about my experiences as a government scientist, and 
communicating science to the media. Any opinions I express here 
are my own, and do not necessarily reflect those of NOAA, or 
the Department of Commerce.
    I have published several papers in leading climate journals 
on the question of global warming, and hurricanes. I'm a member 
of a World Meteorologic Organization Committee on Tropical 
Cyclones and Climate Change. We and our colleagues released a 
recent assessment statement on this topic, this past December. 
I am currently on the author team for the CCSP assessment 
report on Weather and Climate Extremes in a Changing Climate, 
where I and several others are focusing on hurricane aspects.
    During my career, at no time have I perceived any 
interference from NOAA management with my research efforts or 
scientific publications, such as the Journal of Climate.
    Concerning my interactions with the media, and with NOAA 
public affairs in Washington, I will say at the outset that I 
have had many opportunities to communicate my science to the 
media over the years. However, among these, I have had just a 
few opportunities--just a few opportunities--to address a 
national television audience. There have been some instances 
where my ability to communicate with the national media has 
been hindered, or interfered with. I will briefly describe some 
of these experiences.
    NOAA's media policy, issued in June 2004, and its 
implementation, has led to a number of missed opportunities for 
interviews at GFDL. In some cases, this was due to the hurdle 
of needing to obtain prior approval of public affairs people in 
Washington. I, and several of my colleagues at GFDL have been 
frustrated by this burden. Some of us believe it has caused 
reporters to steer away from GFDL scientists for interviews, 
because of the various hurdles and time constraints.
    Several of us at GFDL have had public affairs officers 
monitor some interviews, typically through phone conferencing. 
In one case, a public affairs officer traveled from Washington 
to New Jersey to be in the room with me for a television 
interview. The impression I had--along with others at GFDL--is 
that at times, NOAA public affairs was becoming more of an 
obstruction, than a promoter of interaction between GFDL 
scientists and the media.
    Examples of such interference that either others, or I, 
experienced included: canceled press releases, requests for 
interviews that were never responded to, i.e., pocket vetoes, 
and being given guidelines for steering certain interview 
questions in directions that were not based on science 
considerations.
    Here are two other specific examples. In October 2005, I 
received a request to appear on the CNBC program, On the Money, 
where I had appeared several weeks earlier. I contacted NOAA 
Public Affairs for approval. A few minutes later, I was called 
by a public affairs person, and was quizzed for several minutes 
on what I planned to say on the program. I received a voice-
mail a few minutes later, informing me that the interview had 
been turned down.
    Internal NOAA e-mails on this incident, obtained later 
through a FOIA request, are available for review on Congressman 
Waxman's website.
    On another occasion, in Summer of 2005, NOAA Public Affairs 
had inquired whether I was interested in appearing on a 
television talk show to discuss global warming and hurricanes. 
I later received a voice-mail from them, stating, the White 
House said no.
    In response to questions, I detailed these turn-down 
incidents to a Wall Street Journal reporter in February 2006. 
From the time that Jim Hanson, and later, other scientists and 
I, went public, I have experienced no further interference that 
I am aware of, in communicating with the media.
    GFDL's unofficial operational practice from shortly 
thereafter, has been to keep NOAA Public Affairs in Washington 
informed, but generally, to notify them after the fact, after 
media contacts. A new draft media policy is being developed at 
the Department of Commerce, which includes NOAA. I, and others, 
at GFDL will be anxious to see how NOAA will interpret and 
implement this new policy.
    I think it is important that improved policies be in place 
to ensure that communication between government climate 
scientists and the media remain open and free of obstruction.
    I appreciate being given the opportunity to testify today. 
Thank you.
    [The prepared statement of Mr. Knutson follows:]

   Prepared Statement of Thomas R. Knutson, Research Meteorologist, 
      Geophysical Fluid Dynamics Laboratory, National Oceanic And 
                    Atmospheric Administration, DOC
Introduction
    My name is Tom Knutson. I am a climate scientist at NOAA's 
Geophysical Fluid Dynamics Laboratory in Princeton, New Jersey. I would 
like to thank the Committee for inviting me to testify today about my 
experiences as a government scientist in communicating science-related 
topics to the media. Any opinions I express here are my own, and do not 
necessarily reflect those of NOAA or the Department of Commerce.
Science Background
    I have authored several publications in leading climate science 
journals on the question of global warming and hurricanes. Most of my 
career I have worked at GFDL--one of the world's leading climate 
modeling centers. I am a member of a WMO (World Meteorological 
Organization) committee on Tropical Cyclones and Climate Change. We 
developed, in collaboration with a cross-section of the international 
tropical cyclone research community, an assessment statement on this 
topic, which was released this past December. I am currently on the 
author team for the U.S. CCSP (Climate Change Science Program) 
assessment report on ``Weather and Climate Extremes in a Changing 
Climate,'' where I and several others are focusing on hurricane 
aspects.
My Experiences With the Media and NOAA Public Affairs
    During my career, at no time have I perceived any interference from 
NOAA management with my research efforts or scientific publications in 
journals such as the Journal of Climate. Concerning my interactions 
with the media and with NOAA Public Affairs in Washington, I will say 
at the outset that I have had many opportunities to communicate my 
science to the media over the years. However, among these I have had 
just a few opportunities to address a national television audience. 
There have been instances where my ability to communicate with the 
national media has been hindered or interfered with. I will briefly 
describe some of these experiences.
A New NOAA Media Policy--2004
    NOAA's media policy, issued in June 2004, requires prior 
notification of Public Affairs before media interviews involving policy 
relevant research such as mine. This led to a number of missed 
opportunities for interviews, at times simply due to the additional 
hurdle and complexity of getting in touch or coordinating with Public 
Affairs people in Washington (for example evenings and weekends). I and 
several of my colleagues at GFDL have been frustrated by this burden. 
Some of us believe it has caused some reporters to steer away from GFDL 
scientists for interviews because of the various hurdles and time 
constraints. Reporters are busy and often operate under tight 
deadlines.
    Several of us at GFDL have had Public Affairs officers monitor some 
interviews, typically through phone conferencing. In one case a public 
affairs officer traveled from Washington to New Jersey to be in the 
room with me for a television interview. He did not interfere with the 
interview.
    The impression I had (along with others at GFDL) is that at times 
NOAA Public Affairs was becoming more of an obstruction than a promoter 
of interaction between GFDL scientists and the media. Examples of such 
interference that either others or I experienced included: canceled 
press releases, requests for interviews that were never responded to 
(``i.e., pocket vetoes''), and being given guidelines for steering 
certain interview questions in directions that were not based on 
science considerations.
Press Release Example
    In August 2004, I was asked by NOAA Public Affairs to send them 
copy of an upcoming paper in the Journal of Climate so that a press 
release could be prepared. I never heard back from them and apparently 
no press release was issued. Despite this, the New York Times learned 
about the upcoming paper and ran a story on it that generated 
considerable media interest and more interviews.
On the Term ``Global Warming''
    In Summer 2005, I was invited by the American Meteorological 
Society (or AMS) to give a talk here on Capitol Hill on my research. I 
followed NOAA procedures for this type of appearance, sending my 
PowerPoint presentation to Legislative Affairs for review several days 
prior to my talk. I received e-mail expressing some concern with my use 
of the term ``Global Warming'' in the title. I did not make any 
changes, and a few days later received e-mails indicating that the term 
would be OK for my particular talk. (By that time seminar announcements 
advertising a talk on ``hurricanes in a warming world'' had already 
been released on the Internet by the AMS.)
Two ``Turned Down'' National TV Appearances on ``Global Warming and 
        Hurricanes''
    Later that summer, returning from vacation, I listened over the 
weekend to a voice-mail from NOAA Public Affairs inquiring about 
whether I would be interested in appearing on a television talk show 
involving Ron Reagan, Jr., to discuss hurricanes and global warming. A 
second voice-mail came from a ``booker'' for the show. As it was the 
weekend, I responded to the booker's cell number and agreed to make 
myself available for taping on Monday, providing the appearance was 
approved by Public Affairs. Arriving at my office on Monday morning, I 
listened to a new voice-mail from Public Affairs advising me something 
to the effect of: ``Tom, sorry for the confusion . . . . The White 
House said no . . .''
    On October 19, 2005, I received a media request to appear on the 
CNBC program ``On the Money'' where I had appeared several weeks 
earlier. I contacted NOAA Public Affairs for approval. A few minutes 
later I was called by a Public Affairs person and was quizzed for 
several minutes on what I planned to say on the program. I was asked 
whether I thought there was a trend in Atlantic hurricane activity. I 
gave a guarded response that, based on recently published work, there 
was some possibility that a trend was emerging. I received a voice-mail 
a few minutes later informing me that ``About the CNBC interview 
tonight, I'm afraid it has been turned down.'' Internal NOAA e-mails on 
this incident, obtained later through a FOIA request, are available for 
review on Congressman Waxman's website: http://oversight.house.gov/
story.asp?ID=1107&Issue=Politics+and+Science
    Some months later I learned that I have the right as a private 
citizen to talk to the media on my own time, and in principle I could 
have tried to use this tactic to circumvent NOAA's ``turn down'' 
(assuming a media organization would actually agree to go along.)
    In response to questions, I detailed these ``turn-down'' incidents 
to a Wall Street Journal reporter for a Feb. 16, 2006 article.
Aftermath of Going Public
    From the time that Jim Hansen, and later other scientists and I, 
went public, I have experienced no further interference that I am aware 
of in communicating with the media. GFDL's unofficial, operational 
practice, shortly thereafter, has been to keep NOAA Public Affairs in 
Washington informed, but generally notify them after the fact about 
media contacts.
    One later incident that I was tangentially involved with was the 
several-month hold-up, apparently somewhere in the Department of 
Commerce, of a NOAA FAQ sheet on Atlantic hurricanes and climate that 
others and I at NOAA had helped to put together. More detail on that 
incident is presented in a Nature article dated Sept. 28, 2006.
Moving Forward
    In summary, prior to going public with these incidents, I 
experienced some cases of what I view as unreasonable levels of 
interference with my communication with the media. Requirements such as 
prior notification of Public Affairs have hindered GFDL scientists' 
communications with the media. A promising development is a new draft 
media policy being developed in the Department of Commerce, which 
includes NOAA. I and others at GFDL will be anxious to see how NOAA 
will interpret and implement the new policy. I think it is very 
important that such improved policies be in place to ensure that the 
channels of communication between government climate scientists and the 
media and public remain open and free of obstruction.
    I appreciate being given the opportunity to testify today. Thank 
you.

    The Chairman. Thank you very much, Mr. Knutson.
    And may I now call upon Dr. James Mahoney, Environmental 
Consultant.

             STATEMENT OF JAMES R. MAHONEY, Ph.D., 
                    ENVIRONMENTAL CONSULTANT

    Dr. Mahoney. Thank you, Mr. Chairman.
    I assume this is still on? Am I transmitting OK?
    Thank you, Chairman Inouye, and Vice Chairman Stevens, and 
other Members of the Committee. I appreciate your invitation to 
address the Committee today.
    I am James R. Mahoney, and I currently serve as an 
Environmental Consultant, but I wanted to identify that from 
2002 until 2006, the specific dates are in my written 
testimony, I was Assistant Secretary of Commerce, and Deputy 
Administrator of NOAA, and I was also a Director of the Climate 
Change Science Program during its first four, formative years.
    I reluctantly retired from my Federal appointment about 10 
months ago because of continuing, significant health problems, 
so I am now speaking as an individual, but where appropriate, I 
try to draw on the information that I developed during my time 
in my position.
    I received a Ph.D. degree in meteorology from MIT, with a 
specialization in geophysical fluid dynamics, a specialization 
that Mr. Knutson has furthered much more over the years of his 
own career.
    In response to the Chairman's letter, I address three main 
topics today. One, the evolution of NOAA's scientific 
communication policy; two, the peer-review process required for 
reports to be officially released by NOAA, and; three, other 
relevant items. And I have chosen that third category ``other 
relevant items'' to provide a little highlight/background on 
the Climate Change Science Program, because we have developed a 
very special approach to transparency and review, which I think 
is serving the science field, and especially the Nation, very 
well.
    I appear today in the hybrid position I mentioned a minute 
ago. I have knowledge from my time in Federal appointment, but 
I am now a private citizen. Relative to the broader issue of 
scientific integrity, I certainly rely on my experience and 
judgment developed in more than 40 years as a working scientist 
in environmental management, including earlier experience as 
Director of the Federal Acid Rain Assessment Program back in 
the 1980s.
    NOAA has a long and well-recognized culture aimed at 
fostering integrity in scientific communication activity. I 
suggest, for the Committee's interest, a definition of 
communication activities that includes several parts, this is 
laid out in my testimony. For time limits, I will just name 
them--at the highest level, I see the scientific synthesis 
documents that bring things together, like we have in the 
Climate Change Science Program, and like the international body 
has with the IPCC reports, as you know, a good example being 
the new Fourth Assessment Summary, which was released last 
week.
    After that special synthesis material, which is of the 
most, hopefully, the most importance and relevance to the 
Nation, and to this Committee's work, are the general rung of 
important peer-reviewed scientific papers. The peer-review is 
the highest standard for normal contribution of papers to be 
well recognized.
    Next, the scientific papers that are presented at meetings, 
verbally, and often in written form, but often without peer-
review. Then, books and monographs, then various project 
summaries, and then on down to the case of informal 
presentations that may include school lectures, other community 
events, and matters of this sort.
    I mention these at the outset, with reference to that 
highest standard, and suggest that that highest standard of 
aggressive and transparent review--and inclusive review by all 
of the interested constituencies--are the measures most 
appropriately applied to the CCSP reports, which set out to 
give us the best look at this information, as well as the IPCC 
assessments, as with the current fourth one now coming along.
    I note that there are thousands of NOAA scientists working, 
and they produce several thousand scientific communications 
each year. Moreover, the NOAA Public Affairs Offices around the 
country typically field approximately 20 to 50 different media 
inquiries each day. So, this question of communications is a 
very broad one, which carries on almost all of the time.
    NOAA's communication policy is aimed at reducing or 
eliminating errors, and that is the policy that, and the 
standard that we should be held to.
    Some NOAA scientists have complained about alleged muzzling 
of some of their activity, Mr. Knutson has just spoken about 
this, and NOAA has taken several steps to address this. As Dr. 
Brennan said before, Administrator Lautenbacher has written to 
all NOAA employees twice about this, and I know that the 
Department of Commerce is currently revising its communication 
policy, and I have great hope that it will clarify some, any 
remaining difficulties.
    The peer-review process at NOAA, I would refer to the same 
six categories, beginning with synthesis products, other peer-
reviewed papers, and on down the line, and I simply recommend 
to the Committee that the six-part table that I have presented, 
or any other similar grouping--I'm not claiming special status 
for my six, but the concept of understanding the different 
types of communications, I recommend to the Committee for its 
use in reviewing the different approaches to peer-review in 
various cases.
    Now, I'll finish with a couple of comments about the CCSP 
Program. Dr. Brennan has already addressed this, so I will 
simply note that when we prepared the CCSP Strategic Plan to 
guide the development of our Synthesis and Assessment 
documents, we asked the National Academy of Sciences to conduct 
two, separate reviews of that work. The first at a draft stage, 
and the second review after the plan was fully completed. The 
Academy found that plan to be an ideal tool for guiding the 
Nation's climate studies throughout the upcoming years. And we 
have tried very hard to use this as the basis for the work in 
the CCSP Program.
    I'll just mention before closing that the analyses carried 
out in the CCSP studies have been aimed at the most challenging 
scientific question, so we get the best view and guidance. We 
address those questions, we address the stakeholders, we 
attempt to look at uncertainties, but with the maximum 
transparency for all viewers, and reviewers, and I cite this as 
some of the major progress which has been achieved in the last 
few years.
    With that, Mr. Chairman, and Mr. Vice-Chairman, I end my 
testimony. I'd like to add just the--what I'll call a 
professional comment at the end. I believe that there is 
abundant evidence about the human causation of climate change 
about which you began this hearing today. I also believe that 
the working scientists have very important contributions to 
make in this area, and I strongly favor the theme you have 
addressed for this hearing.
    Thank you, Mr. Chairman, Mr. Vice Chairman.
    [The prepared statement of Dr. Mahoney follows:]

            Prepared Statement of James R. Mahoney, Ph.D., 
                       Environmental Consultant *
---------------------------------------------------------------------------
    * Previously (April 2, 2002-March 30, 2006): Assistant Secretary 
for Oceans and Atmosphere, U.S. Department of Commerce; Deputy 
Administrator of the National Oceanic and Atmospheric Administration; 
and Director, U.S. Climate Change Science Program.
---------------------------------------------------------------------------
    Chairman Inouye, Vice Chairman Stevens and Members of the 
Committee: thank you for your invitation to address the Committee today 
on the important issue of assuring integrity in climate change 
research. I am James R. Mahoney, and I currently serve as an 
Environmental Consultant, providing scientific and professional advice 
to a number of organizations. From April 2, 2002 to March 30, 2006, I 
was Assistant Secretary of Commerce for Oceans and Atmosphere, and 
Deputy Administrator of the National Oceanic and Atmospheric 
Organization (NOAA). During this period I was also the Director of the 
U.S. Climate Change Science Program (CCSP), involving 13 Federal 
agencies conducting and overseeing total annual budgets of 
approximately $2 billion dedicated to scientific research, Earth system 
observations, computer simulations of future climate conditions, and 
evaluation of possible adaptation and mitigation actions to address 
climate change. I reluctantly retired from my Federal appointment 
approximately 10 months ago because of continuing, significant health 
problems.
    In 1966 I received the Ph.D. degree in meteorology from MIT, with a 
specialization in geophysical fluid mechanics. Since that time I have 
had over 40 years continuous experience in science-based environmental 
management, including service on the faculty of Harvard University, 
advisory assignments with national government agencies and 
international organizations in several regions of the world, extensive 
private sector environmental assessment and design work, and two 
appointed positions with the U.S. Federal Government (involving overall 
management of national acid rain studies from 1988 to 1991, and climate 
science studies from 2002 to 2006).
    In response to the issues raised in Chairman Inouye's letter, my 
testimony today addresses three main topics: (1) the background and 
evolution of NOAA's communication policy related to scientific 
research; (2) the peer-review process required for scientific reports 
or conclusions to be officially released by NOAA; and (3) other 
important and relevant items. Related to this final topic, I address 
the scientific and general public review process required for 
scientific reports and conclusions being released by the Climate Change 
Science Program. These CCSP processes are highly important for assuring 
the credibility of complicated and often controversial climate science 
findings that, in turn, underpin the development of appropriate climate 
change policies that will be needed in the years and decades ahead to 
address regional-, national-, and international-scale challenges.
    I appear today in somewhat of a ``hybrid position''. In the case of 
positions developed and actions taken during the recent 4 years (ending 
on March 31, 2006) while I served in my Federal appointed assignments, 
I attempt to speak from the perspective of my former position, and to 
convey the requested information based upon my memory and personal 
files, augmented by recent dialog with a limited number of my former 
colleagues. In the case of the broader issue of scientific integrity 
involved in the reporting of controversial environmental research, I 
also rely on the experience and judgment I have developed during more 
than 40 years of environmental study. As an example, I benefited from 
the development of a large body of ``lessons learned'' during my years 
as Director of the interagency National Acid Precipitation Assessment 
Program, from 1988 to 1991. Many lessons developed in the process of 
applying acid rain research findings to Federal legislation (for 
example, to the Clean Air Act Amendments of 1990) positively influenced 
my commitment to highly transparent and inclusively reviewed scientific 
statements related to climate change.
The Background and Evolution of NOAA's Communication Policy Related to 
        Scientific Research
    As one of the principal scientific agencies within the Federal 
Government NOAA has long had a well-recognized culture aimed at 
fostering integrity in its scientific communications activities. I 
suggest for the Committee's interest a working definition for 
``communications activities'' to include (1) scientific synthesis 
documents (often co-authored by multiple experts) intended to summarize 
the best available ``state of the science'' in defined areas of 
coverage; (2) peer reviewed research papers appearing in recognized 
scientific journals; (3) verbal (and often written) scientific papers 
presented at scheduled scientific meetings; (4) books, monographs and/
or sections of books intended to summarize science in designated 
subject areas; (5) program and project report documents that provide 
examples (but not exhaustive summaries) of interesting developments in 
the areas studied; and (6) informal presentations to students, 
community groups, etc.
    This list of six categories is ranked in the order of decreasing 
requirements (in my view) for thorough and formal review before 
dissemination. Examples of Category 1 include the Synthesis and 
Assessment Reports (SAR's) being prepared by the Federal Government 
sponsored Climate Change Science Program (discussed further below), and 
the several volumes of the United Nations sponsored Fourth Assessment 
Report (FAR) being prepared by the Intergovernmental Panel on Climate 
Change (IPCC) that released last week its new Summary for Policymakers 
for the Working Group I (Physical Science findings). Both the CCSP and 
the IPCC documents are being prepared following well-established 
protocols to assure comprehensiveness, transparency and broad review by 
interested constituencies.
    In the case of NOAA's scientific communications (including all six 
categories mentioned above) it is important to note that thousands of 
NOAA scientists produce several thousand scientific communications each 
year. Even in the category of media inquires NOAA typically receives 
twenty to fifty press inquiries each workday. The normal scientific 
culture of carefully reporting the findings of studies has served NOAA 
and other Federal scientific agencies well for many years--in most 
cases. My observation is that--in all large workforces--there will 
always be some small percentage of errors in communication. Many of 
these errors are inadvertent, and can usually be rectified quickly. My 
personal observation is that there are occasional ``intended errors'' 
or misrepresentations that can occur within any organization and that 
illustrate the need for effective communications policies applicable to 
government scientific organizations. These situations can arise from 
two causes: (1) a scientist may desire to claim disproportionate credit 
for his/her work, or (2) the bias of a scientist (or a group of 
scientists) may lead to inaccurate reporting or discussion of findings.
    NOAA's communication policy over several years has aimed to reduce 
or eliminate errors and misrepresentations by: (1) assuring appropriate 
internal scientific reviews before technical information is 
communicated; (2) asking scientists to coordinate their communication 
activities with the public affairs offices in the major elements of 
NOAA (to avoid ``left hand--right hand'' inconsistencies among various 
researchers). Please note that the internal scientific reviews 
mentioned here are to be conducted by scientific peers, and not by 
political appointees.
    During recent years some scientific issues (climate change in 
particular) have become very controversial among elements of the 
public, and this has created increased challenges to the integrity of 
scientific reporting by NOAA and other agencies. In this situation of 
heightened sensitivity some NOAA scientists have complained about 
alleged ``muzzling'' of their ability to speak to the media. In 
particular, NOAA's long-term practice of using its public affairs 
specialists to seek consistency among the reports by various scientists 
has been seen as an impediment to full reporting. NOAA has been taking 
several steps to address this concern since it has arisen. In 
particular, NOAA Undersecretary Lautenbacher has written to all NOAA 
employees twice during the past year affirming his support for open 
reporting by all NOAA scientists. Moreover I understand that the 
Department of Commerce (DOC) has been revising its communications 
policy to encourage, but not require, scientists to work with their 
counterparts in Public Affairs prior to dissemination. I understand 
that this revised policy should be ready for adoption within the next 
few weeks. It is my view that this revised policy should resolve most 
or all of the recent complaints by some NOAA scientists, and I am sure 
that if any further issues arise, they will be addressed promptly by 
NOAA management.
The Peer-Review Process Required for Scientific Reports or Conclusions 
        to Be Officially Released by NOAA
    In response to this question, I refer to the six categories of 
``communications activities'' that I previously recommended for 
consideration. Not all of these categories represent ``official 
releases'' by NOAA, so it is important to recognize the differences 
between the categories. Table 1 on the next page addresses each 
category.
    As Table 1 illustrates, the scientific Synthesis and Assessment 
Reports (for example, the 21 CCSP Synthesis and Assessment Reports) 
represent an example of the most stringent requirements for peer 
review, including the opportunity for comments by interested public 
constituencies as well as by members of the scientific community. The 
IPCC Fourth Assessment Report documents (such as the physical science 
Summary for Policymakers released last week) are similar examples. A 
large number of NOAA scientists, as well as many U.S. Government 
scientists from other agencies took part in the preparation of the new 
IPCC document. Dr. Susan Solomon of the NOAA Boulder Laboratories 
served as the overall Co-Chairman of IPCC Working Group I, providing 
substantial leadership to this major international activity.

     Table 1. Classification of Categories of Scientific Information
   Communication Suggested to the Senate Committee by James R. Mahoney
  (These classifications are not used in the NOAA Communication Policy)
------------------------------------------------------------------------
                                    Official
  Category          Topic           Release?             Comments
------------------------------------------------------------------------
      1       Scientific         Yes             Requires extensive peer
               synthesis                          and public review
               documents
      2       Peer-reviewed      Case-by-case    Peer review
               research papers    determination   accomplished by the
                                                  publishing journal and
                                                  by NOAA
      3       Papers presented   Usually not     Peer review by NOAA
               at meetings                        scientific staff
      4       Books &            Case-by-case    Peer review by NOAA
               monographs         determination   scientific staff
      5       Program & project  Yes             Peer review by NOAA
               report documents                   scientific staff &
                                                  project management
      6       Lectures to        No              Peer review by NOAA
               students & other                   scientific staff is
               groups                             encouraged
------------------------------------------------------------------------

    As the table illustrates, other communications activities routinely 
undertaken by NOAA scientific staff typically have differing 
requirements for peer review. All of the first five categories require 
at least peer review by other NOAA scientific staff (i.e., independent 
review by expert staff not involved in the drafting of the information) 
before dissemination or other use of the information. The sixth 
category (informal lectures to students and other community groups) 
does not require peer review in all cases because the information 
conveyed in such lectures usually would not constitute an official 
dissemination by NOAA.
    I recommend that the Committee keep in mind the six-part table 
presented here, or a similar classification scheme, when considering 
the manner in which NOAA (and possibly other Federal science agencies) 
conveys technical information to the scientific community, to students, 
and to interested constituencies among the general public.
The Scientific and General Review Process of the CCSP Scientific 
        Synthesis and Assessment Products
    In June 2001 the President called for an increase in Federal 
funding for climate research and observations, as part of his overall 
plan (also including control technology development and major new 
international technical collaboration) to address climate change 
issues. A major part of the reasoning for increased climate research 
was the need to improve the accuracy of regional and global scale 
understanding of climate variability, and to improve projections of 
future climate conditions related to profiles of future greenhouse gas 
emission rates around the world. In February 2002 the President created 
a new, cabinet-level interagency management structure to supervise the 
approximately $2 billion annual Federal expenditure in climate research 
and monitoring. After confirmation by the Senate in late March 2002, I 
undertook my new position as CCSP Director on April 2, 2002. The 
earliest focus for the new CCSP management structure was the creation 
of a Strategic Plan that would assure the development and dissemination 
of the best available scientific syntheses of high-priority climate 
issues.
    The CCSP Strategic Plan, which has guided both scientific reporting 
and the development of improved assessment methodologies, was adopted 
in July 2003 after extensive peer review, public review and special 
review by an ad hoc committee of the National Academy of Sciences 
convened at the request of CCSP. The National Academy conducted a 
second round review of the newly revised CCSP Strategic Plan in late 
2003, and reported its finding that the Plan constituted a good vehicle 
to guide the development of the Nation's climate studies throughout the 
next decade.
    The CCSP Strategic Plan required the development of detailed, 
aggressive plans for scientific peer review, and comprehensive public 
review, of the scientific Synthesis and Assessment Reports by CCSP. The 
review process was complicated by the passage of the Information 
Quality Act of 2002 and the adoption of separate guidelines to comply 
with the Act by OMB between 2003 and 2005. In 2005 CCSP published its 
Guidelines for Producing CCSP Synthesis and Assessment Products, 
incorporating the combined requirements of the CCSP Strategic Plan and 
the OMB Guidelines responsive to the 2002 Information Quality Act. The 
detailed guidelines for the CCSP products are available on the CCSP 
website www.climatescience.gov, and are being used as the basis for 
extensive peer and public review of the entire set of 21 CCSP Synthesis 
and Assessment Reports currently being prepared. These guidelines 
represent one of the most comprehensive summaries of guidance for the 
preparation and review of important government science documents. I 
commend these guidelines to the Committee and its staff, both to 
evaluate the approach to scientific dissemination adopted by CCSP, and 
to provide examples that may be useful for other government science 
reporting as well.
    Time does not allow detailed discussion of these CCSP guidelines, 
but I note the summary statement of principles for the guidelines for 
the interest of the Committee. These general principles are:

  <bullet> Analyses structured around specific questions.

  <bullet> Early and continuing involvement of stakeholders.

  <bullet> Explicit treatment of uncertainties.

  <bullet> Transparent public review of analysis questions, methods and 
        draft results.

  <bullet> Adoption of a ``lessons learned'' approach, building upon 
        the ongoing CCSP analyses.

    I cite one example of the major progress attained by the CCSP 
collaborating agencies during the past few years, by reference to the 
IPCC Fourth Assessment science summary released last week: When the 
prior IPCC Third Assessment was released in late 2000, the large 
computer models used for the future projections of global climate 
conditions were supplied by Canadian and European research institutes, 
because the U.S. climate modeling capability was not ready for use in 
these global studies. In the new 2007 IPCC assessment, my view (shared 
by many in the field) is that the United States has assumed the 
leadership position in the critically important computer modeling of 
future climate conditions for the global climate science community.
    To the Vice Chairmen and Members of the Committee, I thank you for 
your invitation to appear before the Committee today. I shall be 
pleased to answer any questions you choose to pose.

    The Chairman. Thank you very much, Dr. Mahoney.
    And I'll now call on the Director of Climate Science Watch, 
Government Accountability Project, Mr. Rick Piltz.

   STATEMENT OF RICK PILTZ, DIRECTOR, CLIMATE SCIENCE WATCH, 
               GOVERNMENT ACCOUNTABILITY PROJECT

    Mr. Piltz. Thank you, Mr. Chairman, Mr. Vice-Chairman, 
Members of the Committee. I greatly appreciate the opportunity 
to present testimony at this hearing.
    In my written testimony, I address several issues that I 
believe are of particular significance for Congressional 
oversight at this time. Very briefly, a few key points.
    First, on the Administration's suppression of the National 
Assessment of Climate Change Impacts: In the 1998 to 2000 
timeframe, the Federal Global Change Research Program 
initiated, pursuant to the Global Change Research Act, a 
project to assess the potential consequences of climate 
variability and change for the United States. A multi-agency 
coordination effort supported assessment activities involving 
hundreds of scientists and stakeholders in 19 regions around 
the country, including the Pacific Islands, Alaska, the Gulf 
Coast, the Mid-Atlantic, and others.
    In November 2000, an independent synthesis panel made up of 
leading scientists and other experts, issued the National 
Assessment report that--to this day--remains the most 
comprehensive, scientifically-based assessment of the potential 
consequences of climate change for the United States. The 
National Assessment was designed to become an ongoing process 
to support national preparedness in dealing with global climate 
change.
    But the Bush Administration abandoned support for this 
process of communication between scientists and stakeholders, 
and has failed to move forward with a follow-on National 
Assessment report.
    The Administration has suppressed discussion and use of the 
National Assessment Report by Federal agencies in research and 
assessment activities, and has suppressed references to it in 
published program documents, including annual program reports 
to Congress, that for 9 years, I edited while working for the 
Climate Change Research Program.
    It is my understanding that the White House, through the 
agency of the Council on Environmental Quality, directed this 
suppression, which was then implemented by the CCSP leadership 
during the last 5 years.
    Myron Ebell, of the industry-funded policy group the 
Competitive Enterprise Institute, has been quoted as saying, 
``To the degree that it is vanished, we have succeeded.'' And 
the fact that the Administration and the CCSP leadership 
essentially made the National Assessment vanish, in the 
Strategic Plan for the U.S. Climate Change Science Program, 
issued in 2003.
    The National Research Council has used and praised the 
National Assessment as an important and credible study, and was 
critical of the program's unjustified failure to incorporate 
and build on the National Assessment in its Strategic Plan.
    The White House Science Office, the Council on 
Environmental Quality, and the CCSP leadership stonewalled the 
Academy by failing to respond to and address this criticism, by 
providing any justification for their actions, scientific or 
otherwise.
    I see the Administration's treatment of the 2000 National 
Assessment as the political interference with scientific 
integrity that has done, and continues to do, the greatest 
damage in undermining national preparedness in dealing with the 
challenge of global climate change. I believe it would be 
appropriate for the Committee to investigate this, and even 
more important, for Congress to move to revitalize what should 
become an ongoing National Assessment process. High-level 
support for this kind of direct, unfiltered communication 
between scientists and stakeholders, would convey important 
information to policymakers and society about climate change 
impacts, and potential response strategies.
    Also, the Administration has acted in a variety of ways to 
impede and manipulate communication about climate change by 
Federal scientists to wider audiences, including Congress and 
the media. And it's not so much interference with what's 
published in the technical journals, but it's when the science 
comes forward and is communicated to a wider audience--
Congress, the media, the public--that the political gatekeepers 
step in, through a variety of mechanisms.
    Last week, the Union of Concerned Scientists and the 
Government Accountability Project released their joint report, 
Atmosphere of Pressure. This report--investigation--uncovered 
new evidence of widespread political interference in Federal 
climate science. One hundred and fifty Federal climate 
scientists reported, collectively, at least 435 such incidents 
of political interference during the past 5 years. More than 
100 survey respondents reported changes or edits during review 
of their work, to change the meaning of their findings. That 
number should be zero.
    Political interference in climate science has moved from 
the anecdotal to the epidemic. And even if we succeed in 
lifting this heavy hand of censorship, there is still the 
problem of getting the political leadership to embrace the 
findings that are put forward by the scientists, and act on 
them to translate them effectively into National policy.
    This atmosphere of pressure that we have been seeing has 
serious consequences for the Nation's ability to have access to 
the best available scientific information for understanding and 
responding to climate change. The UCS/GAP report has a set of 
recommendations, that ensure basic freedoms for government 
scientists, and that taxpayer-funded science sees the light of 
day, without manipulation of climate science communication by 
political gatekeepers.
    Congress should act to extend whistleblower protection to 
scientists who report interference. Federal scientists have a 
constitutional right to talk about any subject, so long as they 
speak as a private citizen, and the public has the right to 
hear them.
    A case example of my own personal experiences with what I 
consider inappropriate White House political interference with 
Climate Change Science Program reports produced by career 
Federal science professionals is summarized and explained in my 
written testimony.
    I'll conclude on that. I'd be pleased to answer any 
questions.
    If I could just add one additional item. Dr. Brennan 
referred to the U.S. Climate Change Science Program budget as 
$2 billion. In fact, it was $2 billion in 2004. But the 
Administration has steadily cut back the funding for climate 
change research, to the point where, in the President's Fiscal 
Year 2008 request the other day, that budget request is now 
$1.5 billion. That is an almost 30 percent cut in real terms in 
the climate research budget in 4 years, and almost all of that 
can be accounted for by cutbacks in the global climate 
observing system--the NASA/NOAA observing system, which is in a 
state of crisis. Dr. Anthes has addressed that, I address it 
also in my written testimony, but I urge the Committee to look 
into this. I think it's a tremendously important issue for 
oversight, and to be rectified by Congressional action.
    Thank you.
    [The prepared statement of Mr. Piltz follows:]

  Prepared Statement of Rick Piltz, Director, Climate Science Watch, 
                   Government Accountability Project
    Chairman Inouye, Vice Chairman Stevens, members of the Committee--I 
greatly appreciate the opportunity to present testimony at this 
hearing, which addresses a subject of crucial importance for good 
policymaking and an informed society. I am currently the Director of 
Climate Science Watch, a program of the Government Accountability 
Project in Washington, D.C. The Government Accountability Project, a 
29-year-old nonprofit public interest group, is the Nation's leading 
whistleblower protection organization. Climate Science Watch engages in 
investigation, communication, and reform advocacy aimed at holding 
public officials accountable for how they use climate research in 
addressing the challenge of global climate change.
    Since 1988, my primary professional focus has been on the 
relationship between science and policy on global climate change. \1\ 
From April 1995 until March 2005, I worked in the program coordination 
office of the multiagency U.S. Government program that supports 
scientific research on climate and associated global change. \2\ The 
program was originally established as the U.S. Global Change Research 
Program (USGCRP) under the Global Change Research Act of 1990. In 2002, 
the Bush Administration established the U.S. Climate Change Science 
Program (CCSP), incorporating the USGCRP and the President's Climate 
Change Research Initiative.
---------------------------------------------------------------------------
    \1\ I studied Political Science at the University of Michigan, 
earning an M.A. and Ph.D. Candidate status. I have worked on issues of 
environmental and energy research and policy both inside and outside of 
government since 1979. From 1991 through 1994 I served as a Majority 
Professional Staff Member of the Committee on Science, Space and 
Technology of the U.S. House of Representatives. During that time I 
supported the Committee's oversight of climate and global change 
research and policy issues.
    \2\ The Climate Change Science Program Office, where I worked, 
supports this research effort by performing interagency coordination, 
strategic planning, communications, and reporting functions, and 
serving as the program secretariat. I worked directly with the program 
leadership, career Federal science program managers, and the senior 
professional staff in the program office. At the time I resigned in 
March 2005 my position was Senior Associate. During the time I worked 
in the program office I was employed by the University Corporation for 
Atmospheric Research (UCAR), based in Boulder, Colorado. UCAR is a 
nonprofit consortium of North American member universities that grant 
doctoral degrees in the atmospheric and related sciences. I was 
assigned to work in the program office under a grant from the National 
Science Foundation to the UCAR Joint Office of Science Support.
---------------------------------------------------------------------------
Key Issues Addressed in My Testimony
    We currently face major, interrelated problems with the U.S. 
Climate Change Science Program and with how the Administration is 
undercutting climate science assessment, communication, and research. 
In my judgment, the following are of particular significance for the 
public interest and for Congressional oversight at this time:

        1. The Administration suppressed official use of the National 
        Assessment of Climate Change Impacts and has failed to continue 
        the National Assessment process, thus undermining national 
        preparedness for dealing with the challenge of global climate 
        change.

        2. The Administration has acted in a variety of ways to impede 
        and manipulate communication about climate change by Federal 
        scientists and career science program leaders to wider 
        audiences, including Congress and the media.

        3. The Administration has cut the climate change research 
        budget to its lowest level since 1992 and is presiding over 
        what appears to be a growing crisis in the global climate 
        observing system, thus undermining a critical national 
        intelligence-gathering process.

    My testimony deals with each of these problems and concludes with a 
set of recommendations.
1. The Administration Suppressed Official Use of the National 
        Assessment of Climate Change Impacts and Has Failed to Continue 
        the National Assessment Process, Thus Undermining National 
        Preparedness for Dealing With the Challenge of Global Climate 
        Change

    During the 2001-2005 time-frame, I came to the conclusion that 
politicization of climate science communication by the current 
Administration was undermining the credibility and integrity of the 
Climate Change Science Program in its relationship to the research 
community, to program managers, to policymakers, and to the public 
interest. Among the key issues that I viewed as particularly 
significant in the politicization of the program, foremost was the 
treatment by the current Administration of the National Assessment of 
the Potential Consequences of Climate Variability and Change 
(``National Assessment'').
    The National Assessment to this day remains the most comprehensive, 
scientifically based assessment of the potential consequences of 
climate change for the United States. No national climate change 
assessment process or reporting of comparable subject matter and 
regionally-based, nationwide scope has subsequently been undertaken 
with the support of the Federal Government. The National Assessment was 
a pioneering experiment in societal relevance for climate change 
research.
    I see the Administration's treatment of the 2000 National 
Assessment, and the abandonment of high-level support for an ongoing 
process of scientist-stakeholder interaction, as the central climate 
science scandal of the Administration--the action that has done, and 
continues to do, the greatest damage in undermining national 
preparedness in dealing with the challenge of global climate change. 
Thus, I believe it would be appropriate for the Committee to 
investigate the Administration's treatment of the 2000 National 
Assessment, as part of oversight of the White House's political 
intervention in the U.S. Climate Change Science Program and in 
particular its assessment and communication activities.
    The National Assessment was initiated, carried out, and published 
between 1997 and 2000, during the time I worked in the program office. 
The Global Change Research Act of 1990 mandates the production and 
submission to the President and the Congress ``no less frequently than 
every 4 years'' scientific assessment reports of global change that 
include the impacts of such change on the environment and on various 
socioeconomic sectors. To be responsive to this statutory mandate, the 
program sponsored the National Assessment. The process involved 
communication between scientists and a variety of ``stakeholders,'' 
from the public and private sectors and academia. It was intended to 
initiate a process of interaction and reporting that would be ongoing 
and developed and improved over time.
    A National Assessment Synthesis Team made up of leading scientists 
and other experts, was established as a Federal advisory committee to 
guide the process. It produced a National Assessment report that 
integrated key findings from regional and sectoral analyses and 
addressed questions about the implications of climate variability and 
change for the United States. The report was forwarded to the President 
and Congress in November 2000.
    Climate change impacts vary by region and sector, as do response 
strategy options. University-based teams led 19 regional workshops and 
assessments across the United States that focused on interrelated 
environmental and socioeconomic issues. In addition, five sectoral 
reports focused on issues that were national in scope and related to 
the goods and services on which society and the economy depend, 
including reports on agriculture, water, human health, forests, and 
coastal areas and marine resources.
    Every Member has an interest in the kind of information such an 
assessment can make available for consideration in developing national 
policy. These were groundbreaking, integrative efforts that were 
designed to be of use to Congress and the Federal agencies, state and 
local officials, regional and sectoral planners and resource managers, 
educators, and the general public. They exemplified a vision of a 
democratic process for societally relevant environmental assessment, 
based on dialogue between interdisciplinary teams of scientific experts 
and a wide range of stakeholders and the general public. Through this 
process, the agenda for ongoing research and assessment would be 
informed by a better understanding of the concerns of policymakers and 
the public, and policymakers and the public would learn about issues of 
climate change and its potential consequences so as to better equip 
them for making decisions.
    In June 2001, the Committee on the Science of Climate Change of the 
National Research Council (NRC) issued a report titled Climate Change 
Science: An Analysis of Some Key Questions. The study originated from a 
White House request in May 2001 to help inform the Administration's 
review of U.S. climate change policy. The Committee was made up of 11 
eminent climate scientists. It was chaired by Ralph J. Cicerone of the 
University of California, who is today the President of the National 
Academy of Sciences. The section of the NRC report on ``Consequences of 
Increased Climate Change of Various Magnitudes'' is based almost 
entirely on the findings of the National Assessment. The NRC Committee 
did not in any way call into question the scientific legitimacy or 
significance of the National Assessment, but rather drew on it as a 
core text in this advisory report to the White House.
The Administration's Treatment of the National Assessment
    Despite the utility of the National Assessment, the Administration, 
most aggressively from the second half of 2002 onward, acted to 
essentially bury the National Assessment, i.e., by suppressing 
discussion of it by participating agencies for purposes of research 
planning by the Climate Change Science Program; suppressing references 
to it in published program documents including annual program reports 
to Congress; withdrawing support from the coordinated process of 
scientist-stakeholder interaction and assessment that had been 
initiated by the first National Assessment; and making clear that no 
second National Assessment would be undertaken. The Administration 
failed to consider and utilize the National Assessment in the Strategic 
Plan for the U.S. Climate Change Science Program issued in July 2003. 
From my experience, observation, analysis of documentation, and 
personal communications with others in the program, I believe it is 
clear that the reasons for this were essentially political, and not 
based on scientific considerations. I believe this is generally 
understood within the program.
    In late May 2002 the Administration issued the report U.S. Climate 
Action Report 2002: Third National Communication of the United States 
of America Under the United Nations Framework Convention on Climate 
Change. This Climate Action Report was one of a series of reports 
required periodically pursuant to U.S. responsibilities under the 
Framework Convention on Climate Change, the foundational climate 
treaty. Chapter 6 of the Climate Action Report, ``Impacts and 
Adaptation,'' drew substantially on the findings of the National 
Assessment for its discussion of the potential consequences of climate 
change for the United States. This was appropriate, considering that 
the National Assessment had recently been published and represented the 
most systematic, in-depth study of this subject that had been done to 
that point (and remains so at the present time).
    The ``Impacts and Adaptation'' chapter prompted press coverage, 
including a prominent story in the New York Times, on how the chapter 
suggested a new acknowledgement by the Administration of the science 
pointing to the reality of human-induced climate change and a range of 
likely adverse societal and environmental consequences. This appeared 
to cause a public relations problem for the Administration. Asked about 
the report and the press coverage of it, the President replied in a way 
that distanced himself from it by referring to it as ``a report put out 
by the bureaucracy.''
    My understanding at that point, which I believe was coming to be 
more widely shared, both inside and outside the program, was that the 
Administration was uncomfortable with the mainstream scientifically 
based communications suggesting the reality of human-induced climate 
change and the likelihood of adverse consequences. Straightforward 
acknowledgement of the growing body of climate research and assessment 
suggesting likely adverse consequences could potentially lead to 
stronger public support for controls on emissions and could be used to 
criticize the Administration for not embracing a stronger climate 
change response strategy. It was the concern about this linkage that 
seemed to underlie much of what I perceived to be the Administration's 
intervention in managing communications by the Climate Change Science 
Program.
    In this context, for the Administration to have released a U.S. 
Climate Action Report with a chapter on climate change impacts that 
identified a range of likely adverse consequences, based on scientific 
reports including the National Assessment, could rightly be seen as an 
anomaly and appeared to be seen as a significant political error by 
Administration allies dedicated to denying the reality of human-induced 
global warming as a significant problem. On June 3, 2002, Myron Ebell 
of the Competitive Enterprise Institute sent an e-mail message 
addressed to Philip Cooney, Chief of Staff at the White House Council 
on Environmental Quality (CEQ), offering to help manage this ``crisis'' 
and help ``cool things down.'' (This document was obtained by a 
nongovernmental organization via a Freedom of Information Act request). 
In the e-mail to Cooney, Ebell said: ``If it were only this one little 
disaster we could all lock arms and weather the assault, but this 
Administration has managed, whether through incompetence or intention, 
to create one disaster after another and then to expect its allies to 
clean up the mess.'' He told Cooney the Administration needed to get 
back on track with disavowals of the Climate Action Report and the 
National Assessment. Shortly thereafter, Cooney began to play a more 
visible role in Climate Change Science Program governance as the CEQ 
liaison to the interagency principals committee, and in intervening to 
manage and edit Climate Change Science Program communications.
    Immediately prior to taking the position of CEQ Chief of Staff, 
Cooney had been employed as a lawyer-lobbyist at the American Petroleum 
Institute (API), the primary trade association for corporations 
associated with the petroleum industry. He was the climate team leader 
at API, leading the oil industry's fight against limits on greenhouse 
gas emissions. CEI also had a close relationship with the oil industry, 
having reportedly received $2 million in funding between 1998 and 2005 
from ExxonMobil.
    In July 2003 the program issued its Strategic Plan for the Climate 
Change Science Program. The document was submitted to Congress under 
the signatures of Secretary of Energy Spencer Abraham, Secretary of 
Commerce Donald L. Evans, and Office of Science and Technology Policy 
Director John H. Marburger. In the plan, the existence of the National 
Assessment was mentioned only in a single sentence, which did not even 
include the title of the report. There was no description of the 
structure, process, scope, purpose, or contents of the National 
Assessment. The National Assessment did not appear in the bibliography 
of the plan. No information was given to suggest how copies might be 
obtained. In effect, mention of the National Assessment had almost 
completely vanished from the CCSP Strategic Plan.
National Research Council's Criticism of the CCSP on the National 
        Assessment
    The final report of the National Research Council's Committee to 
Review the U.S. Climate Change Research Program Strategic Plan, issued 
in February 2004, was critical of the failure of the program to 
incorporate and build on the National Assessment in its Strategic Plan 
for assessment and ``decision support'' activities. On the subject of 
the National Assessment's scientific credibility the report said:

        It is especially important that CCSP synthesis and assessment 
        products be independently prepared, or evaluated, by the 
        science community. This will provide a level of credibility 
        that reports produced exclusively within the government 
        sometimes fail to achieve. The only previous centralized 
        assessment effort by the CCSP agencies, the U.S. National 
        Assessment on the Potential Consequences of Climate Variability 
        and Change, followed these credibility assurance guidelines. 
        The National Assessment's Overview and Foundation reports are 
        important contributions to understanding the possible 
        consequences of climate variability and change. (National 
        Research Council, Committee to Review the U.S. Climate Change 
        Science Program Strategic Plan, Implementing Climate and Global 
        Change Research: A Review of the Final U.S. Climate Change 
        Science Program Strategic Plan (National Academies Press, 2004, 
        p.13).

    On the value of the National Assessment's process of engaging 
scientists and ``stakeholders'' in dialogue, the NRC review said:

        The processes of stakeholder engagement and transparent review 
        of the National Assessment reports were exemplary. . . . The 
        Strategic Plan . . . should more effectively buildupon a 
        growing capability within the U.S. climate and global change 
        research community to interact with potential users of climate 
        and global change science, as was demonstrated in the U.S. 
        National Assessment of the Potential Consequences of Climate 
        Variability and Change (NAST, 2001). The revised plan generally 
        overlooks the insights and relationships that were developed by 
        the National Assessment . . . (pp. 13-14).

    On the significance of the regional-scale assessments included as 
part of the National Assessment, the NRC review said:

        The plan also does not include areas of research relevant to 
        regional-scale assessments identified as a result of the 
        National Assessment. . . . This deficiency needs to be remedied 
        quickly so that the program's decision support activities 
        reflect what the scientific community now knows, what it can 
        accomplish, and what users would like to know (p. 14).

    On the Administration's apparent refusal to provide any scientific 
rationale for the disappearance of any acknowledgement of the National 
Assessment, the NRC review said:

        For the most part the CCSP's revisions to the Strategic Plan 
        are quite responsive to comments expressed at the workshop, in 
        written input, and by this Committee. One notable exception is 
        the fact that the revised plan does not acknowledge the 
        substantive and procedural contributions of the U.S. National 
        Assessment of the Potential Consequences of Climate Variability 
        and Change (NAST, 2001), a major focus of the Global Change 
        Research Program (GCRP) in the late 1990s. Many participants at 
        the [CCSP] December [2002] workshop criticized how the draft 
        Strategic Plan treated the National Assessment, as did this 
        Committee in its first report. The revised plan does not 
        reflect an attempt to address these concerns, and no rationale 
        for this decision has been provided. (pp. 29-30).

    Although OSTP Director John Marburger has referred to the National 
Academy of Sciences as the ``gold standard'' of scientific advice to 
the government, and despite the criticism of the plan for failing to 
provide any rationale for the disappearance of the National Assessment, 
Dr. Marburger, then-CCSP Director James R. Mahoney, and other 
Administration officials and CCSP leaders offered no response to this 
criticism of how they treated the National Assessment. No changes were 
made to the Strategic Plan in response to the NRC's criticism. It 
appeared to me that something akin to a conspiracy of silence was being 
enforced within the Federal Government, which had nothing to do with 
the scientific merits of the National Assessment.
The Role of the Council on Environmental Quality
    The Administration, without ever clarifying the issue forthrightly, 
has allowed a perception to persist that the suppression of the 
National Assessment was required by a legal agreement pursuant to a 
joint stipulation to dismissal of a 2001 lawsuit filed by the 
Competitive Enterprise Institute et al., seeking to halt the 
distribution of the National Assessment. White House and Climate Change 
Science Program officials have never offered an honest public 
explanation of why the terms of that dismissal would have legally 
required (as distinct from an unofficial, secret political agreement) 
that the White House and the Federal agencies suppress a taxpayer-
funded, scientifically based assessment sponsored by the Federal global 
change research program, even for purposes of using it as a scientific 
document or in program planning for research and future assessments.
    I have examined the official court records on lawsuits filed by CEI 
et al., in 2001 and 2003 and find no basis for such suppression. 
Rather, it appears that, although the CEI lawsuits were dismissed, the 
Administration decided nevertheless to award what I have termed the 
global warming denial machine a political victory that they could not 
have won had their lawsuits gone to trial. Myron Ebell of CEI has been 
quoted as saying of the National Assessment, ``To the degree that it 
has vanished, we have succeeded'' (Greenwire, October 3, 2006).
    It is my understanding that the White House directed CCSP Director 
Mahoney to suppress the use of and references to the National 
Assessment in program planning and publications. It is my understanding 
that this directive was likely given by Philip Cooney at CEQ, acting as 
an agent of CEQ Chairman James Connaughton and, by extension, the White 
House policy and political apparatus. One of the CCSP agency principals 
informed me that a subsequent directive to the agencies to refrain from 
referencing the National Assessment had come from Mahoney's office. 
Mahoney later confirmed to Environmental Science & Technology, a 
journal of the American Chemical Society, that Federal researchers were 
restricted from referring to the National Assessment (Environmental 
Science & Technology Online, October 12, 2005).
    Unlike the other representatives on the program's interagency 
principals committee, the great majority of whom were career science 
program management professionals, CCSP Director Mahoney was a Senate-
confirmed Presidential appointee, as the Assistant Secretary of 
Commerce for Oceans and Atmosphere and Deputy Administrator of the 
National Oceanic and Atmospheric Administration, and thus a political 
representative of the Administration. On the matter of not citing or 
using the National Assessment, I believe it was well-understood by the 
agency principals that to challenge the Chairman would, in effect, have 
been to challenge the White House--in particular CEQ.
    Building appropriately on the pioneering work of the National 
Assessment could have had a salutary influence on developing the 
priorities of the CCSP Strategic Plan and surely would have led the 
program toward a different overall configuration of follow-up 
scientific and assessment priorities. It could have led to a different 
approach to evolving the discourse between scientists and users of 
information--a freer relationship and one less constrained than is the 
current process by political gatekeepers concerned with controlling the 
flow of communications about climate change and its implications for 
the United States.
2. The Administration Has Acted in a Variety of Ways To Impede and 
        Manipulate Communication About Climate Change by Federal 
        Scientists and Career Science Program Leaders to Wider 
        Audiences, 
        Including Congress and the Media
    The ability of our society and public officials to make good 
decisions about important issues depends on a free, honest, and 
accurate flow of scientific research and findings. Unfortunately, the 
Administration and industry-funded special interest groups have acted 
to impede and manipulate essential communication about global climate 
change and its implications for society and the environment. The many 
climate scientists in the employ of the Federal Government represent a 
tremendous resource. Their knowledge and advice should be heeded, 
rather than manipulated or ignored. Without strong action to protect 
and restore integrity of Federal climate science communication, our 
Nation will be ill-prepared to deal with the challenge of global 
climate change.
Atmosphere of Pressure: The Union of Concerned Scientists--Government 
        Accountability Project Joint Report
    On January 30, 2007, the Union of Concerned Scientists and the 
Government Accountability Project \3\ released their joint report, 
Atmosphere of Pressure: Political Interference in Federal Climate 
Science. The Atmosphere of Pressure study found that 150 Federal 
climate scientists report personally experiencing at least one incident 
of political interference in the past 5 years, for a total of at least 
435 such incidents. I have transmitted the report to the Committee as a 
supplement to my written testimony. *
---------------------------------------------------------------------------
    \3\ The Union of Concerned Scientists is the leading scinece-based 
nonprofit working for a healthy environment and a safer world. The UCS 
Scientific Integrity Program mobilizes scientists and citizens alike to 
defend science from political interference and restore scientific 
integrity in Federal policymaking. More information about UCS and the 
Scientific Integrity Program is available online at www.ucsusa.org/
scientific_integrity.
    The Government Accountability Project (GAP) is the Nation's largest 
whistleblower organization. GAP attorneys and organizers assist 
whistleblowers in taking their evidence of wrongdoing to appropriate 
government agencies, committees, and officials to investigate, expose, 
and rectify the problems they have identified. More information about 
GAP is available online at www.whistleblower.org.
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    As a part of this study, UCS sent surveys to 1,600 climate 
scientists at seven Federal agencies and departments, to gauge the 
extent to which politics was playing a role in scientists' research. 
279 scientists responded to the survey. At the same time, GAP conducted 
40 in-depth interviews with Federal climate scientists and other 
officials and analyzed thousands of pages of government documents, 
obtained through the Freedom of Information Act (FOIA) and inside 
sources, regarding agency media policies and Congressional 
communications.
    These two complementary investigations arrived at similar 
conclusions regarding the state of Federal climate research and the 
need for strong policies to protect the integrity of science and the 
free flow of scientific information. The following is taken from the 
Executive Summary of the UCS-GAP joint report:
Political Interference With Climate Science
    The Federal Government needs accurate scientific information to 
craft effective policies. Political interference with the work of 
Federal scientists threatens the quality and integrity of these 
policies. As such, no scientist should ever encounter any of the 
various types of political interference described in our survey 
questions. Yet unacceptably large numbers of Federal climate scientists 
personally experienced instances of interference over the past 5 years:

  <bullet> Nearly half of all respondents (46 percent of all 
        respondents to the question) perceived or personally 
        experienced pressure to eliminate the words ``climate change,'' 
        ``global warming'' or other similar terms from a variety of 
        communications.

  <bullet> Two in five (43 percent) perceived or personally experienced 
        changes or edits during review that changed the meaning of 
        scientific findings.

  <bullet> More than one-third (37 percent) perceived or personally 
        experienced statements by officials at their agencies that 
        misrepresented scientists' findings.

  <bullet> Nearly two in five (38 percent) perceived or personally 
        experienced the disappearance or unusual delay of websites, 
        reports, or other science-based materials relating to climate.

  <bullet> Nearly half (46 percent) perceived or personally experienced 
        new or unusual administrative requirements that impair climate-
        related work.

  <bullet> One-quarter (25 percent) perceived or personally experienced 
        situations in which scientists have actively objected to, 
        resigned from, or removed themselves from a project because of 
        pressure to change scientific findings.

  <bullet> Asked to quantify the number of incidents of interference of 
        all types, 150 scientists (58 percent) said they had personally 
        experienced one or more such incidents within the past 5 years, 
        for a total of at least 435 incidents of political 
        interference.

    The more frequently a climate scientist's work touches on sensitive 
or controversial issues, the more interference he or she reported. More 
than three-quarters (78 percent) of those survey respondents who self-
reported that their research ``always'' or ``frequently'' touches on 
issues that could be considered sensitive or controversial also 
reported they had personally experienced at least one incident of 
inappropriate interference. More than one-quarter (27 percent) of this 
same group had experienced six or more such incidents in the past 5 
years.
Barriers to Communication
    Federal scientists have a constitutional right to speak about their 
scientific research, and the American public has a right to be informed 
of the findings of taxpayer-supported research. Restrictions on 
scientists who report findings contrary to an administration's 
preferred policies undermine these basic rights. These practices also 
contribute to a general misunderstanding of the findings of climate 
science and degrade our government's ability to make effective policies 
on topics ranging from public health to agriculture to disaster 
preparation.
    The investigation uncovered numerous examples of public affairs 
officers at Federal agencies taking a highly active role in regulating 
communications between agency scientists and the media--in effect 
serving as gatekeepers for scientific information.
    Among the examples taken from interviews and FOIA documents:

  <bullet> One agency scientist, whose research illustrates a possible 
        connection between hurricanes and global warming, was 
        repeatedly barred from speaking to the media. Press inquiries 
        on the subject were routed to another scientist whose views 
        more closely matched official Administration policy.

  <bullet> Government scientists routinely encounter difficulty in 
        obtaining approval for official press releases that highlight 
        research into the causes and consequences of global warming.

  <bullet> Scientists report that public affairs officers are sometimes 
        present at or listen in on interviews between certain 
        scientists and the media.

  <bullet> Both scientists and journalists report that restrictive 
        media policies and practices have had the effect of slowing 
        down the process by which interview requests are approved. As a 
        result, the number of contacts between government scientists 
        and the news media has been greatly reduced.

    Highly publicized incidents of interference have led at least one 
agency to implement reforms; in February 2006, NASA adopted a 
scientific openness policy that affirms the right of open scientific 
communication. Perhaps as a result, 61 percent of NASA survey 
respondents said recent policies affirming scientific openness at their 
agency have improved the environment for climate research. While 
imperfect, the new NASA media policy stands as a model for the type of 
action other Federal agencies should take in reforming their media 
policies.
    The investigation also highlighted problems with the process by 
which scientific findings are communicated to policymakers in Congress. 
One example, taken from internal documents provided to GAP by agency 
staff, shows edits to official questions for the record by political 
appointees, which change the meaning of the scientific findings being 
presented.
Inadequate Funding
    When adjusted for inflation, funding for Federal climate science 
research has declined since the mid-1990s. A majority of survey 
respondents disagreed that the government has done a good job funding 
climate science, and a large number of scientists warned that 
inadequate levels of funding are harming the capacity of researchers to 
make progress in understanding the causes and effects of climate 
change. Budget cuts that have forced the cancellation of crucial Earth 
observation satellite programs were of particular concern to 
respondents.
Poor Morale
    Morale among Federal climate scientists is generally poor. The UCS 
survey results suggest a correlation between the deterioration in 
morale and the politicized environment surrounding Federal climate 
science in the present Administration. One primary danger of low morale 
and decreased funding is that Federal agencies may have more difficulty 
attracting and keeping the best scientists.
    A large number of respondents reported decreasing job satisfaction 
and a worsening environment for climate science in Federal agencies:

  <bullet> Two-thirds of respondents said that today's environment for 
        Federal Government climate research is worse compared with 5 
        years ago (67 percent) and 10 years ago (64 percent). Among 
        scientists at NASA, these numbers were higher (79 percent and 
        77 percent, respectively).
A Case Study of Political Interference From My Experience
    I worked on many projects during the 10 years I served in the 
program office. One key ongoing project for which I was responsible 
involved coordinating the development of and editing nine editions of 
the program's annual report to Congress, Our Changing Planet. The 
report is distributed to all Members of Congress and all Congressional 
committees and subcommittees with relevant oversight or budget 
jurisdiction. The report also is distributed more widely and is one of 
the principal means by which information about the highlights of recent 
research and research plans of the Federal program as a government-wide 
entity is communicated. I also provided senior advisory and editorial 
support on a number of aspects of the development of the Strategic Plan 
for the U.S. Climate Change Science Program, issued in July 2003 and 
distributed to Congress and more widely in both print and electronic 
form.
    In developing program publications and on other matters, I worked 
with a large network of career science program managers in the 
participating agencies. In producing a particular edition of the Our 
Changing Planet report, I would work with as many as 90 individual 
contributors, spanning as many as 13 participating agencies, to 
solicit, coordinate, and edit their submissions and review comments 
into a completed, integrated document. Before being issued, this report 
had to be reviewed and approved, first by career science program 
managers in all participating agencies, then by Administration 
officials in the Executive Office of the President (EOP), including 
OSTP, OMB, and CEQ.
    Starting in October 2002, in this final-stage editorial review and 
clearance process, it came to my attention that CEQ Chief of Staff 
Philip Cooney was extensively marking up reports in a manner that had 
the cumulative effect of adding an enhanced sense of scientific 
uncertainty about global warming and minimizing its likely 
consequences, while also deleting even minor references to the National 
Assessment.
    For example, in a memorandum dated October 28, 2002, he marked-up 
the first draft of the CCSP Strategic Plan after it was approved by 
CCSP agency principals and before it was released for NRC review and 
public comment. Most of his roughly 200 text changes were incorporated 
in the review draft. A number of these changes in text relating to 
questions of climate science altered the content of the draft as it had 
been developed by Federal science program professionals. Taken in the 
aggregate, the changes had a cumulative effect of shifting the tone and 
content of an already quite cautiously-worded draft to create an 
enhanced sense of scientific uncertainty about climate change and its 
implications. The draft Strategic Plan was legitimately criticized by 
reviewers who charged that the CCSP had adopted a vocabulary with an 
exaggerated emphasis on scientific uncertainties. To my knowledge this 
CEQ mark-up was not shared with or vetted by CCSP principals or CCSP 
agency science program managers. The process was quintessentially non-
transparent and, in my view, a policy-driven political interference in 
a key science program document.
    As another example, the CEQ Chief of Staff made about 100 revisions 
to the final draft of the FY 2003 Our Changing Planet, some of which 
substantially changed or deleted text relating, for example, to 
decision support on mitigation and adaptation options, integration of 
climate science with comparative analysis of response strategies, 
ongoing regional assessments of global change consequences, and the 
relationship between energy-related emissions, climate change, and 
ecosystem impacts.
    I could give additional examples, but I will conclude with a few 
summary observations about this process:

        (a) From my observation, a few examples of relatively heavy-
        handed interventions sufficed to send a message to the program 
        leadership about White House political sensitivities. Under 
        those circumstances, I believe a kind of anticipatory self-
        censorship kicks in, and reports begin to be drafted with an 
        eye to what will be able to obtain CEQ approval--which appeared 
        to be the final step in the White House clearance process.

        (b) Although this matter has received a good deal of media and 
        political attention, I have always regarded it as essentially a 
        single graphic case study illustration of a much larger pattern 
        of Administration interference with and spinning of climate 
        change science communication. I believe it is an indicative and 
        revealing case study, but I believe we should focus primarily 
        on the larger pattern and take steps to correct a whole set of 
        problems. The former CEQ Chief of Staff has moved on to a 
        position with ExxonMobil, but rearranging the deck chairs does 
        not make the problems go away and, as part of his legacy, the 
        National Assessment he played a role in suppressing remains 
        suppressed.

        (c) It has been suggested by some critics that, since neither I 
        nor Cooney is a scientist, this issue is simply a matter of 
        competing editorial viewpoints. I believe this view betrays a 
        fundamental misunderstanding of the problem, calling for some 
        clarification. My job was to work closely with career science 
        professionals to communicate climate research information 
        clearly and accurately in such a way that it would be readily 
        understandable and of value to general attentive readers such 
        as those in Congressional offices. There was no political 
        agenda other than to encourage a bipartisan appreciation for 
        the value of this national research program. The science 
        professionals I worked with will attest to the appropriateness 
        of my role, the integrity with which I played it, and my grasp 
        of the subject matter, as will the fact that I was asked to 
        continue in this role throughout my tenure with the program. I 
        was aligned with and accountable to the mainstream climate 
        science community every step of the way. CEQ was not. What CEQ 
        was doing with its interventions was something quite different, 
        and in my view of clearly questionable legitimacy. I see that 
        as the essential difference in our roles.

3. The Administration Has Cut the Climate Change Research Budget to its 
        Lowest Level Since 1992 and Is Presiding Over What Appears To 
        Be a Growing Crisis in the Global Climate Observing System, 
        Thus 
        Undermining a Critical National Intelligence-Gathering Process
    Funding for climate and global change research under the Global 
Change Research Program (FY 1989-FY 2002) and Climate Change Science 
Program (FY 2003-present) is shown in the table on the following page, 
which is taken from the CCSP website. The table shows that, in real 
terms, funding is currently at the lowest level since 1992.
    The President's FY 2007 budget request for the CCSP was 26 percent 
less than the program's budget in 1995, the high-water mark. The FY 
2007 request was 13 percent less than the program's budget in FY 2001, 
the last budget before the current Administration took office.
    The Administration's response to criticism on climate change is 
often to point to how much is spent on research. The Climate Change 
Science Program is indeed a large program, with a budget that supports 
a wide range of both governmental and nongovernmental scientific 
research, as well as climate observing systems, in particular NASA's 
space-based remote-sensing observing system. But, notwithstanding the 
importance that Administration officials purport to give to the issues 
addressed by the program, the Administration is now steadily reducing 
the budget request for the program. Why?
    A review of the CCSP budget tables as presented in the FY 2006 and 
FY 2007 editions of Our Changing Planet indicates generally that the 
steady cuts in the overall CCSP budget from FY 2004 onward are almost 
entirely attributable to cuts in the NASA Earth Science research and 
observations budget. The NASA budget figures as arrayed in Our Changing 
Planet during the past several years are difficult to interpret in any 
detail, nor is the discussion in the report of NASA's program at all 
illuminating about the reasons for and implications of the cutbacks in 
NASA's program, nor about how these cutbacks are allocated across 
specific clearly identifiable program activities. However, the report 
says that, from FY 2005 to the FY 2007 request, NASA's CCSP budget was 
cut by 17 percent, from $1.241 billion to $1.029 billion. (The 
inflation-adjusted cut would be greater.) This includes a 13 percent 
cut in the ``Scientific Research'' portion of the budget, and a 20 
percent cut in ``Space-Based Observations.''

  Funding for Global Change Research under the CCSP and USGCRP,  Fiscal
                 Years 1989-2007 (dollars in millions) *
     Past, present and future budget data are key components of the
 information transmitted to Congress in Our Changing Planet. This table
shows the evolution of funding for the program since 1989. Note that the
 scope of activities included within the budget is not constant over the
  period. In some cases (as in 1989-1990), a substantial portion of the
 year-to-year budget change results from shifting activities into or out
  of the program. These changes in program definition are the result of
            changing scientific priorities and other factors.
------------------------------------------------------------------------
                                                             Constant
               Fiscal Year                Actual dollars      (2005)
                                                              dollars
------------------------------------------------------------------------
1989                                                 134             209
1990                                                 659             975
1991                                                 954           1,355
1992                                               1,110           1,531
1993                                               1,326           1,775
1994                                               1,444           1,885
1995                                               1,760           2,234
1996                                               1,654           2,039
1997                                               1,656           1,995
1998                                               1,677           1,989
1999                                               1,657           1,925
2000                                               1,687           1,896
2001                                               1,728           1,886
2002                                               1,667           1,792
2003                                               1,766           1,857
2004                                               1,977           2,023
2005                                               1,865           1,865
2006 (estimate)                                    1,709           1,674
2007 (request)                                     1,715           1,643
------------------------------------------------------------------------
* The table is posted on the Climate Change Science Program website at:
  http://www.climatescience.gov/infosheets/highlight2/
  default.htm#funding. The table was updated November 2006.

    Without going into further detail in this written testimony, I 
suggest that this extraordinary scaling back of the Administration's 
commitment to a strong Earth Science research and observations program 
at NASA has very serious implications for the strength of the Nation's 
climate change science capability. The Administration must be held 
accountable for this indirect method of undermining the ability to 
understand, assess, and communicate what is happening with climate and 
associated global change--especially if we also take into consideration 
the extraordinary and disturbing developments with the NPOESS next-
generation weather-climate satellite system that are taking place on 
the watch of Administration officials at DOD, NOAA, and NASA.
The NPOESS Crisis
    The National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) was created by a Presidential Decision Directive in 
1994, under which the military and civil meteorological programs were 
merged into a single program. NPOESS was intended as an operational 
system to provide state-of-the art data for weather forecasting and 
climate system monitoring. Within NPOESS, NOAA is responsible for 
satellite operations, the Department of Defense (DOD) is responsible 
for major acquisitions, and NASA is responsible for the development and 
infusion of new technologies.
    To continue climate-quality measurements beyond the first series of 
NASA's Earth Observing System (EOS) research satellites (NASA is not 
developing a second series of EOS satellites), it was assumed that the 
NPOESS system would continue, in an operational environment, the mature 
EOS measurements, many of which address the Nation's climate monitoring 
needs.
    NPOESS, as originally configured, would have represented a 
significant step forward in the Nation's ability to deploy a 
comprehensive climate observing system. Many key climate variables 
would be measured for decades. However, cost estimates for the program 
skyrocketed from $6.5 billion to $10 billion and the scheduled launch 
of its first satellite slipped from May 2006 to at least April 2008--a 
gap that the Government Accountability Office concluded could leave the 
United States with gaps in vital climate and weather forecasting data.
    As a result of the massive cost overrun, NPOESS was subjected to a 
statutorily required re-scoping in 2006. During the re-scoping process, 
ground rules endorsed by the NPOESS Executive Committee stipulated that 
a higher priority would be placed on the continuity of operational 
capabilities in support of weather measurements, which resulted in a 
lower priority for climate-focused measurements. The Office of the 
Secretary of Defense (OSD) led a tri-agency process culminating in the 
certification of a restructured NPOESS Program on June 5, 2006. The 
result was a decision to reduce the overall number of satellites and 
eliminate climate sensors from the system.
    Climate Science Watch has obtained a December 11, 2006, joint 
document prepared by the NASA Earth Science Division and the NOAA 
Climate Observations and Analysis Program that describes the impacts of 
the Nunn-McCurdy Certification of NPOESS on the climate program goals 
of NASA and NOAA. The document was developed at the direction of the 
Office of Science and Technology Policy (OSTP) as a result of a meeting 
on June 26, 2006.
    On the importance of a continuous climate-quality data record, the 
report says:

        Detecting climate change, understanding the associated shifts 
        in specific climate processes, and then projecting the impacts 
        of these changes on the Earth system requires a comprehensive 
        set of consistent measurements made over many decades. Many 
        climate trends are small and require careful analysis of long 
        time series of sufficient length, consistency, and continuity 
        to distinguish between the natural long-term climate 
        variability and any small, persistent climate changes. 
        Interruptions in the climate data records make the resolution 
        of small differences uncertain or even impossible to detect. To 
        confidently detect small climate shifts requires instrument 
        accuracy and stability better than is generally required for 
        weather research and most other scientific uses. For more than 
        thirty years, NASA research-driven missions, such as the EOS, 
        have pioneered remote sensing observations of the Earth's 
        climate, including parameters such as solar irradiance, the 
        Earth's radiation budget, ozone vertical profiles, and sea 
        surface height. Maintaining these measurements in an 
        operational environment provides the best opportunity for 
        maintaining the long-term, consistent, and continuous data 
        records needed to understand, monitor, and predict climate 
        variability and change.

    On the implications of losing the NPOESS climate sensors, the 
report concludes:

        For NASA, NPOESS was not only a converged civilian and military 
        weather observing system but also the cornerstone of the 
        Nation's future climate research program. For NOAA, NPOESS 
        represented a key component of the operational climate 
        observing program and a cornerstone of its Climate Goal. . . .

        Unfortunately, the recent loss of climate sensors due to the 
        NPOESS Nunn-McCurdy Certification places the overall climate 
        program in serious jeopardy.

        These shortfalls are characterized in a letter from the Chair 
        of the Joint Science Committee from the World Climate Research 
        Programme (WCRP) and from the Chair of the Steering Committee 
        from the Global Climate Observing System (GCOS) to the Chair of 
        the Committee on Earth Observation Satellites (CEOS). The 
        Chairs from WCRP and GCOS stated:

           Some of the difficulties in establishing and maintaining 
        climate observations from space are currently being highlighted 
        by the de-scoping of NPOESS, in which climate observations have 
        been seriously compromised. . . . [U]nless revised plans 
        compensate for the anticipated shortcomings in climate 
        observations, gaps in several key climate data records (some 
        that go back almost 30 years) are highly likely. . . . WCRP and 
        GCOS assert that our ability to address critical climate 
        issues, with profound societal implications, will be strongly 
        limited unless observation of climate variables is given higher 
        priority. We urge that this be done. [emphasis added]

    The report contains joint NASA-NOAA recommendations as to how the 
impacted climate-related observations and related science might be 
recovered. However, there is no indication as to the projected cost of 
even a partial recovery of the observing capability to be lost under 
the current re-scoping of NPOESS. Nor is there any indication of 
whether the Administration will request the funding needed in order to 
implement a recovery.
    Who is accountable for the mismanagement and failure of leadership 
of this essential program? A May 2006 investigative report by the 
Commerce Department Inspector General was sharply critical of high-
level Federal management for failing to deal effectively with the long 
delays and major cost overruns in the development and deployment of 
NPOESS. \4\
---------------------------------------------------------------------------
    \4\ U.S. Department of Commerce, Office of Inspector General, 
National Oceanic and Atmospheric Administration--Poor Management 
Oversight and Ineffective Incentives Leave NPOESS Program Well Over 
Budget and Behind Schedule. Audit Report No. OIG-17794-6-0001/May 2006.
---------------------------------------------------------------------------
Conclusions and Recommendations
1. Revitalize the National Assessment Process
    Reports of a steady stream of scientific findings on global climate 
change, in particular reports on observed and projected consequences of 
global warming, have increased the level of concern among policymakers 
and the public. Debate on appropriate climate change policy and 
response strategies at the international, national, and state levels 
has also increased in urgency in the U.S. public arena. In this 
context, re-activating the National Assessment process and producing a 
second National Assessment report would make a major contribution to 
the Nation's preparedness for addressing the challenge of global 
warming and climate change.
    The essential idea is not to replicate the 2000 National Assessment 
in its particulars, but rather to move forward with a strong, updated, 
coordinated, integrative effort, employing the method of having climate 
scientists and other experts communicate directly with policymakers and 
other stakeholders, geographical region-by-region, and socioeconomic 
sector-by-sector, to diagnose vulnerabilities and develop response 
strategies, without political interference with free and open 
communication. Climate change impacts vary by region and sector, as do 
response strategy options. Every Member has an interest in the kind of 
information such an assessment could make available for consideration 
in developing national policy.
2. Address the Problems of the Council on Environmental Quality, Agency 
        Media Policies, and Public Communication by the Climate Change 
        Science Program
On the White House Council on Environmental Quality
    The UCS-GAP report does not substantially address the higher levels 
in the chain of command that has resulted in political interference 
with climate science communication, starting with the President. In 
particular, the report does not focus on the role of the Council on 
Environmental Quality. CEQ is a White House policy office, not a 
science office. In my view it was problematic from day one that CEQ 
officials, whose essential job was to advance the President's policy 
and political position on global climate change, were at the table 
participating directly in the governance of the Climate Change Science 
Program and shaping its communication of climate change research. In my 
judgment, CEQ should be put back on the policy side of the science-
policy fence--as was the case under the previous Administration. And 
management of the CCSP should be back on the science side of the fence.
On Agency Media Policies
    The Government Accountability Project has prepared a critical 
analysis of the new media policy developed at NASA in 2006 in the wake 
of publicity surrounding NASA's scandalous attempt to muzzle public 
communication by Dr. James Hansen, Director of the NASA Goddard 
Institute of Space Studies. While the NASA media policy appears to be 
an improvement over the prior situation, GAP's analysis raises concerns 
about agency media policies and identifies legislative action that the 
Committee should consider. A statement and memorandum prepared by Tom 
Devine, Legal Director at GAP, is included with this testimony as an 
Appendix.
On Public Communication by the Climate Change Science Program
    Congressional oversight should include a focus on the Climate 
Change Science Program and the CCSP Office as well as the agencies. In 
order to ensure the scientific independence and credibility of the 
program and its products, the CCSP should develop CCSP-wide principles 
and policies on communications to ensure the scientific independence of 
climate change science communications.
    Currently, there is no procedure under which the CCSP, or the CCSP 
Office, can communicate on behalf of the Federal climate research 
enterprise as a whole. Media inquiries to the CCSP are channeled to the 
NOAA Public Affairs Office--an office that, as discussed in the UCS-GAP 
report, has been politically compromised in its climate science 
communication by the Department of Commerce and by the Administration 
political appointees at the head of NOAA. One key example has been 
communication on the scientific question of the relationship between 
global warming and increased hurricane intensity.
    Congress, the media, and the public need to be able to receive 
communications directly from the Climate Change Science Program that 
are not filtered through the public and governmental affairs offices of 
a single agency. One alternative would be to give the Climate Change 
Science Program Office the resources, staffing with scientific 
expertise, and freedom from White House political manipulation, to 
communicate, and to coordinate communications, on behalf of the full 
range of scientific research supported by the CCSP participating 
agencies.
3. Implement the Recommendations of the Union of Concerned Scientists--
        Government Accountability Project Report
    The UCS-GAP report, Atmosphere of Pressure--Political Interference 
in Federal Climate Science has brought to light numerous ways in which 
U.S. Federal climate science has been filtered, suppressed, and 
manipulated in the last 5 years. I fully support the UCS and GAP 
recommendations of the following reforms and actions:

  <bullet> Congress must act to specifically protect the rights of 
        Federal scientists to conduct their work and communicate their 
        findings without interference and protect scientists who speak 
        out when they see interference or suppression of science.
  <bullet> The Federal Government must respect the constitutional right 
        of scientists to speak about any subject, including policy-
        related matters and those outside their area of expertise, so 
        long as the scientists make it clear that they do so in their 
        private capacity. Scientists should also be made aware of these 
        rights and ensure they are exercised at their agencies.

  <bullet> Ultimate decisions about the communication of Federal 
        scientific information should lie with scientists themselves. 
        While non-scientists may be helpful with various aspects of 
        writing and communication, scientists must have a ``right of 
        last review'' on agency communications related to their 
        scientific research to ensure scientific accuracy has been 
        maintained.

  <bullet> Pre-approval and monitoring of media interviews with Federal 
        scientists by public affairs officials should be eliminated. 
        Scientists should not be subject to restrictions on media 
        contacts beyond a policy of informing public affairs officials 
        in advance of an interview and summarizing the interaction for 
        them afterwards.

  <bullet> Federal agencies should clearly support the free exchange of 
        scientific information in all venues. They should investigate 
        and correct inappropriate policies, practices, and incidents 
        that threaten scientific integrity, determine how and why 
        problems have occurred, and make the necessary reforms to 
        prevent further incidents.

  <bullet> Congress should immediately exert pressure on the Executive 
        Branch to comply with its statutory duty under Federal law and 
        undertake periodic scientific assessments of climate change 
        that address the consequences for the United States. (The last 
        national assessment was conducted in 2000.)

  <bullet> Funding decisions regarding climate change programs should 
        be guided by scientific criteria, and must take into account 
        the importance of long-term, continual climate observation 
        programs and models.

  <bullet> All branches of the government must have independent 
        scientific advice.

3. End the Cutbacks and Restore Support for Space-Based Observations 
        and Long-Term Monitoring of Essential Climate and Global Change 
        Variables
    The scaling back of the Administration's commitment to a strong 
Earth Science research and observations program at NASA should be the 
subject of in-depth Congressional oversight. The Committee should 
investigate the implications of these cutbacks for the Nation's climate 
change research capability and should seek to rectify this situation 
with appropriate funding levels and program oversight.
    Congress should also hold Administration officials accountable for 
allowing essential climate sensors to be dropped from NPOESS, the next-
generation DOD-NOAA environmental satellite system, at the same time 
NASA is not developing a next generation of its Earth Observing System 
satellites. The Committee's oversight should include investigation of 
recommendations for mitigation of the crisis that have been developed 
under the guidance of the NASA Earth Science Division and the NOAA 
Climate Observations and Analysis Program.
    In each case, I recommend that the Committee not limit itself to 
hearing testimony from Administration political appointees, such as the 
NASA Administrator, the NOAA Administrator, or the Director of the 
Office of Science and Technology Policy. Officials whose primary 
commitment is to advance White House policy and political objectives 
will tend to put the best face on a bad situation and be less than 
fully forthcoming with the Committee with explanations of the real 
problems. Instead, I recommend that the Committee hear from and ask the 
tough questions of senior career officials with both programmatic and 
technical expertise, such as Jack Kaye of the NASA Earth Science 
Division and Thomas Karl of the NOAA National Climatic Data Center. 
Hopefully they will feel free to tell you a straight story.
                                Appendix
    NASA and other agencies have trumpeted new media policies as proof 
of their good intentions and new-found respect both for scientific 
freedom and freedom of speech. Indeed, the policies have appealing 
rhetoric that can help change bureaucratic attitudes. That matters. 
Depending on the political cycle, the rhetoric could be sufficient to 
sustain an open environment within scientific agencies.
    Unfortunately, the policies' fine print exposes them as a trap that 
could be used to fire, or potentially prosecute, almost any scientist 
if the political environment becomes hostile again. First let's 
consider what's in them. The Achilles' heel is a loophole that cancels 
all the new free speech rights if a scientist discloses information in 
new, pseudo-classified, hybrid secrecy categories. These categories, 
with new names such as ``Sensitive but Unclassified'' or ``Sensitive 
Security Information,'' do not purport to have the national security 
significance of classified documents. In fact, they are just new names 
for longstanding categories like ``For Official Use Only,'' that 
primarily are secrecy shields of convenience for virtually any 
information the agency wants to keep off the market of public 
discourse, either to control timing or avoid embarrassment. Although 
the SBU or SSI brands can be issued arbitrarily, the potential criminal 
liability can be even more severe than for genuinely classified 
information.
    Even worse, information can be designated as SBU or SSI after-the-
fact. For example, one GAP air marshal client has been fired 3 years 
after-the-fact for disclosing Sensitive Security Information, even 
though it was not marked as restricted at the time. The whistleblower 
was challenging a security breakdown, and his dissent was vindicated as 
the agency quickly canceled a reckless decision when it became public. 
Depending on the next election results or other factors that should be 
irrelevant, under NASA's fraudulent media policy reform, every NASA 
scientist communicating with this Committee could be fired several 
years from now for disclosing Sensitive but Unclassified information.
    Not only is the policy disingenuous, it is illegal. It violates the 
Whistleblower Protection Act on its face, because that law only permits 
blanket restrictions on public speech if information is properly 
classified.
    Let's also consider what the policy doesn't include. The Anti-Gag 
Statute, an appropriations rider passed unanimously by Congress for the 
last 18 years, bans any spending to implement or enforce any 
nondisclosure policy, form or agreement, unless it also has an addendum 
with specific Congressional language that, in the event of a conflict 
with the policy, the Whistleblower Protection Act and the Lloyd-
Lafollette Act protecting safe communications with Congress will 
supersede any contradictory language and prevail. The NASA media policy 
does not contain this addendum. Any funds spent to implement and 
enforce it have been and will be illegal expenditures.
    There is no possibility that this was a good faith error. GAP's 
legal director Tom Devine spent over an hour tutoring the NASA Office 
of General Counsel lawyer who wrote the phony reform, both on the 
requirements of the Whistleblower Protection Act and the Anti-Gag 
Statute. The lawyer reassured GAP that he understood what those laws 
required. But NASA issued a policy that is a custom fit for violating 
these fundamental merit system and whistleblower rights for scientific 
freedom. The illegality is deliberate.
    Legislation co-sponsored in the last Congress by Representatives 
Waxman, Davis, and Platts and marked up unanimously in committee (H.R. 
1317 and H.R. 5112) directly addresses this type of back-door 
scientific repression. It codifies and provides a remedy for the Anti-
Gag Statute, and establishes checks and balances on the currently-
unrestrained use of pseudo-classification gag orders. The media 
policy's fine print illustrates why your Committee should act 
immediately to pass this badly needed reform. The Committee also should 
have GAO audit how much money has been spent illegally to implement and 
enforce the NASA media policy. An April 1, 2006, memorandum GAP 
prepared on the policy is attached.
                               Memorandum
    To: Climate Scientists
    From: Government Accountability Project
    Re: Analysis of NASA's Recently Released Media Policy
    The Government Accountability Project (GAP) is issuing advisory 
comments on NASA's new media policy that it released yesterday, March 
30. The new policy came in response to public outcry over NASA's 
suppression of climate science research inconsistent with the Bush 
Administration's political agenda. NASA is touting the development as a 
free-speech breakthrough for agency scientists.
    GAP identified the areas in which the new policy is an improvement:

  <bullet> NASA Administrator Michael Griffin's reassuring rhetoric is 
        of symbolic value, demonstrating official respect for 
        scientific freedom.

  <bullet> The new media policy does not cover scientific reports, web 
        postings, or professional dialogue such as at conferences, 
        allowing scientists to share information with their colleagues 
        without going through public affairs political appointees.

  <bullet> The policy officially recognizes the free speech right for 
        scientists to express their ``personal views'' when they make 
        clear that their statements are not being made on behalf of 
        NASA.

    However, in six critical areas the new policy falls short of 
genuine scientific freedom and accountability, and potentially 
undermines the positive guarantees:

  <bullet> While recognizing the existence of a ``personal views'' 
        exception, the policy doesn't announce the circumstances when 
        that right cancels out conflicting restrictions, which are 
        phrased in absolute terms applying to contexts such as ``any 
        activities'' with significant media potential. This leaves a 
        cloud of uncertainty that translates into a chilling effect for 
        scientists.

  <bullet> The policy fails to comply with the legally-mandated 
        requirements of the Anti-Gag Statute to explicitly include 
        notice that the Whistleblower Protection Act and Lloyd-
        Lafollette Act (for Congressional communications) limit and 
        supersede its restrictions.

  <bullet> The policy institutionalizes prior restraint censorship 
        through ``review and clearance by appropriate officials'' for 
        ``all NASA employees'' involved in ``preparing and issuing'' 
        public information. This means that scientists can be censored 
        and will need advance permission from the ``appropriate'' 
        official before anything can be released.

  <bullet> The policy defies the WPA by requiring prior approval for 
        all whistleblower disclosures that are ``Sensitive But 
        Unclassified'' (SBU). The legal definition of SBU is broad and 
        vague, to the point that it can be interpreted to sweep in 
        virtually anything. The WPA only permits that restriction for 
        classified documents or those whose public release is 
        specifically banned by statute.

  <bullet> The policy bans employees' free speech and WPA rights to 
        make anonymous disclosures, requiring them to work with NASA 
        public affairs ``prior to releasing information'' or ``engaging 
        in any activities or events that have the potential to generate 
        significant media or public interest or inquiry.''

  <bullet> The policy gives NASA the power to control the timing of all 
        disclosures, which means scientists can be gagged until the 
        information is dated and the need for the public to know about 
        critical scientific findings has passed.

    In December of last year, NASA climatologist Dr. James Hansen was 
threatened with ``dire consequences'' by a political appointee for 
statements he made about the consequences of climate change. According 
to GAP's legal director, Tom Devine, ``Under this so-called reform, Dr. 
Hansen would still be in danger of `dire consequences' for sharing his 
research, although that threat is what sparked the new policy in the 
first place. The new policy violates the Whistleblower Protection Act, 
the Anti-Gag Statute, and the law protecting communications with 
Congress, the Lloyd-Lafollette Act. The loopholes are not innocent 
mistakes or oversights. GAP extensively briefed the agency lawyer on 
these requirements, who insisted he understood them fully. NASA is 
intentionally defying the good government anti-secrecy laws.''

    The Chairman. Thank you very much, Mr. Piltz. I'd like to 
assure the panel that all of your prepared statements and 
reports will be made part of the Committee's record. And I can 
assure you that we will study them very carefully.
    And now, may I call upon the Bren Research Professor, 
Chemistry and Earth System Science, School of Physical 
Sciences, University of California, Dr. F. Sherwood Rowland.

STATEMENT OF DR. F. SHERWOOD ROWLAND, PROFESSOR, CHEMISTRY AND 
 EARTH SYSTEM SCIENCE, SCHOOL OF PHYSICAL SCIENCES, UNIVERSITY 
                     OF CALIFORNIA, IRVINE

    Dr. Rowland. Thank you, Mr. Chairman.
    I'm Sherwood Rowland, Professor of Chemistry and Earth 
System Science at the University of California, Irvine, where I 
have been for more than 40 years.
    I first testified to the U.S. Congress in December 1974, in 
connection with the study published that year with Professor 
Mario Molina on the depletion of stratospheric ozone by the 
chlorofluorocarbon gases, then used worldwide as refrigerants 
and aerosol propellants.
    The following year, the same gases were identified as being 
potent greenhouse gases, despite their very low concentrations 
in Earth's atmosphere. Three years later, members of our 
research laboratory at the University of California Irvine, 
began collecting ground-level atmospheric samples in widely 
distributed remote locations in both Northern and Southern 
hemispheres, to monitor these rising, global CFC 
concentrations.
    When we extended our studies beyond the CFCs, we quickly 
discovered that the concentrations of methane gas found in 
these samples after emission from rice paddies, swamps, coal 
mines, cows and other sources, were also increasing. Because of 
the greenhouse gas significance of both CFCs and methane, we 
have continued now for 28 years, with financial support from 
NASA, to monitor these gases in atmospheric samples collected 
quarterly from Northern Alaska, to Southern New Zealand.
    The concentration of methane gas in the atmosphere has more 
than doubled since 1800, as shown by comparison with the 
concentrations found in air bubbles in glacial ice cores. This 
growth has made methane a significant contributor to global 
greenhouse forcing over these two centuries, second only to 
gaseous carbon dioxide, in quantitative importance up to the 
present.
    In our continuing analyses of atmospheric composition, we 
now have a record, more than a decade long, in both 
hemispheres, of the concentrations of more than 100 gaseous 
molecules, of either natural or industrial origin. In addition, 
with the support of the Department of Energy we have applied 
the identical analytical techniques to the same set of 
atmospheric gases in more than 20 U.S., and many foreign 
cities, and to the U.S. Southwest as a region.
    These data are very pertinent to estimates of the 
contributions of tropospheric ozone, another greenhouse gas. 
All of these studies form a small part of the much larger 
scientific understanding of the greenhouse effect, global 
warming, and the accompanying concern about abrupt climate 
change. This background of participation in the atmospheric 
science community has meant interactions both within the 
science itself, and in its interfaces with the various 
governmental organizations, and the general public.
    Beginning in 1988, the global scientific understanding of 
these areas began to be organized internationally by the 
Intergovernmental Panel on Climate Change, or IPCC. The initial 
portion of the fourth IPCC report on the fundamental science of 
the planetary energy balances, and how they effect the climate, 
was reported in Paris last week. It was, and is, a very stark 
presentation of how the growing concentrations of the 
greenhouse gases and other ongoing atmospheric changes are 
already significantly affecting large portions of the Earth, 
for example, melting of ice in the polar North, and prolonged, 
severe drought in Southeastern Australia.
    The outlook for the coming decades is for much further 
change, including rising sea level, hurricane intensity, et 
cetera.
    This IPCC report represents an outstanding effort on the 
part of the international scientific community, and has the 
support of almost all of its members. Complete unanimity is 
never expected, nor is there any mechanism for establishing the 
competence and credibility of those claiming to speak as 
scientists, other than the seldom-performed examination of his 
or her record of past successes and failures.
    The closer we come to widespread public interest from the 
general public, the harder it becomes to evaluate the merits of 
the scientific case in the mix of other opinions. The IPCC 
report represents the best effort of the scientific community 
to evaluate the problems of climate change, and it should be 
listened to by us.
    Those of us who are based in universities are accustomed to 
presenting, directly, our findings and our opinions about the 
context of our results. And in most of my experience, our 
colleagues in national laboratories have had almost as much 
freedom in their presentations.
    Describing one's work as one sees it is the bedrock of the 
scientific enterprise. However, in the last several years, my 
scientific conversations have run into far too many instances 
in which the reports of the significance of the work have been 
subsequently changed by others--often by persons with less, or 
even no, expertise in the subject at hand.
    Some of these conflicts have been gathered together with 
verified details by the Union of Concerned Scientists, and by 
the Government Accountability Project, and are presented here 
today. Working out the best approaches to mitigation or 
adaptation to future climatic change, is critically dependent 
upon possession of the most accurate and pertinent knowledge.
    I will conclude by quoting the remarks of the late Senator 
John Chafee, of Rhode Island, at the closing of a hearing on 
the atmosphere which had just been held with the Senate 
Subcommittee on the Environment, which he chaired. ``If we were 
masters of the world, we would do something about carbon 
dioxide. But we are not. We can't tell the Soviets what to do, 
or the Chinese. But, it seems to me, that is not an excuse for 
no action at all on the part of the United States. That is why 
I find fault with the view that, if we take action, the 
Europeans may not. But, that's not a call to inaction, to me. 
We ought to do what we can, and set an example.''
    These were his comments to us in June 1986, and 
unfortunately, they are just as applicable now as they were 21 
years ago.
    Thank you.
    [The prepared statement of Dr. Rowland follows:]

Prepared Statement of Dr. F. Sherwood Rowland, Professor, Chemistry and 
   Earth System Science, School of Physical Sciences, University of 
                           California, Irvine
    I am Sherwood Rowland, Professor of Chemistry and Earth System 
Science at the University of California Irvine, where I have been for 
more than forty years. I first testified to the U.S. Congress in 
December 1974 in connection with the study published that year with 
colleague Prof. Mario Molina, on the depletion of stratospheric ozone 
by the chlorofluorocarbon gases then used worldwide as refrigerants and 
aerosol propellants. The following year, these same gases were 
identified as being potent greenhouse gases despite their very low 
concentrations in Earth's atmosphere. Three years later members of our 
research laboratory at the University of California Irvine--as did 
others--began collecting ground-level atmospheric samples in widely 
distributed remote locations in both northern and southern hemispheres 
to monitor these rising global CFC concentrations.
    When we extended our studies beyond the CFCs, we quickly discovered 
that the concentrations of methane gas, found in these samples after 
emission from rice paddies, swamps, coal mines, cows and other sources, 
were also increasing. Because of the greenhouse gas significance of 
both CFCs and methane, we have continued, with financial support from 
NASA, to monitor these gases in atmospheric samples collected quarterly 
from northern Alaska to southern New Zealand. The concentration of 
methane gas in the atmosphere has more than doubled since 1800, as 
shown by comparison with the concentrations found in air bubbles in 
glacial ice cores. This growth has made methane a significant 
contributor to added global greenhouse forcing over those two 
centuries, second only to gaseous carbon dioxide in quantitative 
importance up to the present.
    In our continuing analyses of atmospheric composition, we now have 
a record more than a decade long in both hemispheres of the 
concentrations of more than one hundred gaseous molecules, of either 
natural or industrial origin. In addition, with the support of the 
Department of Energy, we have applied the identical analytical 
techniques to the same set of atmospheric gases in more than 20 U.S. 
and many foreign cities, and to the U.S. Southwest as a region. These 
data are very pertinent to estimates of the contributions of 
tropospheric ozone, another greenhouse gas. All of these studies form a 
small part of the much larger scientific understanding of the 
greenhouse effect, global warming, and the accompanying concern about 
abrupt climate change.
    This background of participation in the atmospheric science 
community, has meant interactions both within the science itself and in 
its interfaces with the various governmental organizations and the 
general public. Beginning in 1988, the global scientific understanding 
of these areas began to be organized internationally by the 
Intergovernmental Panel on Climate Change, or IPCC. The initial portion 
of the Fourth IPCC report, on the fundamental science of the planetary 
energy balances and how they affect the climate, was reported in Paris 
last week. It was--and is--a very stark presentation of how the growing 
concentrations of the greenhouse gases and other ongoing atmospheric 
changes are already significantly affecting large portions of the 
Earth--for example, melting of ice in the polar North, and prolonged 
severe drought in southeastern Australia. The outlook for the coming 
decades is for much further change, including rising sea level, 
hurricane intensity, etc.
    This IPCC report represents an outstanding effort on the part of 
the international scientific community, and has the support of almost 
all of its members. Complete unanimity is never expected, nor is there 
any mechanism for establishing the competence and credibility of those 
claiming to speak as scientists, other than the seldom performed 
examination of his or her record of past successes and failures. The 
closer we come to widespread public interest from the general public, 
the harder it becomes to evaluate the merits of the scientific case in 
the mix of other opinion. The IPCC report represents the best effort of 
the scientific community to evaluate the problems of climate change, 
and it should be listened to.
    Those of us who are based in universities are accustomed to 
presenting directly our findings and our opinions about the context of 
our results. In most of my experience, our colleagues in national 
laboratories have had almost as much freedom in their presentations. 
Presentation of one's work as one sees it is the bedrock of the 
scientific enterprise. However, in the last several years, my 
scientific conversations have run into far too many instances in which 
the reports of the significance of the work have been subsequently 
changed by others, often by persons with less, or even no, expertise in 
the subject at hand. Some of these conflicts have been gathered 
together, with verified details, by the Union of Concerned Scientists 
and by the Government Accountability Project, and are presented here 
today. The working out of the best approaches to mitigation or 
adaptation to future climatic change is critically dependent upon 
possession of the most accurate and pertinent knowledge.
    I will conclude by quoting the remarks of the late Senator John 
Chafee of Rhode Island at the closing of a hearing on the atmosphere 
which had just been held with the Senate Subcommittee on the 
Environment, which he chaired.

        ``If we were masters of the world, we would do something about 
        carbon dioxide. But we are not. We can't tell the Soviets what 
        to do, or the Chinese. But it seems to me that is not an excuse 
        for no action at all on the part of the United States. That is 
        why I find fault with the view that if we take action, the 
        Europeans may not. But that is not a call to inaction to me. We 
        ought to do what we can and set an example.''

    These were his comments in June 1986, and unfortunately they are 
just as applicable now as they were 21 years ago.

    The Chairman. Dr. Rowland, I thank you very much, and if I 
may, I'd like to begin my questioning.
    It has come to my attention that in July of last year, the 
American Enterprise Institute--a well-known think-tank in 
Washington--sent letters to climate scientists offering $10,000 
to those willing to dispute the findings of the 
Intergovernmental Panel on Climate Change, or IPCC, which 
consolidated world research on climate change, and concluded 
that human activities are warming the planet.
    And, if I may, I'd like to place a copy of this letter in 
the record.
    [The information previously referred to follows:]

   American Enterprise Institute for Public Policy Research
                                       Washington, DC, July 5, 2006
Prof. Steve Schroeder,
Department of Atmospheric Sciences,
Texas A&M University,
College Station, TX.

Dear Prof. Schroeder:

    The American Enterprise Institute is launching a major project to 
produce a review and policy critique of the forthcoming Fourth 
Assessment Report (FAR) of the Intergovernmental Panel on Climate 
Change (IPCC), due for release in the Spring of 2007. We are looking to 
commission a series of review essays from a broad panel of experts to 
be published concurrent with the release of the FAR, and we want to 
invite you to be one of the authors.
    The purpose of this project is to highlight the strengths and 
weaknesses of the IPCC process, especially as it bears on potential 
policy responses to climate change. As with any large-scale 
``consensus'' process, the IPCC is susceptible to self-selection bias 
in its personnel, resistant to reasonable criticism and dissent, and 
prone to summary conclusions that are poorly supported by the 
analytical work of the complete Working Group reports. An independent 
review of the FAR will advance public deliberation about the extent of 
potential future climate change and clarify the basis for various 
policy strategies. Because advance drafts of the FAR are available for 
outside review (the report of Working Group I is already out; Working 
Groups II and III will be released for review shortly), a concurrent 
review of the FAR is feasible for the first time.
    From our earlier discussions of climate modeling (with both 
yourself and Prof. North), I developed considerable respect for the 
integrity with which your lab approaches the characterization of 
climate modeling data. We are hoping to sponsor a paper by you and 
Prof. North that thoughtfully explores the limitations of climate model 
outputs as they pertain to the development of climate policy (as 
opposed to the utility of climate models in more theoretical climate 
research). In particular, we are looking for an author who can write a 
well-supported but accessible discussion of which elements of climate 
modeling have demonstrated predictive value that might make them 
policy-relevant and which elements of climate modeling have less levels 
of predictive utility, and hence, less utility in developing climate 
policy. If you are interested in the idea, or have thoughts about who 
else might be interested, please give Ken Green a call at your 
convenience.
    If you and Prof. North are agreeable to being authors, AEI will 
offer an honoraria of $10,000. The essay should be in the range of 
7,500 to 10,000 words, though it can be longer. The deadline for a 
complete draft will be December 15, 2007. We intend to hold a series of 
small conferences and seminars in Washington and elsewhere to coincide 
with the release of both the FAR and our assessment in the Spring or 
Summer of 2007, for which we can provide travel expenses and additional 
honoraria if you are able to participate.
    Please feel free to contact us with questions and thoughts on this 
invitation.
        Cordially,
                                       Kenneth Green, Ph.D.
                                                  Visiting Scholar.

                                   Steven F. Hayward, Ph.D.
                                                  Resident Scholar.

    The Chairman. This letter is addressed to Professor Steve 
Schroeder, dated July 5, 2006, on the letterhead of the 
American Enterprise Institute, and signed by Dr. Steven Haywood 
and Dr. Kenneth Green.
    Dr. Rowland, have you seen this type of letter?
    Dr. Rowland. I did see that letter. A couple of days ago.
    The Chairman. And what are your thoughts on this letter?
    Dr. Rowland. I think it illustrates the problem of getting 
science out in an understandable fashion in Washington, D.C., 
where there are many competing sources--many of them with 
money--that put out steady information that affect the general 
public's view of what is going on.
    Within the scientific community, with its refereed 
publications, there has been very little denial or avoidance of 
the realization that global warming is actually happening. The 
question of details is always valid, but the fact that Alaska 
is showing all of these signs of increasing temperature, makes 
me say simply that global warming is occurring. Our problem now 
is, what can we do to slow it down, to adapt to it, to 
mitigate. But, we have to take very seriously the fact that 
it's happening.
    The Chairman. Do you see this letter as an attempt to bribe 
scientists to manufacture criticism of the IPCC report 
conclusions?
    Dr. Rowland. I think that the question of who is a 
scientist and what they believe is a very broad-ranging one. 
There are undoubtedly people that will respond to this, that 
have their own beliefs. What I'm saying is that the 
overwhelming opinion of the scientists that have spent their 
discussions trying to understand it, say global warming is 
occurring. There certainly are facets that need to be explored, 
but using the existing knowledge to denigrate the IPCC, I 
think, is unfortunate. But it's something that will go on. We 
need to keep in mind that the scientific community has tried to 
do the best they can on this, and is putting out their result 
in the IPCC reports. And I would urge people to examine the 
science as discussed there, rather than what appears in other 
less scientific sources.
    The Chairman. Thank you very much.
    Mr. Piltz, I just have a few minutes left. What are your 
thoughts on the letter?
    Mr. Piltz. On the letter? Yes, I saw an example of that 
letter last year when it was going around, one of the leading 
scientists shared it with me. I know that they were concerned 
about it. I hesitate to attribute motives to the sender of the 
letter. I do think it's important when you have the 
international science community, through the IPCC, or through 
other major assessments that are well-reviewed and well-vetted, 
that this is the material that those of us who are not 
necessarily climate science experts should use, and embrace.
    And, I do think we have seen the beginnings of an 
orchestrated political effort to undermine the perception of 
the IPCC. Because the IPCC's conclusions about global climate 
change, and its implications, raise questions that could cause 
pressure for a stronger policy. And people who don't find that 
politically congenial do have an interest in somehow making it 
look like the IPCC is somehow controversial.
    So, I was concerned, when I saw this. As to whether that 
was part of this sort of, denialist or contrarian or skeptic 
effort.
    The Chairman. Dr. Mahoney, do you think that if we follow 
the path we're following, we're on a path to destruction that's 
irreversible?
    Dr. Mahoney. Mr. Chairman, yes I do. I think that the time-
scale over which that, the word you use was destruction, would 
occur, is something that needs to continue to have sharpened--
more and more sharp definition in time. So, I think that is--
the way I view what we do with the science now, I think the 
last few years have seen a real coalescence of the science on 
the fundamental issue that humans are a principle cause of the 
climate change that we're seeing.
    We could refer back many years, and many scientists would 
say we already had a consensus, but I think it's fair to say 
that that consensus has become more firm and more broad in the 
last very few years. And so now, I look at the science as 
appropriately turning its attention to what I described in a 
lecture last week, for example, is the very important 
differential questions: What impacts are the most severe, and 
when are they likely to occur? What's our confidence in that 
because we have to pay special attention that, if we estimate a 
time too long, we're in grave trouble, of course. What 
mitigation measures would help the most, and when and where do 
they need to be applied?
    So, I think I see something of the nature of a sea change 
in the science, where we can turn away from this fundamental 
yes or no, is there any human influence--the answer is yes. But 
now we have an even greater challenge for the science, which is 
to say--let us really get on about figuring out, with the best 
confidence we can, when changes are likely to occur, and what's 
our ability to forestall those changes by the various measures 
available to us.
    The Chairman. One last question.
    In my four decades of experience in the Senate, I have 
observed that people of the United States begin to act when 
they get scared, or there's something they fear down the road. 
Most people will conclude that at this moment they have not 
reached that level of fright regarding climate change. When 
will something happen where people will come to this level of 
fright? Dr. Rowland?
    Dr. Rowland. I will resort to discussing an earlier 
problem--that of stratospheric ozone depletion, where the 
question of what should be done was being discussed back and 
forth. The United States in that case took action in 1976, 
while the rest of the world--except for Scandinavia--was not 
aggressively pursuing the problem, until suddenly the Antarctic 
ozone hole appeared. This manifestation of loss of ozone--in a 
distant location, but with massive loss there, suddenly raised 
the attention of everybody, saying, ``We don't understand it 
completely, but this sudden change to the Earth seems to have 
been done by man,'' That realization led very quickly to the 
Montreal Protocol, and to the toughening of the controls on 
chlorofluorocarbons, in fact, their elimination by 1996, as far 
as manufacture.
    The important consequence there was, in fact, the 
appearance of something totally unpredicted. I'm afraid, that 
that's what the likelihood will be on global warming. Something 
will happen that we haven't really factored in, that is even 
more serious than the things that we have seen. Sea level will 
rise gradually, but something else--I'm still concerned about 
that. There are enough changes going on to be very worried just 
by what we see. But, we don't know, we don't understand the 
Earth system completely, and so maybe something else will 
happen, too.
    The Chairman. If this was an issue of great concern and 
fright, these seats would have been filled here.
    Senator Stevens?
    Thank you very much.
    Senator Stevens. Thank you.
    I do have another conflict, as I told the Chairman, let me 
just ask a general question or two.
    We've been pursuing this subject at the Arctic Institute, 
International Arctic Research Commission in Fairbanks for some 
time. And, with the cooperation of the Congress, we've put 
vessels out on the Arctic Ocean for the last 4 years to measure 
the change in temperature, and to really follow the change in 
the ice, as it shifted around in the Arctic Ocean.
    As I said in my opening statement, I've been told that the 
oscillations in both the Atlantic and Pacific have increased 
the temperature of the water going into the Arctic Ocean, and 
that had a lot to do with this disappearance, or the starting 
of the disappearance of the Arctic Ice. We've had some 
predictions that it might be as early as 2040, others told us 
it would be 2320--so, we've had a whole series of predictions 
here.
    Beyond that, I'm told now that because of that increase in 
temperature of the Arctic, both the Russian and Alaska ice is 
thinning and the permafrost is starting to melt and recede, and 
as it does, it's releasing a great deal of methane emissions. 
And, that the studies show that not only that, it contributes 
to methane, but the increased cultivation of the lands of the 
Earth is adding a great deal of methane, and the chart I saw 
showed that the methane spike was greater than all of the other 
greenhouse gases together.
    Now, I'm looking at this from the point of view of our 
safety. Some people are suggesting, ``Let's just put a blanket 
over Alaska, and don't let them develop anything more.'' We 
have 34,000 trillion cubic feet of gas. We have half of the 
Nation's supply of coal. We have more oil and gas out on the 
Outer Continental Shelf, we have two-thirds of the Continental 
Shelf.
    Now, our future, I think, needs some of that energy, but at 
the same time, these other issues are coming up about 
greenhouse gases, and I wonder two things: One, is it possible 
to capture some of that methane as the permafrost in Russia and 
the U.S. subsides? I'm told that's increasing annually, the 
amounts that are being released. On the other hand, is it 
possible to convince the farm community that there ought to be 
some different way of using fertilizer, so that the methane 
doesn't come from the farm community? And, do any of you 
conclude that the people who say we should shut down Alaska are 
right?
    Now, it's a hard job to represent a State that's one-fifth 
the size of the United States and we have three Representatives 
in Congress. We find that out too often. Now, the Chairman 
says, is anyone scared? I'm scared. And I've changed my policy 
on the concepts of the CAFE standards--I want to know what else 
we can do to convince the rest of the country that this is a 
serious question, and action should be taken?
    And I can go back--is it possible to trap some of this 
methane as it escapes? I'm told if we could refine that 
methane, it would be a very good fuel, better than some of the 
other gases and petroleum. But, it's escaping.
    Dr. Rowland. I don't think that it is possible to trap the 
methane from such widespread sources. However, I do have to say 
that our own global methane measurements have shown that the 
amount of methane in the atmosphere, the yearly increase, has 
been slowing down for the last few years. There has been very 
little change in the global amount since the year 2000. This 
leveling off shows up in our data, and it shows up in the NOAA 
data from Boulder, Colorado. We're trying to understand why the 
increase in the amount of methane in the atmosphere has slowed 
down. I attribute part of this to places where people have been 
capping off leakage, because they realize that methane can be--
if it is trapped and prevented from escaping, then they can 
sell it as a fuel.
    Senator Stevens. That's what I'm saying, can we do that in 
the Arctic?
    Dr. Rowland. I don't think you can, unless it's a very 
concentrated source. I don't think you can do it with cows or 
rice paddies, which are other sources.
    What can be done is with that part that's already under the 
control of mankind--namely the oil and gas industry. We went 
into the Southwest United States into Oklahoma and Texas and 
Kansas, and found that there were a lot of hydrocarbon leakages 
there. And that seems to be something, a very positive thing 
that we can do, that is to look all over the U.S., and all over 
the world, for that matter--about those places where we have 
methane already under control, but are letting it escape 
because it leaks away. That's something that I think might 
counteract very strongly the tendency toward increases in the 
amount of methane in the atmosphere.
    Senator Stevens. Well, what about--I've got to leave, this 
is my last question, I'm really late now--what about the impact 
of the oscillation of the Atlantic and the Pacific? The heat in 
the Arctic Ocean? That's not man-made, that came from the sun.
    Dr. Rowland. That's not man-made, but the consequences of 
it are spread very widely. It's only when you have something 
already in a controlled fashion that you do well in improving 
our control.
    Senator Stevens. Well, thank you all, I do have some 
questions to submit for the record, also, and I look forward to 
reading some of the documents that you submitted for the 
record. I appreciate it very much, Senator.
    The Chairman. Thank you very much.
    Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman, and thanks to all 
of you for the work that you've done, and for bringing your 
views, even though we have a contrary analysis of what a couple 
have said. After having heard so much about the intimidation of 
science, and scientists and their effort to tell it like it is, 
very frankly.
    Mr. Knutson, you said that NOAA had sent Public Affairs 
officers to monitor comments that you would be making to the 
press--what do you think, once again--what was their intention? 
Did they just want to listen to you? You have a lot of 
intelligent knowledge, did they just want to hear?
    Mr. Knutson. I'd rather not speculate on their motives. I 
can say that they did not interfere with what I said in these 
appearances, but I know a number of scientists have commented 
that this just seems to not be right, that it seems--some call 
this activity ``minders''--having minders come around to see 
what see what we say, and sort of monitor us.
    Senator Lautenberg. You're generous in your views.
    Mr. Piltz?
    Mr. Piltz. Well, how Mr. Knutson was dealt with by the NOAA 
political structure has been revealed--at least to some 
extent--by internal e-mail traffic that was obtained by Freedom 
of Information Act requests, and it was--in particular--after 
Hurricane Katrina and toward the end of the 2005 hurricane 
season when NOAA was, this was very much in the media, and 
there was the question of, does the intensity of this hurricane 
activity have something to do with global warming? Clearly, it 
was on the public's mind. And the NOAA leadership was doing a 
press wrap-up on the season and all of that, and it seemed to 
me, there was clearly an effort to selectively put forward 
certain scientists at NOAA and keep others out of the media, in 
such as way as to sort of sever the link in the public mind 
between increased hurricane intensity and global warming.
    Tom Knutson's work was climate modeling projections that 
showed that under business-as-usual greenhouse gas scenarios, 
that over the course of the 21st century, more and more of our 
hurricanes would be category four and category five.
    There was a political operative at the Department of 
Commerce who, in collusion with the NOAA Press Office, didn't 
want Tom Knutson giving interviews to the press in which he 
would describe his work. And instead, they selectively put 
forward people from the weather service who said, ``We don't 
see any connection.'' It's a tremendous--it's a really amazing 
example of the mismanagement, misrepresentation of the state of 
knowledge on this issue, selectively, by the NOAA leadership.
    Senator Lautenberg. We have documents that show redaction 
and changes in wording that ``could be dangerous, might be 
dangerous,'' or ``is dangerous''--what does that say? Is there 
any possibility that this was just innocent scribbling?
    Dr. Mahoney?
    Dr. Mahoney. No, Senator. Senator, no--I don't think those 
comments were made where they were, or they were offered as 
editorial comments. I don't think they were offered simply to 
try to pick one word over another, I think they were attempts 
to create a more moderate picture, or a less dangerous picture. 
If I pick up on the Chairman's words, the issue is how much 
would the public be scared by some of these things? I have no 
doubt that some people interpret their, did interpret their 
jobs as--among other things--aimed toward reducing, what I 
call, the ``fear factor.'' I'm just quoting that here, I'm not 
saying that's a phrase in common use about it. And that would 
be a reason that some editorial comments would be reflected 
that way.
    I do think there's another matter that is important in 
context to this, Senator, if I could add to that. Some 
documents are meant to be project reports, or planning 
documents or things of that sort. And, I saw occasions to my 
views, since this--much of this came to my attention--where 
some, including among working scientists, would see in the case 
of a document, the opportunity to editorialize, somewhat, by 
pointing out the great problems that might occur. Because, 
after all, each of us as individuals have our thoughts and 
feelings--we may feel this is highly possible, or not, in some 
cases.
    So, from the perspective of trying to create a plan 
document, or an overall project report document, I would find 
that I would try to be very careful to avoid extremes at either 
end. And the extreme at the one end would be that which, would 
be attempts to take out all the scary words. The extreme at the 
other end would be that, that would say, ``The sky is 
falling,'' when it may not be appropriate to say that. So, I--
--
    Senator Lautenberg. Well, it certainly doesn't seem to have 
been a journalistic exercise, to improve the quality of the 
language. I mean, it's obviously designed to change what's 
being said into something less, something different.
    And, Mr. Piltz, do you want to make a last comment, before 
I get chastised by the Chairman?
    Mr. Piltz. Yes, Senator, if I could just comment on that. I 
worked for the Climate Change Science Program for 10 years, and 
I worked with career science professionals throughout the 
agencies, putting together 9 editions of the annual report of 
the Program to Congress, Our Changing Planet. It's not a 
technical document, it's a communication to Congress and to a 
wider audience, but it had many state of knowledge statements 
in it.
    I'm not a scientist, but I worked with 90 career science 
professionals, with them clearing every step of the way, to put 
together the most careful, reviewed language on what was 
understood, the highlights of recent research, and what the 
issues were.
    And, that--once that had been cleared by the science 
professionals--and I was accountable to them at every step of 
the way, it would go to the White House for final review and 
clearance. And there, political gatekeepers would step in. And 
most notably, the Council on Environmental Quality, the Chief-
of-Staff for several years there was a former oil industry 
lobbyist, who clearly had a political agenda.
    And, I think, if you kind of look at the process, he was 
not accountable back to the science community, his proposed 
edits didn't have to be vetted by anyone, there was some 
pushing and pulling as to exactly how much of it to take, but I 
think that if you put it in front of the scientists and say, 
``Was this editing that enhanced the quality of the scientific 
communication, or made it more accurate?'' I think you will 
find that the answer was no.
    And so, I don't think it was a question of toning down 
extremes. I think it was a question of White House 
misrepresentation of language that had been agreed upon by 
science professionals.
    Senator Lautenberg. I will close with this, Mr. Chairman. I 
have a report submitted from the U.S. Climate Change Science 
Program in 2003, and it starts with, ``Warming will also cause 
reductions in mountain glaciers, advance the timing of the melt 
of mountain snow, of snow packs in polar regions,'' et cetera, 
et cetera. And the entire paragraph is deleted, by Mr. Cooney, 
I believe. And, I mean, that evidence is hardly circumstantial. 
This is a gross attempt not to furnish the information as it 
was developed, period.
    Mr. Piltz. I think it was generally understood among people 
in the program that there was something about this process that 
wasn't completely on the up-and-up. Everyone has a right to 
comment, but I think under the previous Administration, 
comments of as little merit as we were seeing would have been 
flat-out rejected by the Program Office, and they would have 
been backed up by the White House Science Office, and here, a 
lot of that stuff was being allowed to go through. And I--I 
think that the science leadership was trying to hold the line, 
but they were really under a tremendous amount of White House 
pressure. That's why the National Assessment got suppressed, 
they're not even allowed to talk about that, to this day.
    Senator Lautenberg. Mr. Chairman, thank you very much. It 
will be on us if we don't listen to what we're hearing these 
days.
    Thank you very much.
    The Chairman. Thank you very much, Senator Lautenberg. I'd 
like to recognize Senator Nelson, but before I do, I'd like to 
note that Senator Nelson is an astronaut, he worked on NASA 
issues for several years. And, as all of you aware, in research 
of this problem, climate change, the bulk of the money is in 
NASA. And his subcommittee is the one that authorizes the 
funding for research for NASA. So, he's a kingpin.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, thank you, Mr. Chairman. And, I would 
describe myself as a lieutenant of Senator Inouye, and it is a 
privilege. Thank you for this opportunity.
    Thank you all for your public service.
    Dr. Griffin, the Administrator for NASA, assures me that 
this attempted muzzling of scientists at NASA has stopped. I 
would like to know your observations. Does anybody disagree 
with that?
    [No response.]
    Senator Nelson. Does that mean you all agree that the 
muzzling has stopped? I mean, this kind of nonsense is going to 
stop.
    Dr. Mahoney. Senator, I think I could comment, certainly 
for myself, and just by noting the affiliation of others around 
the table. We all may hear things generally, I don't think we 
have a close-in observer of NASA practices these days. My--all 
that I've heard is that there's been a major improvement in 
recent times. But, I don't think that there's a strong 
oversight role here in the--at the witness table at the moment.
    Senator Nelson. Mr. Piltz?
    Mr. Piltz. The last four pages of my written testimony 
submission, Senator, is a memorandum prepared by the Legal 
Director of the Government Accountability Project, with which 
I'm affiliated, on the NASA media policy. And, we do 
acknowledge that there has been a significant improvement in 
the ability of NASA scientists' ability to communicate.
    However, there are problems with that media policy. There 
are hidden traps in it that could be used, there are issues 
having to do with the protections under the Whistleblower 
Protection Act that are not fully incorporated into that 
policy, and I'm not technical on this issue, but I commend it 
to your attention, and the Committee's for your consideration.
    Senator Nelson. OK, we will follow up on that. It's my 
judgment that Dr. Griffin wants to exorcise any of that 
political restraint on scientists in his agency, and I 
certainly want to assist him in making sure that that's the 
case.
    Now, at least NASA has come out with a communications 
policy, which you refer to. Tell me, Dr. Brennan, why hasn't 
NOAA come out with such policy?
    Dr. Brennan. Well, sir, thank you for the question. As I 
indicated in my statement, the Department of Commerce is in the 
process of finalizing a revised policy that overcomes some 
inconsistent and confusing communication policies from several 
Administrations ago.
    One of the things I think is important to bear in mind, 
sir, is that the Department of Commerce has not just NOAA in 
its operational science and forecasting-type of capability, it 
also has the scientific measurement, precision measurement of 
the National Institutes of Standards and Technology, it has the 
population dynamic research and science of the Census Bureau, 
Economic Analyses and Forecasting, so it has a wide array of 
scientific disciplines, and consequently, it has a much more 
difficult matter of developing a policy that will be applicable 
throughout that range of disciplines.
    Nevertheless, sir, and I think it has been pointed out 
here, the Department has put together a policy that provides an 
opportunity for scientists to address their scientific 
findings, without the interference of the Public Affairs, if 
they so choose--a policy that has an appeals process, so that 
if there's any concern, there's a rapid means of addressing 
that, and also a robust training program so that any mistakes 
that have been made in the past can be overcome, and we can set 
this behind us.
    Senator Nelson. Well, I just heard what you said, with 
regard to all of the multiplicity of disciplines, and so forth, 
but what we're trying to get at is that scientists are not 
politically intimidated. We want that intimidation dead. As 
former Congresswoman Carrie Meeks said, ``Black Flag dead.'' 
And, I would assume that you bringing out a policy that 
everybody can see would be important. So, when do we expect 
that policy to come?
    Dr. Brennan. Sir, it's my understanding that it will be 
issued in the next couple of weeks.
    Again, sir, several scientists throughout the agencies 
participated in several rounds and iterations and developments, 
and have made this a much-improved product.
    Senator Nelson. All right, let's talk about the cooperation 
between NASA and NOAA.
    There was a pretty rocky time, back a few years ago, and 
that particularly came out with regard to the GOES and the 
POESS. No, the GOES and the POESS satellites were the ones that 
we had pretty good coordination. But, a few years ago as you 
worked to this new system called NPOESS, we had a pretty rocky 
time in coordination.
    Are NASA and NOAA beginning to cooperate a little better?
    Dr. Anthes. An important part of our recommendation to OSTP 
was to develop a national strategy so that we have a long-term 
plan for Earth observations that would involve both NASA and 
NOAA in a more coordinated fashion. There is definitely room 
for improvement in the relationship between NASA and NOAA in 
terms of transitioning research observations into operational 
observations. So, we're recommending that a national plan be 
developed which transcends Administrations and Congresses and 
develops a long-term plan for sustained Earth observations for 
both research, operations, and applications.
    Senator Nelson. Is there anything that needs to be done 
(from your recommendation to us) in our oversight capacity with 
regard to the leadership of those two organizations to get them 
to get along better?
    Dr. Anthes. It's difficult to legislate individuals to get 
along. That's why our recommendation to OSTP is to develop a 
process that transcends whoever's in power at the moment in the 
two agencies, so that it's not a matter of people getting along 
personally, but a plan that's in the national interest, 
regardless of who's in charge.
    Senator Nelson. It is my understanding, and it is certainly 
my hope, that Dr. Griffin and the Admiral are having a fairly 
good, open line of communication, working on this system now. 
Is that translating down into the lower structure of the 
bureaucracy in those two agencies?
    Dr. Anthes. Well, you'd have to ask the lower structures of 
the bureaucracy.
    Senator Nelson. What's your observation, is what I'm trying 
to get.
    Dr. Anthes. In terms of our report, it's too early to see 
if there will be any action. But there definitely needs to be 
action. That's why we're recommending these 17 missions to both 
NOAA and NASA, and we certainly hope the two agencies get 
together and do something. This does not require a huge amount 
of money. To do the incremental program requires about $2.50 
per person in the United States. That's an inexpensive visit to 
the coffee shop. So, this can be done, and nothing is more 
important. The Nation is at risk by our diminishment of 
satellite observations.
    Senator Nelson. Mr. Chairman, I have two more questions, 
I'll be happy to wait until after Senator Kerry has finished.
    Senator Kerry. I'm happy to have you finish.
    Senator Nelson. All right, let me ask you again, Dr. 
Anthes, what essential space-based measurement capabilities are 
going to be lost in the coming decade, and what is the impact 
on climate research?
    Dr. Anthes. Well, a number of observations are being 
degraded, and some are being lost. For example, ocean 
altimetry, measuring the sea level height, a very important 
variable for monitoring climate change, how fast the sea level 
is rising.
    Vertical profiles of ozone are being lost. The atmospheric 
sounding capability, the vertical profiling capability of 
temperature and water vapors is being seriously degraded--not 
completely lost, but being degraded. The loss of these 
capabilities will affect, not only our measurements of how 
climate is changing in all regions of the world, but also the 
prediction by the numerical models of hurricanes and other 
severe storms.
    So, it's a whole suite of observations, scores of them 
which are either being degraded, or lost completely.
    The important thing is that it is the system of these 
observations that is important. It's not just one single type 
of observation, it's how they all work together that counts. It 
is like taking a measurement of your body's health. You don't 
want to just measure one part of the body, you have to 
understand and measure the whole body.
    So, that's what we're talking about--it's important to 
measure the entire Earth with a suite of observations, that 
puts the picture together of how the whole planet is changing. 
That's what we're recommending.
    Senator Nelson. Mr. Chairman, that's where I want to sound 
the alarm bell. Because it is in the degrading of those systems 
that we're losing our ability to measure the changes, which is 
the very subject of this hearing. And, yet global warming is 
the reason we need to have those assets up there. And, they're 
degrading.
    We've had the Triana satellite spacecraft, sitting in a can 
waiting to be launched for several years. One of its functions 
would be to measure the heat of the Earth, which just happens 
to dovetail with the subject that we've been discussing here, 
global warming.
    What do you think about that?
    Dr. Anthes. Well, you have to measure, you have to know how 
much energy the sun is putting out, You have to measure, also, 
how much the Earth is radiating back. The balance of these two 
is responsible for global warming. Right now, there's a net 
surplus of energy coming into the Earth. So, to separate the 
factors of solar variability, greenhouse gas increases and 
other contributions such as changing soil moisture, changing 
reflectivity of clouds, melting ice, and so forth, you have to 
measure the radiation coming back from the planet.
    So, yes, if you don't measure these essential climate 
forcing functions, you're not going to be able to understand 
what's happening now, what's happened in the past, and 
certainly what is likely to happen in the future.
    Senator Nelson. Mr. Chairman, that's about $150 million 
launch cost for that Triana satellite, it's sitting there. It's 
built and under the present constraints of NASA, they have 
difficulty coming up with that money for launching. We may want 
to look to see outside of the budget of NASA, or create an add 
for that, but also that's not to minimize all of these other 
systems.
    And, my final question Dr., Mr. Piltz--or I guess it's Dr. 
Piltz?
    Mr. Piltz. Mr. Piltz.
    Senator Nelson. All right. Tell us what you think about the 
budget trend for climate research, being consistent or 
inconsistent with the scientific importance of this work?
    Mr. Piltz. Well, whenever it's criticized, this 
Administration likes to say, ``Well, we spend a whole lot of 
money on research.'' And it is a big research program, and it's 
a fine research program, it's worthy of bipartisan support. But 
this Administration has been systematically cutting the budget 
for the Climate Change Science Program, in the Fiscal Year 2008 
request, it's down almost 30 percent in real terms, from just 4 
years ago, in 2004. That is a radical cutback. And most of that 
can be accounted for by the NASA scientific research, and 
especially global observing system budget. This is a major 
problem. It's not a $2 billion program anymore, it's a $1.5 
billion program, and it was that in 1991, when it was just 
ramping up as a new start under then-President Bush.
    If I could just add one recommendation for your oversight 
on the NPOESS crisis, there is a joint document, December 2006, 
prepared by NASA Earth Science Division, and the NOAA Climate 
Observations and Analysis Program that describes in detail the 
impacts of the Nunn-McCurdy certification of NPOESS on the 
Climate Program goals of NASA and NOAA. I do not think this 
document has been released, but--but it describes in stark 
terms, in NPOESS the Pentagon dumping the climate sensors off 
the next generation of environmental satellites--that is the 
future of the climate-observing system. And, we have a major 
problem.
    I recommend that, if you do oversight on this, that you not 
limit yourself to hearing testimony only from Administration 
political appointees, such as the NASA Administrator and the 
NOAA Administrator, the Director of OSTP. I mean, they're 
committed to advancing, you know, White House policy and 
political objectives, and they'll tend to put the best face on 
a bad situation, and perhaps be less than fully forthcoming 
with the Committee in calling things to your attention.
    I recommend that you hear from and ask the tough questions 
of people who wrote that joint report to the White House. Bring 
in people like Tom Karl of the NOAA National Climactic Data 
Center, the Director there, or Jack Kaye, of the NASA Earth 
Science Division, and get them to tell you a straight story.
    Senator Nelson. Thank you for that recommendation. We'll 
follow up on that.
    Thank you, Mr. Chairman.
    Thank you, Senator Kerry.
    The Chairman. And now I'd like to call upon a recognized 
leader in this area of concern, Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman, very, very much.
    Gentlemen, I apologize for not being able to be here during 
your testimonies, because we had a competing hearing in the 
Finance Committee on the budget. But, I did get a summary of 
each of them from my staff, so I'm aware of what you said, 
pretty much, and will follow up on a few of the things that you 
did say, and go to a few other places, too, if I can.
    Mr. Piltz, let me just confirm with you--you were the 
coordinator of the National Assessment, you coordinated the 
agencies that put together the National Assessment for the year 
2000, correct?
    Mr. Piltz. I did not have operational responsibility for 
the National Assessment. It was coordinated out of the office 
that I worked in. The National Assessment Coordinator, Dr. 
Michael McCracken, had a separate staff within the program that 
I worked in. And I was working on the annual reports to 
Congress, and other things. I was very closely attuned to what 
was happening with that, I was in on the early planning 
meetings, I saw the whole process by which the National 
Assessment was developed, I went to the meetings of the 
synthesis team and the regional workshops around the country, 
and I saw exactly what happened to it, under the Bush 
Administration, from practically the day----
    Senator Kerry. You described that earlier. Precisely what 
happened to it? Would you describe it right now?
    Mr. Piltz. Well, as early as 2001, and much more 
aggressively from the middle of 2002 onward, the Administration 
moved to first ignore and then actively suppress the--they 
disbanded the whole National Assessment process, this 
nationwide expert-stakeholder dialogue that was the 
intelligence gathering, diagnosis capability. And, they 
literally suppressed the use of the report, for any--I mean, 
not just as a policy document, which it wasn't, but even for 
research planning.
    I was directed by the White House Science Office to delete 
the section on the National Assessment from the annual report 
to Congress in the year it came out, and then from the middle 
of 2002 onward, we had a very strong push to take it out of the 
Strategic Plan, and----
    Senator Kerry. Did they tell you why they wanted you to 
take it out? Were you given any reasons?
    Mr. Piltz. No, there is--the Administration has never gone 
on record with any reason for why there is anything wrong with 
the National Assessment. It has been used by the IPCC, it has 
been used by the Academy, it has been praised by the Academy, 
and no scientific or intellectual justification has been given 
for why this would not be playing a significant role in 
research planning and decision-support activities. Not just the 
original document, which is 6 years old now, but the whole 
process that it initiated, of unfettered communication.
    No, there's never been, I mean--I think it's evident that 
the reasons were politically driven, rather than scientifically 
justified. I think it's generally understood within the 
Program.
    Senator Kerry. And as you say, it was generally 
understood--what was the understanding about what the political 
reasons were?
    Mr. Piltz. Well, you know, Dr. Mahoney could probably 
address this too, but I--it was my----
    Senator Kerry. He's smiling, he's looking forward to doing 
that.
    [Laughter.]
    Mr. Piltz. It was my understanding--and I was not in the 
room when high Administration officials decided this, I just 
saw the fallout from it--but it is my understanding that the 
White House directed the CCSP leadership, and in particular, 
it's my understanding that Phil Cooney at CEQ was the proximate 
White House political operative agent. But just as an operative 
in a chain of command that went all the way to the top--
directing the CCSP leadership that we weren't going to be using 
this report, discussing it, putting it in the Strategic Plan, 
and making it very clear that we were not going to go forward 
with another integrated National Assessment process.
    And that was transmitted, then, to the agencies by the, at 
the principals level.
    Senator Kerry. How many years had you worked there?
    Mr. Piltz. Ten years.
    Senator Kerry. What was your background before that?
    Mr. Piltz. Well, I had been working on the collision 
between science and policy on global warming since I first 
moved to Washington in 1988, the same week as the famous 
hearing where Jim Hansen testified. I was on the staff of the 
House Science Committee for 4 years, 1991 to 1994, I'm--my 
academic training is as a social scientist. At this point I 
know a lot more science than most policy people, and a lot more 
politics than most scientists, so I'm in between those two 
worlds.
    Senator Kerry. And what do you think has been the 
consequence for our country of this flat-Earth approach to the 
science and the global warming issue itself, global climate 
change?
    Mr. Piltz. Well, you know, the Administration has had many 
mechanisms, I mean, there's the National Assessment, there's 
the keeping scientists away from the media, there are some 
disappearing websites, there are these pre-clearances--it goes 
on and on--ignoring the Arctic Assessment, it just depends on 
what they need to do. But, the net effect of it, is rather than 
to embrace the scientific assessment and use that to drive 
effective response strategies, it's somehow worrying about 
trying to make the science communication conform to a pre-
determined political position, that might be threatened by a 
more straightforward science communication.
    Senator Kerry. What would you call that?
    Mr. Piltz. What would I call it?
    Senator Kerry. What's the--I mean, what's the rationale?
    Mr. Piltz. I believe that, sir, when the President is asked 
about global warming, and says, ``Yes, the Earth is warming, 
fundamental debate--is it man-made or natural? '' That's not a 
fundamental debate in the science community. And, I mean, you 
ask me what would I call it? I call it misrepresenting the 
intelligence.
    Senator Kerry. Dr. Mahoney, your testimony, your written 
testimony, leads one to believe that there had been no real 
occurrences where NOAA scientists have been prevented from 
speaking freely regarding their scientific findings to the 
media, is that really your opinion?
    Dr. Mahoney. No, it isn't, Senator, and I don't think I 
said that.
    Senator Kerry. Well, just in the written testimony, it 
doesn't make it explicit. Could you make it explicit here, now? 
Are there instances where scientific findings have been 
prevented from being spoken about to the media by scientists, 
by NOAA scientists?
    Dr. Mahoney. What I think has occurred, Senator, in some 
cases is, in the process of interacting with the Public Affairs 
representatives in NOAA in particular, there's a perception 
developed that some of the scientists were discouraged, or at 
least not encouraged, and in some cases discouraged from 
carrying out interviews with the media. In some cases, 
interviews that might have been set up were denied by the 
Public Affairs Office representatives and the like. And, I 
certainly saw instances of that during my time at NOAA.
    Senator Kerry. Dr. Anthes, you said in your testimony that 
we need to restore U.S. leadership on Earth science, and that 
the Bush cuts to NOAA and NASA have hurt us. The cuts are about 
30 percent, aren't they?
    Dr. Anthes. The cuts in NASA are about 30 percent, and in 
real purchasing power, from the value as recent as the year 
2000. So, this is a 30 percent cut in the Earth science 
research. And you can look forward, into the future, and see 
that there are almost no plans in NASA for additional missions 
to study the Earth from space. I showed a chart in my testimony 
that shows the number of instruments was decreasing from about 
120 last year, to something like 80 in 3 years from now, and 
then on down to 50 percent by 2015. So, unless things are 
turned around, there is a huge shift away from Earth science 
and observations from space, which are needed more than ever. 
This is not the time to be cutting back on observations, it's 
the time to restore them and restore the U.S. to a leadership 
capability.
    Senator Kerry. Well now, each of you with one exception, 
have testified here to the need to commit to science. What we 
have on the record here is a picture of this Administration 
willfully, purposefully, quashing science from reaching the 
American people. Willfully stepping in the way of legitimate 
global climate change conclusions being drawn. Willfully 
stepping in the way of proactive steps to try to deal with 
this. In effect, a dodge and a duck, an avoidance of reality. 
That's the conclusion you have to draw from scientists being 
told, ``Don't talk about it,'' words being stripped out of 
reports, and budgets being cut.
    Dr. Brennan, what's your response to that? Are you proud of 
a record of the last 6 years that sees the United States 
falling behind the rest of the world, avoiding science, and not 
telling the American people the truth?
    Dr. Brennan. Thanks, sir. My response to that is that the 
United States is the lead in advancing climate science, as I 
testified, the United States involvement in the world----
    Senator Kerry. How can you be the lead in advancing climate 
science if--I mean, I was here with Senator Hollings, as 
Senator Inouye was, when we passed the Global Change Research 
Act, 1990. And we specifically set out the following, ``at 
least every 4 years, to give us the National Scientific 
Assessment. To integrate, evaluate, interpret research findings 
on climate change, scientific uncertainties, analyze the 
effects of global climate change on the natural environment, 
agriculture, energy production, use, land and water resources, 
transportation, human health, welfare, human social systems, 
biological diversity, analyze current trends in global change, 
both human inducted and natural.'' Don't you think that if the 
IPCC report comes out in 2001, if you guys were serious about 
this, that you might have reported to the Congress after that 
your judgments about that report?
    Dr. Brennan. Sir, as you know the Administration, utilizing 
the CCSP process, is advancing the 21 Synthesis and Assessment 
Reports to advance our understanding of a science that is 
developing and evolving very rapidly, and it provides a very 
direct way to get advances to----
    Senator Kerry. Well, let me ask you about your 
understanding. Do you accept the scientific consensus that 
since the Industrial Revolution, the planet has warmed up by 
0.8 degrees Centigrade, do you accept that?
    Dr. Brennan. I accept that the scientific consensus that 
unequivocally indicates that the Earth is warming, and that 
there are anthropogenic causes for that.
    Senator Kerry. Do you accept the science that says that 
that carbon dioxide that is already in the atmosphere, coupled 
with other greenhouse gas will continue to do damage for its 
half-life of whatever, 70 years or more, and that therefore, no 
matter what we do, there will be another add-on of temperature 
increase to somewhere in the vicinity of 1.5 degrees 
centigrade, do you accept that?
    Dr. Brennan. I accept that we are continuing to add 
emissions to our environment----
    Senator Kerry. That's not what I asked you. I asked you 
whether or not the existing levels, no matter what is added, 
just what is there now, pre-ordains a continued increase in 
temperature up to about 1.5 degrees, do you accept that?
    Dr. Brennan. I accept that we have carbon increasing in our 
atmosphere, sir, yes.
    Senator Kerry. So, you accept that we're stuck with that 
increase in temperature, no matter what we do?
    Dr. Brennan. No, I believe that the temperature will 
continue to increase.
    Senator Kerry. Fair enough. And, do you accept the 
consensus of the scientific community are now ratified by what 
was put out in Paris last week, that we can no longer afford 
the cushion of a temperature increase up to 3 degrees 
centigrade, we are now stuck with a 2 degree, sort of, 
precautionary level, which leaves us now with a margin of 1.5 
to 2 degrees. That everything man-made that we do, in India, in 
China, here, the entire cushion available to us is a 0.5 
degree, do you accept that science?
    Dr. Brennan. I agree that the cushion available to us is 
narrow, sir. And the Administration supports the IPCC report.
    Senator Kerry. If that's the case, where is the plan for 
this Administration to cut carbon? To cap carbon? To reduce 
carbon? To the levels that will hold us to 450 parts per 
million, which is the scientifically agreed-upon level that we 
must accept. Where's the plan?
    Dr. Brennan. Sir, the Administration has been developing 
and has a plan, and has been working to reduce greenhouse gas 
intensity, it has been working to address the fuel side to 
reduce emissions, to stop emissions, and then to reverse----
    Senator Kerry. Sir, with all due respect, that's just talk. 
There's no real plan to hold carbon emissions to a 450 parts 
per million level. The President's State of the Union message 
suggested some gasoline savings, which is good, and he 
suggested some alternative fuels. None of which get you close 
to the level of 450 parts per million. And I just talked to a 
number of scientists last week, who confirmed that we can no 
longer afford the 550 parts per million they thought we could, 
they've ratcheted it down, why? Because of the evidence of the 
break-up of the ice, what is happening across the planet. Now, 
do you guys take that seriously, or don't you?
    Dr. Brennan. Absolutely, sir.
    Senator Kerry. Well, if you take it seriously, where's the 
assessment to the American people of what we have to do to deal 
with this?
    Dr. Brennan. Sir, as I said, the Administration is 
producing the 21 Synthesis and Assessment products to advance 
our understanding of these impacts.
    Senator Kerry. With all due respect, it's been over 5 years 
since the last report, and it is unclear when 19 further 
reports of those 21 are going to be due. Totally unclear. Do 
you really believe that two reports in two separate areas is 
sufficient to say that after 6 years you're doing the job, 
here?
    Dr. Brennan. Sir, these reports are on a schedule for 
completion that will be submitted to you in a timely fashion to 
address the issues that have been raised, and to support the 
Administration's view that this is the most appropriate way to 
advance the scientific understanding.
    Senator Kerry. This is where I am. I will acknowledge that 
there is no computer model that tells us precisely what's going 
to happen. I understand that. I also have read enough to 
understand that there's certain cooling that takes place, there 
are particulates in the atmosphere, the cooling is now 
neutralized, and equals--if you take all of the greenhouse 
gases--except for carbon dioxide--there's sort of an 
equilibrium.
    But then you've got the carbon dioxide outside of that. 
There's been a 35 percent increase in carbon dioxide since the 
beginning of the Industrial Revolution. I'm not a scientist, 
but I know enough to connect the dots here, that when I've got 
all these scientists screaming at me, saying, ``Precautionary 
principle, you gotta do this, we gotta hold it to 450 parts per 
million, we've lowered our estimate, we're now looking at 
devastation, permafrost melting in Alaska, huge, 66-square mile 
sheet of ice breaks off, creates its own island,'' you know, 
it's all accelerated. The glaciers of the planet are melting, 
not just in our own part, all over the planet. Every indicator 
is leading to this. An Arctic bird was discovered down in San 
Diego a few weeks ago, I mean, you run the gamut.
    You guys aren't responding to it. I have to tell you this.
    Dr. Brennan. Sir, I believe we share a common goal in 
reducing these emissions, and the approach----
    Senator Kerry. No, I don't think we do share that, because 
you fought against Senator McCain's and my efforts to have 
increased CAFE standards a few years ago, the most we could get 
was 35 votes in the Congress. You weren't there, you didn't 
stand for it, the President didn't, you're not supportive of 
this.
    And I think it is the most serious dereliction of public 
responsibility that I've ever seen. Ever. When scientists are 
told, ``Don't tell the American people the truth,'' I mean, 
this is serious stuff. In all of the years I've been on this 
Committee, I've never seen something like this. Where an 
Administration is unwilling to pull people together and say, 
``How are we going to do this?''
    When I was a Lieutenant Governor back in the 1980s, I had 
the privilege of chairing the only Governor's task force in the 
country chaired by a Lieutenant Governor, and I met with John 
Sununu--then the Governor of New Hampshire, and with Dick 
Celeste, then-Governor of Ohio. And we patched together the 
sulfur plan for acid rain, which was then the great concern. 
And we are the ones who sort of created the whole emissions 
trading concept, which was originally put in for acid rain.
    In 1990, I remember, the very industry that is now standing 
up against it fought us tooth and nail. And they said, ``Don't 
do this to us, it's going to cost $8 billion, and you can't do 
it in the timeframe you're setting.'' The environmental 
community came in and said, ``It's not going to cost $8 
billion, it's going to cost $4 billion, and we can do it in 
half the time.'' And guess what? Thanks to John Sununu, EPA 
Administrator Bill Reilly, and President George Herbert Walker 
Bush, who was responsible about it, we passed it. We did it, 
and we did it in half the time that the environmental community 
predicted, and at half the cost. Because no one could predict 
what would happen when you started down that road of targets, 
goals, mandates, and technology that was tried to meet them. 
And there's a progressive gain in technology that we can't 
predict today.
    You folks are not leading this country to a place where we 
can embrace that, and go do that, with alternatives, 
efficiency, renewables. And, we still hear you fighting about 
Kyoto, which we're way beyond, at this point.
    I know we can pontificate up here, and that's all we get, 
sitting here as a Senator. And we can try and take something to 
the floor. But I've got to tell you, in my judgment in 22 years 
here, you're not doing your job. The Administration's not doing 
its job. This is a disgrace. You are turning your backs on 
future generations in this country. And, you are potentially 
inviting the possibility of global catastrophe, which will cost 
millions of lives, spread disease, destroy species, destroy 
land, you've got 100 million people living within 3 feet of sea 
level in buildings in Shanghai, in New York, in Boston, and 
other similar places, and you're just inviting this potential 
catastrophe.
    I think you ought to go out, and you can protest and sit 
there and say you're doing it. You're not doing it. And I 
invite you to go back and talk to your people back there, and 
take a look at what your public responsibility is.
    Is there anybody here who disagrees? Mr. Piltz?
    Mr. Piltz. I don't disagree. But I would say, Dr. Brennan's 
a Deputy Assistant Secretary of Commerce. I understand the 
White House Office of Science and Technology Policy declined an 
invitation to testify at this hearing, and they left Dr. 
Brennan hanging out here to get beat up.
    Senator Kerry. You're good to support him.
    Mr. Piltz. The problem is--the power----
    Senator Kerry. I understand, folks, this is the forum we 
have, but this is deadly, serious stuff. This is the most 
serious thing I see. This is, what, how many years now of 
hearings on this Committee, since 1987--almost 20 years. Almost 
20 years of hearings on this Committee, when we've been talking 
about this very science.
    We need a carbon cap, we've got to reduce carbon. We've got 
to get serious about putting incentives in our automobiles to 
be hybrids, and plug-ins and all kinds of things. We've got to 
move now to clean coal technology. There are 16 coal-fired 
plants that they're planning to build in Texas under TXU, 
without new source performance standards, they're going to put 
78 million tons of additional CO<INF>2</INF> into the 
atmosphere. China is building one coal-fired plant per week. 
That can't happen.
    And we better show the global leadership to prevent it from 
happening. And I don't care if people get tired of me ranting 
on this, I'm going to rant on this every day I can for the 
next--for the time I'm here. Because this is the most serious 
issue we have.
    Thank you, Mr. Chairman.
    Senator Nelson. Mr. Chairman. I would recommend, as a 
result of what we've heard today that we, you--our Chairman--
invite the testimony from OSTP that could not appear today. So 
that we can get more at the Administration's agenda with regard 
to this. Because, I think the things that Senator Kerry has 
said are scientifically obvious. And time is running out.
    The Chairman. I can assure you, that we will make another 
attempt to invite those witnesses.
    In the meantime, the record will be kept open for 2 weeks. 
So, if you have any changes you would like to make in your 
statement, or if you want to have addendums made, please feel 
free to do so.
    We will also have 2 weeks to submit questions, and we hope 
that you will be responding to them.
    I thank you very much, and the meeting is adjourned.
    (Whereupon, at 12:20 p.m., the hearing was adjourned.)
                            A P P E N D I X

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas
    Thank you Mr. Chairman. This is a very important topic and the 
necessity for a fair and open discussion of scientific investigations 
and their results extends beyond today's topic of climate change and 
affects many other areas of public policy. It is common practice in 
science to challenge and test new results and through this process of 
verification, acceptance, and rejection come to a consensus. We are 
fortunate in the United States, and throughout most of the world, to 
have a system of peer review whereby good science and bad science can 
be equally debated. Sometimes these scientific debates can take decades 
before there is agreement, especially in a new field such as climate 
change where a great deal of science still needs to be performed and 
much needs to be learned.
    What is not acceptable is for people and organizations to try to 
influence the scientific debate by exerting undo influence on 
scientists or distorting their results. Dr. Alfred Sommers, former Dean 
of the Johns Hopkins University School of Public Health summed up my 
feelings when he said:

        ``We have a uniquely non-politicized peer review scientific 
        establishment in this country. My concern is that 
        politicization is accretive in nature. If it goes on long 
        enough it becomes the norm, and even a new Administration eight 
        or 12 years from now will just accept it.'' \1\
---------------------------------------------------------------------------
    \1\ Johns Hopkins Magazine, Political Science, November 2004, Vol 
56, No. 5.

    There is a growing body of scientific evidence that significant 
global warming is occurring and that worldwide industrialization over 
the past century is a contributing factor. Last week the 
Intergovernmental Panel on Climate Change (IPCC) issued a report on the 
physical science basis for climate change. One of their conclusions is 
that most of the temperature change is very likely, meaning a 90 
percent certainty, due to increased levels of atmospheric greenhouse 
gases. What is less clear, and still needs to be investigated, is what 
will be the affect of climate change on the Earth. This very important 
debate can only take place if scientists are allowed to freely voice 
their concerns, conduct their research, and publish their results 
without fear of pressure or interference.
    Again, I thank the Chairman for holding this hearing and 1 look 
forward to hearing the testimonies of the witnesses.
                                 ______
                                 
   Prepared Statement of Peter H. Gleick, Ph.D., President, Pacific 
 Institute; MacArthur Fellow; Member, U.S. National Academy of Science
Threats to the Integrity of Science
    Senators, thank you for the opportunity to provide testimony today 
on the critical issue of the integrity of science. Good, independent 
science--indeed, good information in general--is crucial to making good 
political decisions. It is difficult enough to make intelligent policy 
choices given the complexities of today's political, environmental, 
economic, and social challenges. It is almost impossible when good 
science or data are ignored or distorted, or when bad science is sought 
out, to support pre-determined political conclusions. Yet never have 
the political abuses and misuses of science seemed as pervasive and 
intentional as they have over the past few years.
    The United States has a long and proud non-partisan tradition of 
scientific research, analysis, and support. As far back as the American 
Revolution, Benjamin Franklin embodied the ideal of integrating a 
passion for science and fact with diplomacy and politics. This 
tradition continued through more than two centuries of advances in both 
science and in the tools and avenues for moving scientific information 
into the policy arena. By the end of the 20th century, institutions 
like the White House Office of Science and Technology Policy (OSTP), 
the President's Science Advisor, the Office of Technology Assessment 
(OTA), the National Academies of Sciences and Engineering (NAS and 
NAE), national laboratories and universities, and even the media, were 
considered vital, independent sources of information, fact, and 
analysis needed across the political spectrum for making smart 
policies.
    For the last several years, there have been growing indications of 
systematic challenges and threats at the Federal level to the integrity 
of the scientific process using a variety of strategies and tactics. 
Independent government review organizations and advisory boards have 
been disbanded. Access to data and information has been reduced. 
Federal scientists have been muzzled. Scientific reputations, rather 
than scientific evidence itself, have been questioned. Scientific 
analyses and conclusions, prepared within Federal agencies or by people 
outside of government, have been changed for political and ideological 
reasons by people who have not done the scientific work. Work by 
partisan organizations has been substituted for work by non-partisan 
scientists.
    The Pacific Institute and its Integrity of Science program \1\ has 
been cataloging and evaluating threats in the areas of environmental 
problems, energy policy, human health, and national security. My 
testimony today will offer a framework (see Table 1, below) for better 
understanding and categorizing these threats. I also offer a few 
specific examples and cases that may offer some insights into how 
Congress might act to once again support the use of science in 
informing and setting policy.
---------------------------------------------------------------------------
    \1\ The Pacific Institute, founded in 1987, is an independent, non-
partisan policy research center. For details, see www.pacinst.org.
---------------------------------------------------------------------------
Scientific Misconduct and Altering Good Science
    Policymakers have the right to make decisions that consider, but 
then discount, good science. Science is, after all, only one factor 
among many that must be weighed in making policy. But they have no 
right to seek bad science to support predetermined conclusions, to 
misrepresent, misquote, misuse, or suppress science that contradicts 
those conclusions, or to penalize scientists who seek to inform and 
educate the public.
    Equally important, political operatives and appointees must not be 
permitted to alter scientific findings and edit scientific conclusions 
to support pre-determined outcomes, as has recently been reported in 
the fields of climate change, the health effects of pollution, and the 
need to protect threatened animals and plants under the Endangered 
Species Act.
Suppressing or Limiting Good Science
    Access to information is a cornerstone of good policy. Efforts by 
outside parties, or Federal agencies, to restrict or limit access to 
information are particularly damaging in a democratic society. These 
efforts take different forms. Access to good science can be limited 
through changes in funding to selectively collect, fail to collect, or 
reduce access to certain kinds of data. Recent changes in funding have 
reduced the ability of the United States to collect data on 
environmental issues, to analyze data that are collected, and to 
disseminate information to the public. For example, the decision to 
close Environmental Protection Agency libraries in major cities (such 
as Washington, Chicago, Dallas, and Kansas City) would cut the 
availability of scientific information, data, and reports available to 
the public. Funding cuts for satellite instrumentation to monitor the 
Earth's climate will hinder the development of intelligent climate 
policy.
Scientific Policy Misconduct
    Ensuring that science is made available to policymakers has long 
been a challenge. In recent years, however, certain actions have made 
it more difficult for independent, nonpartisan science to reach 
Congress and decisionmakers. The loss of the Office of Technology 
Assessment has crippled Congress's ability to analyze information, 
receive independent advice, and make thoughtful decisions on vital 
technological questions.
    The recent disbanding of a wide range of independent advisory 
committees, or efforts to pack them with ideological allies, weakens 
the policy process. For example, the Secretary of Health and Human 
Services (DIMS) disbanded the National Human Research Protections 
Advisory Committee and DHHS's Advisory Committee on Genetic Testing. 
Fifteen of the 18 members of the Advisory Committee to the Director of 
the National Center for Environmental Health (NCEH) were replaced, many 
with scientists with stronger ties to industries that may be regulated 
or in leadership positions of organizations opposed to public health 
and environmental regulation. \2\
---------------------------------------------------------------------------
    \2\ Michaels, D. et al. 2002. ``Advice Without Dissent. Editorial. 
Science, Volume 298, No. 5594, p. 703, October 25, 2002.
---------------------------------------------------------------------------
    The U.S. Department of Energy's principal outside advisory board on 
scientific and technical matters, in place for more than a quarter 
century, was recently disbanded. The independent committee set up by 
Congress to advise the government on the safety of the Nation's nuclear 
weapons stockpile has been eliminated. \3\ The Secretary of Health and 
Human Services disbanded advisory committees that provided oversight on 
genetic testing and the use of humans in research. A nominee to the 
Army Science Board was rejected by the current Administration because 
he was thought (incorrectly it turns out) to have contributed to the 
Presidential campaign of another Republican candidate for President. 
All of these actions have the effect of reducing the quantity and 
quality of independent scientific advice that reaches decisionmakers.
---------------------------------------------------------------------------
    \3\ J. Dawson, ``Disbanding NNSA Advisory Panel Raises Concerns, 
Physics Today, September 2003.
---------------------------------------------------------------------------
Arguments From Ideology
    There is, unfortunately, a long history of policy arguments made 
from ideological or religious perspectives that result in attempts to 
discredit contradictory scientific information. The classic example, of 
course, is the order that Galileo Galilei, the famous Italian 
physicist, astronomer, and philosopher, stand trial on suspicion of 
heresy in 1633. The charges stemmed from Galileo's research and 
writings that supported the idea that the Earth moved around the Sun, 
rather than the understanding of the time that the Earth was fixed in 
the heavens, derived from literal readings of the Bible. The idea that 
the Sun was stationary was condemned as ``formally heretical'' and 
Galileo was required to recant his ideas, subjected to house arrest for 
the remainder of his life, and had all his publications banned. As 
Galileo said: ``I do not feel obliged to believe that the same God who 
has endowed us with sense, reason, and intellect has intended us to 
forgo their use.''
    More recently, biology in the Soviet Union during the 1930s and 
later periods was crippled when control and direction of state research 
was given to T.D. Lysenko who rejected the science of genetics for 
ideological reasons. Between 1934 and 1940, under Lysenko's admonitions 
and with the approval of Stalin, many geneticists were executed or sent 
to labor camps.
    In the United States, ideological arguments that lead to the 
rejection of scientific information and conclusions, and contribute to 
public confusion and policy disarray, are still seen in disputes over 
evolution, climate change, sex education, and various health research 
efforts, such as stem cells. The inability to believe or accept 
something because of ideological or religious contradictions says 
nothing about the accuracy or truth of scientific findings.
Ad Hominem; Personal Attacks
    An unusual and disturbing trend can be seen in efforts to discredit 
scientists on personal grounds, rather than on challenges to science. 
Such personal attacks have no place in public discourse. In the world 
of political spin and hypocrisy, we've also seen pundits attempt to 
paint all scientists as ideologues who twist their science to fit 
preconceived political preferences. \4\ Scientists make errors; indeed 
some let ideology trump evidence. But these scientists cannot long 
escape the proper functioning of the scientific process. Fraud, abuse, 
and error are found out, revealed, and discredited.
---------------------------------------------------------------------------
    \4\ See, for example, P. Noonan, ``The Heat is On.'' Wall Street 
Journal, July 20, 2006.
---------------------------------------------------------------------------
    Scientists, including this witness, have been threatened with 
lawsuits for offering public opinions on controversial issues to 
reporters. \5\ But there is a difference between scientists who distort 
their work and produce bad science based on pre-conceived political 
positions, and scientists who are willing to share peer-reviewed 
results with the public and policymakers. The former are fortunately 
rare and almost always discovered and discredited by the normal 
scientific process; the latter are not common enough and they should be 
encouraged, not discouraged.
---------------------------------------------------------------------------
    \5\ See ``Science, Climate Change, and Censorship,'' The Pacific 
Institute, Patrick Michaels, and Climate Change. http://
www.pacinst.org/press_center/censorship/.
---------------------------------------------------------------------------
    Blanket attempts to discredit good science and scientists who 
attempt to inform the public and policymakers must be challenged. 
Similarly, officials who open ``investigations'' of scientists, who 
reach conclusions that differ from their own do a disservice to 
science, unless there is evidence of wrongdoing.
Misuse of Uncertainty and Arguments From Consensus
    Finally, there is a serious misunderstanding among some 
policymakers of the nature of scientific certainty and knowledge, and a 
corresponding misuse of uncertainty. Absolute certainty in science, or 
even in politics, is a rare luxury, and never guaranteed. Insisting 
that scientists provide certainty before setting vital public policy is 
a recipe for inaction and delay. As Dr. Stephen Jay Gould said, ``In 
science, `fact' can only mean `confirmed to such a degree that it would 
be perverse to withhold provisional assent.' I suppose that apples 
might start to rise tomorrow, but the possibility does not merit equal 
time in physics classrooms. Yet political strategists often publicly 
recommend using uncertainty to delay actions long past the time when 
scientists believe we know enough to act. \6\ The issue of climate 
change is an example of this, where the misuse of uncertainty has 
delayed national action long past the time when effective policies were 
needed.
---------------------------------------------------------------------------
    \6\ See, for example, the call to make scientific uncertainty a key 
part of the climate debate by Luntz Research Companies. 2002. ``The 
Environment: A Cleaner, Healthier, and Safer America.'' Memorandum for 
GOP Congressional Candidates. p.137. http://www.ewg.org/briefings/
luntzmemo/pdf/LuntzResearch_--environment.pdf. See also the statement 
by the Tobacco Institute of Hong Kong, ``The view that smoking causes 
specific diseases remains an opinion or a judgment, and not an 
established scientific fact. Tobacco Institute of Hong Kong Limited, 
1989, March.
---------------------------------------------------------------------------
    Similarly, there is confusion all along the political spectrum on 
the issue of ``consensus'' in science. A ``consensus'' among scientists 
does not make an issue true or false. It is a reflection of the best 
scientific understanding at the time. For example, an argument is often 
made in the context of global climate change that very large numbers of 
climate scientists believe in climate change; therefore it must be a 
serious problem. This is backward: climate change is a serious problem 
because of the mass of scientific evidence that underlies those 
beliefs, and it is that evidence that produces the consensus of 
opinion. The strength of the argument comes from the science itself, 
not the consensus.
Summary
    In the long run, the truth of whether the Earth is round (mostly), 
goes around the sun (so the best evidence shows), or is warming due to 
industrial activity (considered ``very likely'' i.e., more than 90 
percent certainty) will be demonstrated on the global stage. Our job as 
scientists is to seek the best understanding of the world around us and 
to communicate that understanding to the public. Your job as elected 
officials is to encourage scientists to give you their best 
understanding, fund new science if there are gaps vital for the public 
interest, to weigh scientific information, and then to make decisions. 
Short-term political or economic advantage must be trumped by our 
collective responsibilities to protect public health, the environment, 
and our national security and to ensure that our decisions are informed 
by the best available information.
Specific Recommendations
    Congress can act to help restore confidence in the integrity of 
science and to reduce threats to science and scientists working to 
advise policymakers and the public:

  <bullet> Reinstate independent advisory committees to Congress and to 
        Federal agencies.

  <bullet> Require that no political litmus tests be imposed on 
        advisory committee appointees.

  <bullet> Guarantee open public access to government studies, data, 
        and scientific fmdings.

  <bullet> Require transparency of information on conflicts of 
        interest.

  <bullet> Prohibit Federal agencies and employees from modifying, 
        censoring, or altering scientific findings.

  <bullet> Re-establish and adequately fund an independent advisory 
        organization to Congress on technology and science issues.

    Thank you for the opportunity to present this testimony to you, and 
for entering it in the record.

 Table 1--Categories of Deceitful Tactics and Abuse of the Scientific 
         Process (source: P.H. Gleick, Pacific Institute, 2007)
    There are many tactics used to argue for or against scientific 
conclusions that are inappropriate, involve deceit, or directly abuse 
the scientific process.
Appeal to Emotion
    This is a large category and involves using various tactics to 
incite emotions in people in order to persuade them that a particular 
argument or hypothesis is true or false, independent of the scientific 
evidence:

        Appeal to Fear
        Appeal to Flattery
        Appeal to Pity
        Appeal to Ridicule
        Appeal to Spite

Personal (``Ad Hominem'') Attacks
    This approach uses attacks against the character, circumstances, or 
motives of a person in order to discredit their argument or claim, 
independent of the scientific evidence.

        Demonization
        Guilt by Association
        Challenge to Motive (such as greed or funding)

Mischaracterizations of an Argument
    This approach typically mischaracterizes an issue or evidence and 
then argues against the mischaracterization. It can include:

        Begging the Question

        Circular Reasoning

        Partial Truths

        Selective Choice of Problems

        Straw Man Argument (includes substituting a distorted, 
        exaggerated, or misrepresented position for the one being 
        argued)

        Loaded Question (includes posing a question with an implied 
        position that the opponent does not have)

        False Dichotomy (for or against)/False dilemma (includes 
        assuming that there are only two possible opinions or choices)

        Misplaced Burden of Proof

        Confusing Cause and Effect

        Red Herring (includes presentation of an irrelevant topic to 
        divert attention from another topic)

        Slippery Slope (includes the assertion that one event must 
        inevitably follow from another)

Inappropriate Generalization
    Accusing all of a group of people or arguments or set of facts as 
having the characteristics of a subset of that group.

Misuse of Facts

        Numerical Mischaracterization
        Selective Choice or Presentation of Data; Biased Sample
        Inadequate Sample; Hasty Generalization; Leaping to a 
        Conclusion
        Selective Omissions of Data
        Illusory Precision (where precision isn't needed or available)
        Inappropriate Vagueness (where precision is needed)
        Unrelated Facts (bringing unrelated facts that seem to support 
        a conclusion)

Misuse of Uncertainty

        Misplaced Certainty
        Misrepresentation of Uncertainty

False Authority
    Including appeal to authority not competent to address issue:

Hidden Value Judgments
    Including judgments based on ideological or religious rationales 
rather than reviewable and testable evidence.
Scientific Misconduct
    The violation of the standard codes of scholarly conduct and 
ethical behavior in professional scientific research, including:

        Fabrication (the fabrication of research data and observations)

        Falsification (manipulation of research data and processes or 
        omitting critical data or results)

        Failure to Acknowledge and Correct Errors

Science Policy Misconduct
    The manipulation of the process of integrating science and policy, 
including:

           Packing Advisory Boards
           Imposing Litmus Tests
           Altering or Suppressing Information
           Bullying of Scientists
           Selective Funding or De-funding
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Dr. William Brennan
    Question 1. Last year there was an article in Nature questioning 
whether NOAA was accurately presenting the conclusions of its 
researchers regarding the possibility that global warming could be 
affecting the severity and frequency of hurricanes. The article states 
that in May 2006 an internal panel, chaired by Dr. Leetma of NOAA, 
prepared a statement on the current stats of the science and that the 
statement did not contain any policy recommendations. Why did NOAA 
management request that the statement be made ``less technical? ''
    Answer. The two-page Frequently Asked Questions (FAQ) document on 
Atlantic Hurricanes and Climate was a summary of existing scientific 
research containing no new science, but rather detailing the current 
state of science on hurricane activity and climate. The first draft 
used technical phrases which may not have been readily understood by a 
wide variety of audiences. The changes recommended did not change the 
scientific findings, but rather were intended to provide clarity and 
additional context to make the document more accessible to lay 
audiences.

    Question 2. What is the status of the statement?
    Answer. The FAQ document is updated as new and relevant information 
becomes available, and was last updated on December 12, 2006.

    Question 3. Was it ever publicly released?
    Answer. Yes. The two-page FAQ document on Atlantic Hurricanes and 
Climate was publicly released on September 27, 2006, and was last 
updated on December 12, 2006. The FAQ document is available at http://
hurricanes.noaa.gov/pdf/hurricanes-and-climate-change-09-2006.pdf.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Richard A. Anthes, Ph.D.
    Question 1. The Climate Change Science Program budget shows a 
steady decline in funding from approximately $2B in FY 2004 to $1.5B 
proposed for FY 2008. NASA's Space Based Observation Program has been 
particularly hard hit, going from $1.01B in FY 2004 to a projected 
$576M in FY 2007. How has this substantial decrease in the CCSP budget 
affected funding decisions with the agencies?
    Answer. The CCSP wrote a Strategic Plan in July 2003. The NRC's 
2004 review of the Plan said that the program would require significant 
new funds to fulfill its mandate. But, the funding profile has gone in 
the opposite direction. In this era of declining funds, agencies have 
tried to cobble together the resources to simply maintain core, 
activities, but have not been able to take on many new activities that 
this Nation dearly needs.
    For example, the Strategic Plan said that we would improve 
understanding of the economics of climate change, which now is the 
issue of the time regarding climate change. We have only the vaguest 
understanding of the costs and benefits of climate change and 
mitigation and adaptation options. The CCSP should be able to address 
these and other areas that relate to trillion dollar decisions, but it 
does not have the resources to do this. As another example, the 
Strategic Plan said that the U.S. was going to do a much better job of 
providing information to inform decisions at a variety of scales and 
for a variety of sectors. The CCSP has not had the funds to do that. A 
final example I will give is the demanifestation of climate sensors/
capabilities associated with NPOESS, which has seriously jeopardized 
the ability to measure long-term trends. This was a major concern 
addressed in our Decoded Survey report.
    Overall I am deeply concerned about the health of the Nation's 
climate program. We are hearing that ``the science is settled--now is 
the time for action.'' While I agree with the latter part of this 
statement, the former can be grossly misleading. The Nation needs the 
science now more than ever. The world is committed to climate change, 
which will affect many things that we require or hold dear, e.g., 
water, ecosystem services, etc. This speaks to the essential need to 
adapt to climate change. But, our ability to adapt wisely is 
significantly limited by the state of the science. For example, we 
simply don't know whether precipitation will increase or decrease over 
most of the United States--an absolutely fundamental gap in our 
understanding related to adaptation. The CCSP does not have the funds 
to address these and other areas that relate directly to trillion 
dollar decisions. In brief it is imperative that ``action'' must 
involve a strengthened observation, research, decision support, and 
communication enterprise--the four pillars of the CCSP.

    Question 2. Who is making the decisions regarding which sensors are 
in the national interest and will be kept on NPOESS?
    Answer. I assume the ultimate decision will be by the Administrator 
of NOAA, in consultation with DOD (which shares NPOESS costs with 
NOAA), and with ultimate approval by Congress.

    Question 3. Last week you were in Washington, D.C. to brief 
policymakers on the National Research Council report. The report 
recommends a path forward that restores U.S. leadership in Earth 
Science and Applications and calls for NASA and NOAA to undertake a 
series of 17 specific missions over the next decade. What has been the 
response from NASA, NOAA and OSTP to the report and its 
recommendations?
    Answer. There has been no formal reaction as yet, although the 
agencies have formally acknowledged receipt of the report and thanked 
the NRC for its work. There have been many informal contacts and 
conversations with certain NASA, NOAA, and OSTP officials that have 
been positive and hopeful. The response from the Congress, the science 
community and the media has been generally very positive. Dr. Mike 
Freilich, the director of NASA's Earth Science Division has publicly 
praised the report, and we understand front his recent Senate testimony 
that he is looking to prepare a roadmap guided by the report 
recommendations, and based on more detailed studies of the mission 
concepts at NASA field centers. What Dr. Freilich cannot do, however, 
is change the budgetary reality.
    The Administrator of NASA, Dr. Mike Griffin, has made remarks that 
suggest he does not support the recommendations of the report. In his 
recent testimony regarding the NASA budget Dr. Griffin, has made it 
clear that his priorities remain centered around human exploration. 
Ills assessment of the Earth science program as ``in good shape'' 
suggests that he will attempt to implement only that portion of the 
report recommendations which can be accomplished within existing and 
currently planned Earth science funding levels. The President's FY 2008 
request for the NASA budget shows a continuing decline of the Earth 
Science budget after a small increase in FY 2008. According to decadal 
survey cost estimates, this approach would likely only result in 
implementing a very small fraction of the recommended missions (perhaps 
3-4 of the 15 missions recommended for NASA).
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ted Stevens to 
                        Richard A. Anthes, Ph.D.
    Question. I understand that the recent Intergovernmental Panel on 
Climate Change report concludes that much of the warming over the past 
50 years is caused by humans. I am concerned about human-caused 
factors. However, I am also interested in the effects of natural causes 
such as solar flares and the impact of the Pacific and Atlantic decadal 
oscillations. Do you feel enough has been done to examine the impacts 
of natural factors on climate change?
    Answer. Thank you Senator Stevens for your excellent question.
    The short answer is that while increased effort on understanding 
both natural and anthropogenic climate change and variability, 
especially on regional and local scales where they matter most to 
people is needed, we know enough already to conclude that the human 
effects on climate change are now outweighing natural (non-human) 
effects.
    The IPCC has concluded that most of the observed global temperature 
increase in the past 50 years is ``very likely'' due to human activity. 
This conclusion is based on studies that assess the causes of climate 
change, first considering all the possible agents of climate change 
(forcings), both natural and from human activities. The capability of 
climate models to simulate the past climate is also assessed, given 
both the observations and estimates of past forcings, and the climate 
changes. Given good replications of the past, the forcings can be 
inserted one by one to study their individual effects and allow 
attribution of the observed climate change to the different forcings.
    The best climate models have been extensively tested and evaluated 
using observations. They are exceedingly useful instruments for 
carrying out numerical climate experiments, but they are not perfect, 
and some models are better than others. Uncertainties arise from 
shortcomings in our understanding of climate processes operating in the 
atmosphere, ocean, land and cryosphere, and how to best represent those 
processes in models. Yet, in spite of these uncertainties, today's best 
climate models are now able to reproduce the climate of the past 
century, and simulations of the evolution of global surface temperature 
over the past millennium are consistent with paleoclimate 
reconstructions.
    As a result, climate modelers are able to test the role of various 
forcings in producing observed changes in climate. Forcings imposed on 
the climate system are both natural in origin, such as changes in solar 
luminosity or volcanic eruptions, or human-induced, such as increases 
in aerosol and greenhouse gas concentrations in the atmosphere. Climate 
model simulations that account for such changes have now reliably shown 
that global surface warming of recent decades is a response to the 
increased concentrations of greenhouse gases and sulfate aerosols in 
the atmosphere. When the models are run without these forcing changes, 
the remaining natural forcings and intrinsic natural variability fail 
to capture the increase in global surface temperatures. But when the 
anthropogenic forcings are included, the models simulate the observed 
global temperature record with impressive accuracy.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                               Rick Piltz
    Question 1. Last year, in response to a letter from Senator McCain, 
the National Science Board recommended that all Federal agencies that 
conduct research establish clear policies and procedures for presenting 
their data. Both NASA and NOAA have taken steps to revise and clarify 
their respective media policy.
    Should Congress establish a consistent Federal policy regarding the 
dissemination of research by Federal employees? What should be the 
criteria for such policy? And is there a good model that can be used 
across the Federal Government?
    Answer. I am most familiar with the problems related to 
communication of climate and global change research, though I believe 
my response is of more general applicability.
    Several scientific information pathways should be considered in 
establishing policy on the dissemination of research conducted by 
Federal employees. They include media communications, Congressional 
communications (hearing testimony and reports), public communications 
(presentations, lectures, websites, brochures, etc.), professional 
communications (i.e., primarily scientific publications, but also 
conferences), and major scientific assessment reports. These pathways 
have key elements in common but are not identical in the issues they 
raise for policymaking.
    Federal policy regarding the dissemination of research by Federal 
employees must include certain consistent, government-wide safeguards. 
However, given the diversity of participating research agencies, a one-
size-fits-all policy may not be the best approach for addressing the 
full range of pathways of science communication. In addition, 
functional and organizational differences within a particular agency 
may warrant somewhat different requirements.
    In general, any government-wide policy should specify what category 
or categories of communication it is addressing, specify the purpose of 
the policy (i.e., to promote the communication of research), 
acknowledge the broad statutory and constitutional rights held by 
Federal scientists (and other Federal employees), address the 
employees' obligations, lay out a grievance and reporting system, and 
define a baseline of protections. Detailed implementation of any 
government-wide policy should then be developed as appropriate by 
individual agencies.
Recommendations for Executive Branch Agencies on Ensuring the Integrity 
        of the Dissemination of Climate Change Research \1\
---------------------------------------------------------------------------
    \1\ These recommendations for Executive Branch agencies follow 
closely those made by the Government Accountability Project, as 
contained in GAP's report, Redacting the Science of Climate Change: An 
Investigative and Synthesis Report (March 2007), by Tarek Maasarani.
---------------------------------------------------------------------------
    1. Eliminate pre-approval, routing, intake, anticipated Q&A, and 
monitoring requirements for agency media, and, where applicable, 
Climate Change Science Program (CCSP) communications.
    The ultimate decision about the content of and parties to any 
particular media communication should rest with the reporter and the 
scientist he or she requests. Public Affairs Offices (PAO) should take 
an active role in coordinating and facilitating media interactions, 
especially connecting journalists with the appropriate scientists and 
supplying corrections and background information. It may be reasonable 
to require notification of the PAO and a post-interview recap, as many 
local PAOs have done to the scientists' and reporters' satisfaction.
    2. Reaffirm the ``personal views'' exception for all media, 
Congressional, public, and professional communications.
    Scientists must be apprised of their constitutional right to speak 
about any subject, including policy-related matters and those outside 
their area of expertise, so long as:

  <bullet> Scientists make it clear that they do so in their private 
        capacity, not as a representative of their agency. Identifying 
        the scientist with his or her agency, position, and area of 
        expertise is permissible so long as the communication includes 
        the ``private capacity'' disclaimer; and

  <bullet> Scientists' personal communications do not unreasonably take 
        from agency time and resources. Personal use of telephone or e-
        mail should be allowed during employees' ``paid free time.'' 
        Longer interviews may need to be conducted during authorized 
        breaks or after work. Insofar as the agency facility is usually 
        open to the public, reporters should be able to interview with 
        scientists on the premises.

    3. Comply with the mandatory requirements of the Anti-Gag Statute 
to notify employees of their whistleblower and related rights by 
incorporating the statutorily-prescribed addendum into the text of any 
restrictive communication policy or directive.
    4. Comply with the Whistleblower Protection Act (WPA) by including 
the necessary exceptions.
    The Whistleblower Protection Act protects any unclassified 
disclosures, or those not specifically prohibited by statute, that a 
Federal employee reasonably believes is evidence of illegality, gross 
waste, gross mismanagement, abuse of power, or substantial and specific 
danger to public health or safety. Communication policies should 
include this exception to any restrictions it imposes.
    5. Eliminate communications restrictions based on the ``Sensitive 
but Unclassified'' (SBU) classification.
    The unsettled legal definition of SBU can cover virtually any form 
of communication and thereby implicates constitutional and statutory 
free speech concerns. Correspondingly, regulations governing the 
definition of ``Sensitive but Unclassified'' and related categories 
must be tightened so that employees know what type of information is 
properly marked SBU.
    6. Guarantee the timely and proactive release of press releases.
    Any scientist, whether they are lead or co-author of a published 
report, study, or article, should be given the necessary approval and 
assistance to issue a press release within a reasonable time and 
concurrent with the publication date--even if a release has already 
been or will be issued by another institution.
    7. Leave content editing to the scientists for scientific 
publications, Congressional written testimony and reports, web postings 
and presentation material, and press releases.
    Although non-scientists and agency management may be actively 
involved in copy-editing and proof-reading, they should not have the 
authority to alter the substance of written scientific information 
without the scientists' expressed approval. The qualified scientists 
actively involved in the research or synthesis of research alone should 
be responsible for its content. Co-authors, peer review, ethics, and 
personal reputation are the proper check.
    8. Reaffirm a scientist's ``right of last review'' for all media, 
Congressional, public, and professional communications.
    Federal employees should have the right to approve the scientific 
content in the final version of any proposed Federal publication that 
significantly relies on their research, identifies them as a lead 
author or contributor, or purports to represent their scientific 
opinion. This includes, but is not limited to, reports, web postings, 
and press releases. In the case of multi-author publications, co-
authors should have a meaningful right of review and comment. Where an 
agency adopts an agency-wide position on a scientific issue, scientists 
should be allowed to register their disagreement publicly and without 
consequence. Finally, Federal employees should be permitted reasonable 
access to all drafts and edits of their publications produced 
throughout the review process.
    9. Solicit the input of scientists and other stakeholders in the 
development of the content of substantial Congressional and public 
reports and the procedures that govern their production.
    10. Continue to ensure that Federal employees are not restricted 
either from publishing their research in peer-reviewed journals and 
other scientific publications or from making oral presentations about 
their research at professional conferences or other meetings of their 
peers.
    11. Establish effective transparency and accountability procedures.
    In order to make the above two recommendations meaningful:

  <bullet> The editing and review process must clearly identify all 
        participants and text changes in each stage of review. 
        Participants must be able to address any concerns or questions 
        about changes with the party that made them;

  <bullet> An internal disclosure system must be established to allow 
        for the confidential reporting and meaningful resolution of 
        inappropriate alterations, conduct, or conflicts of interest in 
        the review process in particular; and

  <bullet> More generally, the government and its agencies must afford 
        Federal scientists adequate whistleblower safeguards, including 
        protections from retaliation, the impartial investigation and 
        fair resolution of complaints, due process rights, 
        confidentiality of disclosures, and adequate corrective relief.

    12. Adequately inform and clarify scientists' rights and 
responsibilities.
    Every public affairs office should evaluate its existing policies 
and develop (or reaffirm) a set of simple and unambiguous policies in 
light of these recommendations and with the input of their own 
scientists. These policies should clearly incorporate the scientists' 
rights, as well as responsibilities, and be broadly disseminated to 
both scientists and management through annual reports, Internet sites, 
employment contracts, workplace posters, employee handbooks, and 
special trainings. Although agency- or department-wide policies may 
articulate an overarching set of principles and basic rights and 
responsibilities, it is suggested that implementation guidelines should 
be afforded some measure of adaptability to the particular needs of 
agency subdivisions. In any case, communications policies should be 
uniformly applied and readily available to all employees and the 
general public.
    13. Investigate and correct the inappropriate policies, practices, 
and incidents identified in the Government Accountability Project 
report, Redacting the Science of Climate Change, and identified in 
other sources.
    Determine whether and why the reported problems have occurred. 
Where confirmed to be true, provide:

  <bullet> Adequate relief, including, but not limited to, 
        reinstatement, public, and/or private acknowledgement to those 
        who may have been harmed;

  <bullet> Adequate discipline of those found responsible, including 
        but not limited to firing or demoting them to a position of 
        less authority; and

  <bullet> Necessary reform to correct the institutional conditions, 
        policies, and activities that prompted the problem.

    14. Encourage the media to recognize and place primary emphasis on 
reporting credible peer-reviewed information from the scientific 
community.
    15. Improve public affair's affirmative role of translating science 
for public consumption.
    This includes:

  <bullet> Mandating PAOs to aggressively pursue the dissemination and 
        accessibility of their scientists' work to the public, media, 
        and Congress;

  <bullet> Regularly training scientists on effective communication 
        techniques; and

  <bullet> Hiring more local public affairs officers to work directly 
        with the scientists.

    16. Develop a transparent communications policy for the Climate 
Change Science Program that meets the recommendations for media policy 
reform set out above and that streamlines the approval process for CCSP 
products and communications.
    17. End the suppression of meaningful and appropriate references to 
and use of the National Assessment of the Potential Consequences of 
Climate Variability and Change in the communication of climate change 
research and assessment, including in CCSP reports to Congress, 
research and assessment planning documents, and websites.
    18. Ensure CCSP compliance with the Global Change Research Act by 
producing in the statutorily required timely and regular manner an 
integrated, scientifically-based assessment of climate and global 
change, including an analysis of current and projected trends, and with 
a focus on the impacts of climate and global change on society and the 
environment.
Recommendations for Action by Congress
    1. Consider enacting legislation to ensure the integrity of the 
dissemination of research as outlined in the above recommendations.
    2. Enact legislation to protect Federal free speech and 
whistleblower rights, with particular reference to employees of Federal 
science agencies.
    3. Strengthen essential Congressional oversight functions on issues 
of scientific integrity.
Four Legal Cornerstones for Freedom of Speech in the Context of 
        Scientific Freedom
    A comprehensive approach to policymaking must include certain 
consistent, government-wide criteria for ensuring the integrity of the 
process for disseminating federally-funded scientific research. The 
Government Accountability Project calls attention to consensus, expert 
criteria that have existed since the issuance of the 1995 report of the 
Congressionally-charted HHS Commission on Research Integrity.
    To summarize, those criteria require application of and compliance 
with four cornerstones for freedom of speech in the context of 
scientific freedom:

        1. The First Amendment, with respect to the right of government 
        scientists to express their personal views on their own time, 
        without prior restraint or restriction of their anonymity, 
        about matters of public concern;

        2. The Lloyd-Lafollette Act of 1912, 5 USC 7211, which requires 
        an unqualified, safe channel for government employees to 
        communicate with Congress;

        3. The Whistleblower Protection Act, 5 USC 2302(b)(8), the 
        statutory application of constitutional free speech rights; and

        4. the Anti-Gag Statute, \2\ unanimously passed by Congress as 
        part of every appropriations law since FY 1988, which bans 
        spending to implement or enforce any nondisclosure policy, form 
        or agreement unless it contains a Congressionally-drafted 
        addendum that specifies the Whistleblower Protection Act and 
        the Lloyd-Lafollette Act (protecting communications with 
        Congress) prevail and supersede any conflicting language from 
        the agency-based restriction.
---------------------------------------------------------------------------
    \2\ The current version can be found in Sec. 820 of the 
Transportation, Treasury, Housing and Urban Development, the Judiciary, 
and Independent Agencies Appropriations Act of 2006, which became Pub. 
L. 109-115 on November 30, 2005, and is extended through the current 
continuing resolution. SEC. 820. No funds appropriated in this or any 
other Act may be used to implement or enforce the agreements in 
Standard Forms 312 and 4414 of the Government or any other 
nondisclosure policy, form, or agreement if such policy, form, or 
agreement does not contain the following provisions: ``These 
restrictions are consistent with and do not supersede, conflict with, 
or otherwise alter the employee obligations, rights, or liabilities 
created by Executive Order No. 12958; section 7211 of title 5, United 
States Code (governing disclosures to Congress); section 1034 of title 
10, United States Code, as amended by the Military Whistleblower 
Protection Act (governing disclosure to Congress by members of the 
military); section 2302(b)(8) of title 5, United States Code, as 
amended by the Whistleblower Protection Act (governing disclosures of 
illegality, waste, fraud, abuse or public health or safety threats); 
the Intelligence Identities Protection Act of 1982 (50 U.S.C. 421 et 
seq.) (governing disclosures that could expose confidential government 
agents); and the statutes which protect against disclosure that may 
compromise the national security, including sections 641, 793, 794, 
798, and 952 of title 18, United States Code, and section 4(b) of the 
Subversive Activities Act of 1950 (50 U.S.C. 783(b)). The definitions, 
requirements, obligations, rights, sanctions, and liabilities created 
by said Executive Order and listed statutes are incorporated into this 
agreement and are controlling.'': Provided, That notwithstanding the 
preceding paragraph, a nondisclosure policy form or agreement that is 
to be executed by a person connected with the conduct of an 
intelligence or intelligence-related activity, other than an employee 
or officer of the U.S. Government, may contain provisions appropriate 
to the particular activity for which such document is to be used. Such 
form or agreement shall, at a minimum, require that the person will not 
disclose any classified information received in the course of such 
activity unless specifically authorized to do so by the U.S. 
Government. Such nondisclosure forms shall also make it clear that they 
do not bar disclosures to Congress or to an authorized official of an 
executive agency or the Department of Justice that are essential to 
reporting a substantial violation of law.

    The proper model is found in H.R. 985, which recently passed the 
House by a 331-94 vote. It provides a remedy for the Anti-Gag Statute, 
and in Section 13 reinforces the WPA with a scientific freedom 
amendment that makes the following actions legally-recognized ``abuse 
---------------------------------------------------------------------------
of authority'' and protects any government scientist from challenging:

        ``As used in section 2302(b)(8), the term `abuse of authority' 
        includes--

           (1) any action that compromises the validity or accuracy of 
        federally funded research or analysis;

           (2) the dissemination of false or misleading scientific, 
        medical, or technical information;

           (3) any action that restricts or prevents an employee or any 
        person performing federally funded research or analysis from 
        publishing in peer-reviewed journals or other scientific 
        publications or making oral presentations at professional 
        society meetings or other meetings of their peers.''

    A further improvement could be to make those same actions illegal, 
so that a government scientist also could ``walk the talk'' and be 
legally-shielded from retaliation for refusing to obey orders 
implementing the above practices.
The Government Accountability Project's Model Media Policy
Section 1: Purpose
    .01  This Order establishes this agency's media policy governing 
media communications including advisories, press releases, statements, 
interviews, news conferences, and other related media contacts. Public 
affairs offices have been established to facilitate the active 
dissemination of agency research results and to coordinate media and 
public relations activities. A principal goal of public affairs is to 
help the agency or program achieve its vision of a better informed 
society and of policymaking based on sound and objective science.
Section 2: Rights
    .01  Scientists and other employees of the government have the 
fundamental right to express their personal views, provided they 
specify that they are not speaking on behalf of, or as a representative 
of, the agency, but rather in their private capacity. So long as this 
disclaimer is made, the employee is permitted to mention his or her 
institutional affiliation and position if this has helped inform his or 
her views on the matter. The employee is allowed to make reasonable use 
of agency time and resources for the purposes of expressing their 
personal views, i.e., accommodations comparable to what would be 
allowed on other personal matters.
    .02  Employees have the right of final review to approve and 
comment publicly upon the text of any proposed publication that 
significantly relies on or interprets their scientific research, 
identifies them as a lead author or contributor, or purports to 
represent their scientific opinion. In the case of multi-author 
publications, procedures should be set up to allow co-authors to have a 
meaningful right of review and comment.
    .03  Final authority over the content of and parties to any 
particular media communication rests with the reporter and the 
scientist he or she requests.
Section 3: Responsibilities
    .01  Public affairs is responsible for:

        a. promoting media attention on important scientific and 
        institutional developments,

        b. coordinating journalists and the sources of information they 
        are looking for, and

        c. providing both reporters and scientists with timely, 
        accurate, and professional media assistance.

    .02  Employees are responsible for working with public affairs to 
make significant research developments accessible and comprehensible to 
the public.
    .03  Employees are responsible for the accuracy and integrity of 
their communications and should not represent the agency on issues of 
politics or policy without prior approval from the PAO. Employees are 
not free to disclose classified information unless authorized by the 
U.S. Government or Federal statute.
Section 4: Guidelines for Media and Public Interactions
    .01  To help public affairs best fulfill its responsibilities, 
employees are asked to:

        a. keep the PAO informed of any media interest or potential for 
        interest in your work, subject to the protections of the 
        Whistleblower Protection Act.

        b. notify the PAO of any impending media contacts and provide a 
        recap afterwards.

        c. request press releases from the PAO and submit drafts for 
        review of their form and non-scientific content.

        d. work with the PAO to review presentations or news 
        conferences for their form and non-scientific content.

    .02  Public affairs officers should

        a. respond to all media inquiries within 120 minutes during the 
        workday.

        b. do all they can to help reporters get the appropriate 
        information know the reporter's deadline to ensure timely 
        response.

        c. provide contact information where they will be available, 
        even after hours, on weekends, and on holidays.

        d. draft regional and national press releases whenever 
        warranted.

        e. ensure a timely turn-around on press releases over no more 
        than 1 week.

        f. develop or coordinate the development of talking points in 
        collaboration with the relevant experts for the release of 
        scientific papers and other agency products.
Section 5: Media Coverage
    .01  In the spirit of openness, media representatives must be 
granted free access to open meetings of advisory committees and other 
meetings convened by this agency, as well as permission to reasonably 
use tape recorders, cameras, and electronic equipment for broadcast 
purposes.
    .02  The PAO sponsoring or co-sponsoring a meeting may be present, 
or consulted, to undertake all responsibilities of a news media nature, 
including but not restricted to necessary physical arrangements.
    .03  It shall be the responsibility of the servicing PAO to 
cooperate fully with and accede to all reasonable requests from news 
media representatives. In instances where conflicts or 
misunderstandings may arise from the expressed views, wishes, or 
demands on the part of news media representatives, such matters should 
be referred at once to the Director for resolution.
    .04  The PAO Director shall exercise full authority and assume 
responsibility for all decisions involving the news media and related 
activity.
Section 6: Internal Reporting
    .01  The agency will offer an internal disclosure system to allow 
for the confidential reporting and meaningful resolution of 
inappropriate alterations, conduct, or conflicts of interest that arise 
with regards to media communications.
Anti-Gag Addendum and Relevant Statutory Rights
    [As explained in the previous section, ``Four cornerstones for 
freedom of speech in the context of scientific freedom.'']

    Question 2. The Global Change Research Act of 1990 requires the 
Administration to prepare a National Assessment of the Potential 
Consequences of Climate Variability and Change ``no less frequently 
than every 4 years.'' The only National Assessment produced was by the 
Clinton Administration. In 2005, the GAO concluded that the Bush 
Administration's plan to publish individual Synthesis and Assessment 
Reports did not meet the statutory mandate of the Act. In fact only one 
of the proposed twenty-one reports has been released. In your testimony 
you discuss the assessment's ability to provide response strategy 
options.
    What were some of these options as listed in the last Assessment? 
Did the Assessment also include mitigation factors as well?
    Answer. Due to the limited time and resources for many of the 
studies during the first cycle of National Assessment reports, response 
strategy options were often only touched upon without substantial 
development. However, there were a few well-funded studies that lasted 
long enough to start to get at these questions. I expect there would 
have been substantially more development of response strategy issues 
had the first reporting cycle--which produced the National Assessment 
Synthesis Team Overview and Foundation documents as well as a set of 
regional and sectoral reports--continued into an extended and ongoing 
assessment process as originally intended.
    Thus, for example, in the Mid-Atlantic region (funded by EPA), a 
study was started along the southern New Jersey coast, working with 
stakeholders to consider how best to respond in the face of rising sea 
level (what areas to protect and how, what areas to agree could not be 
protected and would be transformed, etc.). EPA also funded a study for 
a few years along the Gulf Coast (Houston, the Louisiana delta region, 
and an area in the panhandle region of Florida), with the intention of 
working with stakeholders to analyze what could be done. But with the 
new Administration's completely non-supportive view of the National 
Assessment process, the study was modified to focus in a more limited 
way on the question of what information decisionmakers would need in 
order to address the issues. The impacts of climate variability and 
change on coastal ecosystems and communities is one key area in need of 
expert-stakeholder interaction to assess adaptation strategies.
    Another general area is water resources. There have been studies 
about how water management should be adjusted in the face of El Nino/La 
Nina variations. It is my understanding that California, for which one 
of the National Assessment regional reports was developed, later 
launched a significant program for assessing the implications of 
climate change for water resources. Other regions should also be 
supported in developing this type of assessment activity.
    The early impact studies have led the Department of Transportation 
to undertake efforts to investigate adjustments it needs to make. DOT 
has one study in the Louisiana delta region, and my understanding is 
that their workshops and other activities have identified a range of 
transportation infrastructure adaptation issues.
    The first National Assessment report identified a wide range of 
potential consequences of climate change and, by implication, a wide 
range of potential adaptation response strategy issues facing 
policymakers and resource managers, region-by-region and sector-by-
sector. In order to advance this work, the National Assessment process 
needs to be revitalized, with Federal support for a distributed process 
of expert assessment coupled with engagement with policymakers and 
other stakeholders.
    The National Assessment process initiated in the late 1990s focused 
on projected change and impacts, pursuant to the requirements specified 
in the Global Change Research Act. The project did not address the 
complex issues of mitigation strategies to reduce greenhouse gas 
emissions and thereby slow the rate of global warming. It did not focus 
on policy options for developing and deploying sustainable energy 
technologies, nor on the relationship between energy alternatives and 
economic development. It did not address the need to consider climate 
change adaptation and mitigation strategies in an integrated way--for 
example, looking at how climate change might affect wind resources, the 
availability of water resources for hydropower, agricultural resources 
for the production of biofuels, and the demand for energy for buildings 
and industry.
    In my judgment, a revitalized National Assessment process should be 
expanded to incorporate the full range of adaptation and mitigation 
issues. The Federal Government should commission a new nationwide, 
regionally- and sectorally-based assessment of technologies and 
strategies for mitigating global warming. This component of the 
assessment should include, for example, energy policy experts, 
renewable energy and energy efficiency companies, state energy offices, 
electric utilities, electricity regulators, and so on, somewhat 
analogous to the network established for the original National 
Assessment of climate change impacts.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Dr. F. Sherwood Rowland
    Question 1. The overall levels of methane in the atmosphere, while 
at record levels, have stabilized over the past few years. Why do you 
believe this is happening and what, if any, are the policy implications 
of this stabilization?
    Answer. The standing amount of methane in Earth's atmosphere 
depends upon the rates of emission of a dozen or more source types 
(swamps, cattle, termites, mining, natural gas leaks) and upon the 
actual removal processes from the atmosphere. The removal occurs almost 
entirely by one chemical reaction, the attack by hydroxyl (HO) 
radicals, and is reasonably well established and measured. However, the 
sources are geographically widely distributed and seldom intensively 
studied on a global basis (e.g. what are the amounts of methane 
released from Ugandan cattle.) Some of the sources such as emissions 
from rice paddies are affected by changes in agricultural practice 
whose effects on methane emission have not been well documented--rice 
paddies are numerous, vary much from one another in different 
locations, and are being judged by relatively few experiments. The only 
process which I know to reducing emissions are the efforts to close 
methane leaks from the oil and gas industry, and these efforts are in 
general not fully documented.
    Methane is in a different timeline category than most of the other 
greenhouse gases because its atmospheric lifetime is decadal in 
nature--about 8 years--in contrast to the century long time scale of 
carbon dioxide, nitrous oxide and the chlorofluorocarbons, on the one 
hand, and the monthly scale of tropospheric ozone and aerosols such as 
black carbon. Basically, the 1 percent growth rate in methane during 
the 1980s represented emissions equal to about 13 percent of the total 
amount present, and 12 percent loss of that present--net change +1 
percent. The slow-down recently suggests that presently the emissions 
are now only about 12 percent of the amount present, for a net balance 
of no change.
    This suggests two aspects--first, the change in global methane 
concentration which has taken place has been in part spontaneous rather 
than from deliberate actions, and second, that, for example, a 
concentrated effort on finding and fixing leaks in the existing global 
oil and natural gas delivery system might well tighten up the system 
enough to drive the global methane concentration downward, and ease 
somewhat the total greenhouse gas strain on the environment. The 
scattered reports which I have read where such leaks have been sought 
and fixed indicates that--because the leaking material is largely a 
commercial fuel which could otherwise be sold--that the costs for 
rigorous attention to the reduction of leakage may not have large 
associated net costs.

    Question 2. What kinds of deposits of methane is it feasible to 
trap or cap?
    Answer. My impression is that trapping and capping is very closely 
associated with the concentration of methane gas--that is, the ratio of 
the amount of methane relative to the amount of air mixed with it is 
the key to the cost and thereby the feasibility of trapping. The 
separation of methane from air has a cost associated with it which is 
generally dependent on how much air there is, rather than how much 
methane. The obvious first choice is closing the leaks of methane in 
the delivery system, not yet mixed with air. On the other end, capping 
of rice paddy emissions or the bubbles coming up from the melting 
Siberian tundra represent conditions which are far less favorable for 
collection of the purified methane.

    Question 3. Politicizing the scientific process may make funding 
agencies hesitant to support controversial science. Also, young 
scientists may be unwilling to gamble their careers on an area of 
research where their funding could be under fire from political forces. 
What are your views on whether the funding agencies and newly minted 
Ph.D.s are more or less wary of working in certain controversial areas 
of science?
    Answer. My own career experience began with roughly two decades of 
working with radioactive materials under circumstances in which the 
only disagreements were internal within the scientific conclusions to 
be drawn from certain experiments, that is with almost no public 
contact. From this situation, the CFC/ozone depletion hypothesis 
dropped into the middle of deep public controversy. The political 
controversy in this case was basically not between national political 
parties but between orientations toward the environment or toward 
industry. In the 1970s and 1980s, there were strong supporters on both 
sides from both the Republican and Democratic parties, in approximately 
equal numbers. The funding agency which was supporting my research in 
1973 was the U.S. Atomic Energy Commission, which had been supporting 
my radiochemical research in a long, continuing series of one-year 
contracts for 17 years. This support continued through the transition 
into public controversy, as well as through the transformation of the 
AEC into ERDA and then DOE, and eventually ended in 1994. By this time, 
the larger part of research support for my work was coming from NASA, 
most of it for aircraft-based atmospheric experiments in a form quite 
different from our original laboratory-based experiments.
    The most obvious changes in the ``CFC/ozone controversial'' period, 
(which lasted approximately 14 years until the adoption of the Montreal 
Protocol in 1987 and the NASA Ozone Trends Panel report early in 1988) 
were the drying up of invitations to give seminars to U.S. chemistry 
departments (but an increase to other departments) and applications for 
postdoctoral positions from U.S. students. Applications for 
postdoctoral positions from Asian and European universities continued 
as before, especially from Japan.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ted Stevens to 
                           Thomas R. Knutson
    Question 1. From what I understand, you are one of the only 
scientists that has alleged censoring from NOAA. Considering that the 
agency sends out over 10,300 reports, press releases, and press 
contacts annually, do you believe that there is truly a systemic 
problem at the agency?
    Answer. The problem is more serious than implied in the question. 
At the hearing. I focused on my own experiences, with a few anecdotal 
comments about the experiences of others at GFDL. Being an active 
researcher, I have little time to explore/document the pervasiveness of 
these problems at NOAA in detail. However, a recent report by the 
Government Accountability Project has researched this question in some 
detail. The full report can be downloaded from this site:
    http://www.whistleblower.org/doc/2007/
Final%203.28%20Redacting%20Climate%20science%20Report.pdf
    Based on this report, it seems clear that the interference that 
government climate scientists at NOAA and other agencies have 
experienced in their interactions with the media is not just confined 
to a few isolated incidents involving a few scientists. Rather, there 
have clearly been more numerous incidents than should be tolerated at 
any agency, in my opinion.
    The 10,300 NOAA reports and contacts annually is not a very 
appropriate statistic in the context of the problems being discussed, 
which are focused on the much smaller set of reports and individuals 
involved with leading-edge global warming research. For example, former 
GFDL directory Jerry Mahlman is quoted in the GAP report as follows:

        ``NOAA employs roughly 1.200 people, the large majority of 
        which have little or nothing to do with climate, or climate 
        change. I think it is fair to say that there are about 120 
        people who are connected with the climate problem in some form 
        other another. . . . Of that roughly 120 people, I would 
        estimate that about, say, 20 of them are the ones who are 
        actively submitting climate-warming relevant scientific papers 
        to prestigious scientific journals . . .''

    The NOAA incidents outlined in the GAP report typically involve 
some of these scientists (who are relatively rare within NOAA) that are 
publishing leading climate warming-relevant research in such journals.
    In my opinion, NOAA should take pride in the accomplishments of its 
climate scientists within the ranks of the organization, and should 
encourage their interactions with the media. Instead the incidents 
outlined in the GAP report reveal an organization where a number of 
these scientists have at times had to try to overcome various hurdles 
from NOAA public affairs, and elsewhere in the government, in trying to 
convey their science to the general public. Since their research is 
funded by the U.S. tax payers, it seems appropriate to me that the tax 
payers should be entitled to learn about the results of the research 
that they are paying for, without interference from NOAA public affairs 
or other parts of the Federal Government.

    Question 2. I understand that the recent Intergovernmental Panel on 
Climate Change report concludes that much of the warming over the past 
50 years is caused by humans. I am concerned about human-caused 
factors. However, I am also interested in the effects of natural causes 
such as solar flares and the impact of the Pacific and Atlantic decadal 
oscillations. Do you feel enough has been done to examine the impacts 
of natural factors on climate change?
    Answer. This is a very interesting question. My colleague Tom 
Delworth and I published an article in the journal Science several 
years ago examining possible causes for warming during the 20th 
century, focusing especially on the early 20th century warming. Here is 
a link to the article: http://www.gfdl noaa.gov/reference/bibliography/
2000/td0002.pdf
    Our analysis suggests that natural internal climate variability 
played a prominent role in the early 20th century warming, perhaps 
comparable to that of increasing greenhouse gases. In particular the 
strong warm event that occurred in the high latitudes of the northern 
hemisphere around the 1940s seemed to fit best with an explanation of a 
strong role (in that region) for internal climate variability. In the 
high northern latitudes, particularly around the North Atlantic, 
temperatures actually cooled from the 1940s to the 1970s. Based on this 
analysis, there does seem to be a role for internal climate variability 
in explaining some of the multi-decadal temperature variations during 
the 20th century. In fact, our climate model produced fairly realistic 
examples of such variations.
    However, there is little evidence that natural internal variability 
has caused the global scale warming that has taken place from the late 
1800s to the present. This warming has a much different spatial pattern 
than the multi-decadal variation that took place in high northern 
latitudes in the early 20th century. The broad-scale long-time scale 
global warming has no ``naturally occurring'' analog in our climate 
model simulations. However, it is rather well-reproduced in our model 
if we force the model using best estimates of the changes in greenhouse 
gases and aerosols since the late 1800s.
    Our view is that high northern latitude regions are characterized 
by a greater degree of natural multi-decadal climate variability than 
elsewhere on the globe. This can complicate the detection of the 
greenhouse warming signal in those regions. For example, is the more 
rapid warming in recent years in high northern latitudes an example of 
polar amplification of the greenhouse warming signal? Or is it another 
manifestation of internal climate variability, perhaps combined with a 
more modest greenhouse warming signal? The short answer is that we 
don't know at this time. However, we can say with a high degree of 
confidence that the global warming signal is not solely natural in 
origin, but rather that a large part of the global warming has been 
caused by increases in greenhouse gases from human activity.
    Is enough being done to understand the role of natural factors? I 
think there is room for expanded research efforts on this topic (in 
fact on both natural and human-caused climate change). However, I don't 
believe that the relative degree of effort being expended on 
understanding these two topics (natural vs. human-caused climate 
change) is seriously out of line at this time.

                                  <all>

</pre></body></html>
